<html>
<title> - THE MAGNUSON-STEVENS ACT AT 40: SUCCESSES, CHALLENGES, AND THE PATH FORWARD</title>
<body><pre>[Senate Hearing 114-523]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-523

  THE MAGNUSON-STEVENS ACT AT 40: SUCCESSES, CHALLENGES, AND THE PATH 
                                FORWARD

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 23, 2016

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                        U.S. GOVERNMENT PUBLISHING OFFICE 

23-227 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                       Nick Rossi, Staff Director
                  Adrian Arnakis Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARCO RUBIO, Florida, Chairman       CORY BOOKER, New Jersey, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
KELLY AYOTTE, New Hampshire          RICHARD BLUMENTHAL, Connecticut
TED CRUZ, Texas                      EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 BRIAN SCHATZ, Hawaii
RON JOHNSON, Wisconsin               GARY PETERS, Michigan

























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 23, 2016................................     1
Statement of Senator Sullivan....................................     1
Statement of Senator Booker......................................     3
Statement of Senator Nelson......................................     4
Statement of Senator Cantwell....................................    16
Statement of Senator Ayotte......................................    18
Statement of Senator Schatz......................................    20
Statement of Senator Blumenthal..................................    22
Statement of Senator Markey......................................    24

                               Witnesses

Hon. Samuel D. Rauch III, Deputy Assistant Administrator for 
  Regulatory Programs, National Marine Fisheries Service, 
  National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce.........................................     5
    Prepared statement...........................................     6

                                Appendix

Hon. Marco Rubio, U.S. Senator from Florida, prepared statement..    35
Written Testimony on behalf of the Alaska Longline Fishermen's 
  Association (ALFA), the Alaska Marine Conservation Council 
  (AMCC), the Central Bering Sea Fishermen's Association (CBSFA), 
  the City of Saint Paul Island, AK, (the City), and the Halibut 
  Association of North America (HANA)............................    35
Response to written questions submitted to Hon. Samuel D. Rauch 
  III by:
    Hon. John Thune..............................................    40
    Hon. Roger F. Wicker.........................................    42
    Hon. Kelly Ayotte............................................    45
    Hon. Bill Nelson.............................................    46
    Hon. Cory Booker.............................................    52
    Hon. Richard Blumenthal......................................    54
    Hon. Gary Peters.............................................    62
 
                    THE MAGNUSON-STEVENS ACT AT 40:
                       SUCCESSES, CHALLENGES, AND
                            THE PATH FORWARD

                              ----------                              


                       TUESDAY, FEBRUARY 23, 2016

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:36 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Dan Sullivan, 
presiding.
    Present: Senators Sullivan [presiding], Wicker, Ayotte, 
Nelson, Booker, Cantwell, Blumenthal, Markey, Schatz, and 
Peters.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. The Subcommittee on Oceans, Atmosphere, 
Fisheries, and the Coast Guard will now come to order. Good 
afternoon.
    The purpose of today's hearing is to recognize the 40th 
anniversary of the enactment of what is known as the Magnuson-
Stevens Fishery Conservation and Management Act, the MSA, as we 
call it in Alaska, and to examine this law's impacts on 
managing our Nation's fisheries, its successes, and possible 
areas of improvement.
    As I have mentioned at this committee many times before, 
Alaska's fisheries are by far the largest in the Nation. I know 
my colleague from Massachusetts was just here. We refer to 
ourselves as the superpower of seafood. Almost 60 percent of 
all landings in America come from the shores of Alaska or 
Alaskan waters.
    But this was not always the case. Before President Ford 
signed the MSA legislation on April 13, 1976, residents in many 
of Alaska's coastal communities could see a wall of lights off 
their shores emanating from the large foreign ships that were 
catching Alaska's fish, America's fish, and taking our economic 
potential as a state and as a country back home with them.
    The MSA has successfully Americanized our fisheries and 
built the fishing industry in the United States that today is 
one of our largest employers certainly in Alaska and in many 
other States throughout the country.
    Through the MSA's guiding principles, the 10 National 
Standards as applied by the eight regional fishery management 
Councils who manage the fisheries off America's coasts in a 
science-based and open and transparent stakeholder-driven 
process, the MSA has resulted in the world's best managed 
fisheries, particularly in Alaska where we have no overfished 
stocks resulting from fishing.
    Nationally the impacts have been similar. Today the Council 
and NMFS manage 469 stocks through 46 fishery management plans 
and only a small fraction of these are impacted by overfishing, 
fewer than ever before. The value derived from harvesting these 
species in our country is near an all-time high.
    Bottom line, today's hearing is about a good news story. 
Congress recognized a problem, studied it, focused on balancing 
economic and sustainability issues, and acted in a bipartisan 
long-term way that has dramatically and positively impacted our 
Nation.
    Today maintaining economics without jeopardizing 
conservation is the great charge that Congress has assigned to 
NMFS and all of the councils, and it is a requirement that can 
obviously be a strained balancing act. But we must ensure that 
our Nation's fisheries management system supports a stable food 
supply, recreational opportunities, and plentiful fishing and 
processing jobs for vibrant coastal communities.
    Conservation and management must go hand in hand, and we 
cannot allow a desire for preservation to replace a productive 
domestic seafood industry. Already today under the law, the 
North Pacific and other Councils are managing with conservation 
in mind, considering habitat protections, ecosystems 
management, and time, area, and gear closures to protect other 
fisheries and protected species. While some regions have had 
better and more abundant science than others and some Councils 
function more effectively than others, separating fish politics 
from science and allowing those closest to the fisheries to 
make decisions rather than someone back in Washington, D.C. is 
a true hallmark of the MSA. And it is Congress' job to provide 
the tools and resources to get this job done.
    The MSA has gone through two major reauthorizations, one in 
1996 and another in 2006. And like anything else, from time to 
time, it may be appropriate and necessary for updates to 
respond to current conditions. Last year, the House of 
Representatives did just that with its MSA Reauthorization Act.
    Similarly, NMFS has proposed rules to update the National 
Standards guidelines, but the National Standards guidelines are 
not law and only serve as guidance to the councils. It is also 
worth mentioning that NMFS updates track similar issues as what 
is proposed in the House bill.
    At the same time, I have heard from Alaska's fishermen that 
our role as the steward of the MSA should largely be that of a 
doctor practicing the mantra ``first do no harm.'' And that is 
a great testament to the vision and hard work of those who 
crafted the act 40 years ago, including the dozens of Alaskans 
that camped out in the offices of Don Young and Ted Stevens 
back in the 1970s as they and others like Congressman Gary 
Studds of Massachusetts and Senator Warren Magnuson of 
Washington crafted the law that would manage our Nation's 
fisheries for future generations. And as Congressman Young is 
fond of saying, the Young-Studds Act has a much better ring to 
it than the Magnuson-Stevens Act.
    [Laughter.]
    Senator Sullivan. But we did not call it that.
    Finally, this past year, this committee proved that we can 
do very important work on fisheries that is bipartisan and 
brings together support from industry and the environmental 
community as well. After almost a decade, we passed 
legislation, comprehensive legislation, to curb illegal, 
unreported, and unregulated fishing, the IUU fishing problem 
that the President signed a few months ago.
    With that, I would like to thank our witness, Mr. Sam 
Rauch, the Deputy Administrator for NMFS, for being here and 
recognize now my good friend and ranking member for any opening 
statement that he may have.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. I am really, really grateful to Chairman 
Sullivan for having this hearing and for his leadership on this 
subject and for always looking for a way to bring Senators 
together on issues of this kind of importance.
    The success of the Magnuson-Stevens Fishery Conservation 
and Management Act has been considerable to date, and I am 
happy that we are here to see how we can make the act even 
better and stronger moving forward.
    I would like to welcome our witness, Mr. Rauch. And am I 
pronouncing that right?
    Mr. Rauch. Yes.
    Senator Booker. Thank you very much. And thank him for his 
testimony today.
    The Magnuson-Stevens Act seeks to prevent overfishing and 
to rebuild overfished stocks. On both fronts, again, the MSA 
has been successful. NOAA's most recent status of U.S. 
fisheries report to Congress shows that the number of domestic 
fish stocks listed as overfished or subject to overfishing has 
dropped to an all-time low. As of December 31, 2015, 91 percent 
of stocks for which we have assessments are not subject to 
overfishing, and for our rebuilt stocks, we are seeing many of 
them generate substantially more revenue now than they did when 
they were being overfished.
    The commercial fishing industry nationally employs more 
than one million people. Recreational fishing adds an 
additional 327,000 jobs. A recent report by the National Ocean 
Economics Program found that the ocean economy shows overall 
growth in the United States of America, actually outpacing our 
national economy. So continuing to build on the success of the 
MSA is critical not only for the health of our fisheries but 
also to the health of our great American economy.
    Ocean fish have inherent value beyond fishing and seafood, 
though. Fish populations are an integral part of a larger 
marine ecosystem, which includes corals, seabirds, marine 
mammals, and sea turtles, important living resources that 
provide ecological benefits, as well as economic value, for 
activities such as tourism.
    But our oceans and our fisheries currently face many, many 
threats. One threat is bycatch. Bycatch results in the death of 
millions of fish, sea turtles, whales, dolphins, and other 
marine mammals each and every year, wasting important food 
resources, damaging the economic success of our fisheries, and 
threatening the future of inherently vulnerable, though 
valuable, marine species.
    Another threat is climate change. Climate change is causing 
our oceans to warm and become more and more acidic. Numerous 
climate studies have shown that the oceans are warming. A new 
study, released just last week, demonstrates how warming waters 
have increased the prevalence of diseases that are killing 
lobsters by burrowing under their shells and causing lesions. 
According to the study, the outbreaks are so lethal that the 
lobster fishery, already decimated in southern New England, may 
soon be threatened in Maine as well.
    Thirty percent of carbon dioxide released into the 
atmosphere ends up in oceans, leading to acidification, which 
is harming shell-forming organisms such as coral, sea urchins, 
mussels, clams, and plankton, all of which depend on balanced 
chemical conditions within our waters to form their structures. 
These species are critical to the future health of our 
fisheries because they serve as food, and corals provide a 
critical habitat.
    Last year, in order to protect sensitive areas of deep sea 
corals, the Mid-Atlantic Council moved to designate over 38,000 
square miles of Federal waters off limits to bottom tending 
fishing gear. The Council relied on authority included in the 
last reauthorization of the MSA and provides Councils the 
discretion to protect deep sea coral habitat, provisions 
championed by the late Senator Lautenberg. Just last week in a 
fitting tribute, the Council named the area for Senator 
Lautenberg, whose multiyear efforts to protect cold water 
corals culminated in the enactment of this important MSA 
authority.
    Important MSA provisions such as these must be preserved 
and strengthened as we move forward. Mr. Chairman and my 
friend, the MSA Act has a long history of bipartisan 
cooperation. I appreciate the sentiment with which you are 
advancing the cause, and I look forward to working with you on 
these issues and hope to hear some really important things from 
our witness. Thank you.
    Senator Sullivan. Thank you, Senator Booker.
    I now want to welcome our main witness, Sam Rauch, the 
Deputy Assistant Administrator----
    Senator Booker. Mr. Chairman, if I may ask if it is 
possible to let the Ranking Member from Florida maybe have 
some----
    Senator Sullivan. Absolutely. No problem.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Just to what you gentlemen have said, it 
was Maggie and Ted in 1976 that passed this, signed into law by 
President Ford. It has been so important, and we have got to 
rebuild on it to make sure that we save the fish.
    Thank you.
    Senator Sullivan. Thank you, Senator Nelson. And I think 
you will see here the interest of this issue already with a 
strong bipartisan group of Senators.
    So without further ado, our main witness will have 5 
minutes to deliver his oral statement, and I believe a longer 
written statement will be included in the record.

         STATEMENT OF HON. SAMUEL D. RAUCH III, DEPUTY

             ASSISTANT ADMINISTRATOR FOR REGULATORY

          PROGRAMS, NATIONAL MARINE FISHERIES SERVICE,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Mr. Rauch. Thank you and good afternoon, Chairman Sullivan, 
Ranking Member Booker, members of the Subcommittee. Thank you 
for the opportunity to testify today. My name is Sam Rauch. I 
am the Deputy Director of NOAA's National Marine Fisheries 
Service.
    And I echo everything that you both said about the success 
of the Magnuson-Stevens Act. We have been at this for 40 years. 
Congress laid down an important structure that has been 
preserved for us today. It is the strength of the structure, 
the dedicated nature of the participants that have led to the 
success.
    Currently the United States fisheries are among the world's 
largest and they are the most sustainable. For 40 years, the 
Magnuson-Stevens structure that Congress put in place has 
taught us that dynamic, science-based management process, 
transparent stakeholder engagement is fundamental for managing 
fisheries to be sustainable.
    This is not something that the National Marine Fisheries 
Service does alone. The bulk of the work is done through the 
fishery management councils. They are the key linchpin to all 
the successes that we have done. The states participate through 
the Council process. The states are a key partner in every 
facet from data collection to policy setting. The stakeholders 
are present. It is an open and transparent and science-based 
process, and it is because of that process that we have 
achieved the success that we have.
    I do want to echo some of the great things. Every year we 
do set near records, either records or near records, in recent 
years in terms of landings, in terms of economic value from the 
fisheries, in terms of jobs from the commercial and 
recreational sector of the fisheries. There is over $100 
billion in revenue generated by the commercial and recreational 
fishery, around two million jobs generated by those two 
sectors. And at the same time, as was indicated, we continue to 
meet standards for ending overfishing, for rebuilding stocks. 
We have rebuilt a record number of stocks since the early 
2000s.
    My testimony today will focus on the progress we have made 
toward implementing the key provisions and talk about the 
National Standard guidelines.
    One of the things that we have done that I wanted to focus 
on is rebuilding. We take stocks that have been overfished or, 
for whatever reason, are depleted, and through the partnership 
that I mentioned, we have achieved success. One of them is the 
Atlantic sea scallops. In the early 1990s, the abundance of sea 
scallops was near record lows, and the fishery mortality rate 
was at a record high. Working through the Council process, we 
implemented a number of measures to allow the stock to recover, 
including an innovative management system which allowed the 
fishermen to rotate where they fish. Through this process, the 
stock was declared rebuilt in 2001, and in real terms, the 
gross revenues in New England increased almost sevenfold from 
44 million in 1998 to 298 million in 2014.
    Another example is the Bering Sea snow crab. In 1999, 
scientists found that the snow crab was overfished. In 
response, the managers reduced harvests to a level that would 
allow the stock to rebuild, and the stock was declared rebuilt 
in 2011. And in subsequent fishing years, managers have been 
able to actually increase that limit by 65 percent, to nearly 
66,000 metric tons, such that in 2013 revenue from the fishery 
was at $236 million, an almost threefold increase from its low 
in 2005 before being rebuilt.
    As part of the process, we periodically host a large 
meeting called Managing Our Nation's Fisheries in which we 
canvas our partners, the States, the NGO communities, the 
fishermen to find out how we are doing in terms of the Magnuson 
Act, whether things need to be changed. We hosted one several 
years ago. Traditionally this is a venue for people to argue 
for congressional changes. We were very pleased that at the 
last meeting, the vast, overriding sentiment was that the 
Magnuson Act was working, the structure was inherently good. 
There are certain fisheries in certain parts of the country 
that experience difficulties. I am sure we will talk about some 
of those. But in general, the fishery nationwide is a success 
and it should be preserved.
    There were some things that people suggested that we 
change. We looked at the numbers of suggestions. Most of them 
could be done through regulation, which was the genesis for why 
we decided to go through what we call National Standard 1 and 
provide guidance to the Councils on different ways that they 
could do--different things that they could do to help promote 
more stability and more flexibility while at the same time 
preserving those critical pieces that led to the success that 
we have. We were absolutely adamant that we will continue to 
end overfishing. We will not allow it to occur. We will rebuild 
stocks. That is the basis for which everything is based on, and 
we will continue to do that.
    So that rule was out for comment. We are hoping to finalize 
it in the coming months, and I look forward to continuing to 
work with Congress as it decides what it wants to do on the 
remaining issues in front of us today.
    Thank you.
    [The prepared statement of Mr. Rauch follows:]

      Prepared Statement of Samuel D. Rauch III, Deputy Assistant 
   Administrator for Regulatory Programs, National Marine Fisheries 
    Service, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce
Introduction
    Good afternoon, Chairman Rubio, Ranking Member Booker, and Members 
of the Subcommittee. I appreciate the opportunity to speak with you 
today about the Magnuson-Stevens Fishery Conservation and Management 
Act (Magnuson-Stevens Act) and proposed revisions to the Act's National 
Standard 1 guidelines. My name is Samuel D. Rauch and I am the Deputy 
Assistant Administrator for the National Oceanic and Atmospheric 
Administration's (NOAA) National Marine Fisheries Service (NMFS) in the 
Department of Commerce. From daily weather forecasts, severe storm 
warnings, and climate monitoring to fishery management, coastal 
restoration, and supporting marine commerce, NOAA's products and 
services support economic vitality and affect more than one-third of 
America's gross domestic product. NOAA's dedicated scientists use 
cutting-edge research and high-tech instrumentation to provide 
citizens, planners, emergency managers, and other decision makers with 
reliable information they need when they need it. Today, I will 
describe our work under the Magnuson-Stevens Act, which sets forth 
standards for conservation, management, and sustainable use of our 
Nation's fisheries resources.
    The Magnuson-Stevens Act has been a success. U.S. fisheries are 
among the world's largest and most sustainable. For forty years, 
Magnuson-Stevens has taught us that a dynamic science-based management 
process is fundamental for managing fisheries to be sustainable. The 
goal of fisheries management is to achieve fisheries that are both 
environmentally sustainable and economically important. In partnership 
with the regional fishery management councils, interstate fishery 
commissions, and our stakeholders, and driven by the Magnuson-Stevens 
Fishery Conservation and Management Act (MSA), the agency has ended 
overfishing and made significant progress rebuilding domestic fish 
stocks. By preventing overfishing and rebuilding stocks, we are 
strengthening the value of fisheries to the economy and communities, 
and also ensuring that marine ecosystems are able to provide a 
sustainable supply of seafood for the Nation in the future.
    Marine fish and fisheries--such as tropical tunas in the Western 
and Central Pacific, salmon in the Pacific Northwest, halibut in 
Alaska, cod in New England and red snapper in the Gulf of Mexico--are 
vital to the prosperity and cultural identity of coastal communities in 
the United States. U.S. fisheries play an enormous role in the U.S. 
economy. Commercial fishing supports fishermen, contributes to coastal 
communities and businesses, and provides Americans with a valuable 
source of local, sustainable, and healthy food. Non-commercial and 
recreational fishing provides food for many individuals, families, and 
communities; is an important social activity; and is a critical 
economic driver of local and regional economies, as well as a major 
contributor to the national economy. Subsistence and ceremonial fishing 
provides an essential food source and has deep cultural significance 
for indigenous peoples in the Pacific Islands and Alaska and for many 
Tribes on the West Coast.
    Our most recent data show that after adjusting for inflation the 
landed volume and the value of commercial U.S. wild-caught fisheries 
remained near the high levels posted in 2011. U.S. commercial fishermen 
landed 9.4 billion pounds of seafood valued at $5.5 billion in 2014, 
the third highest landings value over the past decade and in nominal 
terms, the second highest landings value on record.\1\ The seafood 
industry--harvesters, seafood processors and dealers, seafood 
wholesalers and seafood retailers, including imports and multiplier 
effects--generated an estimated $142 billion in sales impacts and $40 
billion in income impacts, and supported 1.4 million jobs in 2013, the 
most recent year economic impact numbers are available. Jobs supported 
by commercial businesses increased 6 percent from the previous year.\2\
---------------------------------------------------------------------------
    \1\ See NOAA Annual Commercial Fisheries Landings Database, 
available at http://www.st.nmfs.noaa.gov/commercial-fisheries/
commercial-landings/annual-landings/index.
    \2\ See Fisheries Economics of the U.S. 2013. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
economics/publications/feus/FEUS-2013/fisheries_economics
_2013
---------------------------------------------------------------------------
    At the same time, recreational catch remained stable. Recreational 
fishing generated an estimated $52 billion in sales impacts and $18 
billion in income impacts, and supported 370,000 jobs in 2013. Jobs 
generated by the recreational fishing industry represented a 13 percent 
increase over 2010.\3\
---------------------------------------------------------------------------
    \3\ See Fisheries Economics of the U.S. 2013. NMFS Office of 
Science & Technology, available at: http://www.st.nmfs.noaa.gov/
economics/publications/feus/FEUS-2013/fisheries_economics
_2013
---------------------------------------------------------------------------
    The advancement of our science and management tools has resulted in 
improved sustainability of fisheries and greater stability for 
industry. Key requirements in the 2007 reauthorization mandated the use 
of science-based annual catch limits and accountability measures to 
better prevent and end overfishing. The reauthorization provided more 
explicitly for market-based fishery management through Limited Access 
Privilege Programs, and addressed the need to improve the science used 
to inform fisheries management.
    The U.S. has many effective tools to apply in marine fisheries 
management. Yet, as we look to the future, we must continue looking for 
opportunities to further improve our management system. While 
significant progress has been made since the 2007 reauthorization, 
progress has not come without a cost to some. Challenges remain. 
Fishermen, fishing communities, and the Councils have had to make 
difficult decisions and absorb the near-term cost of conservation and 
investment in long-term economic and biological sustainability.
    We all share the common goal of healthy fisheries that can be 
sustained for generations. Without clear, science-based rules, fair 
enforcement, and a shared commitment to sustainable management, short-
term pressures can easily undermine progress toward restoring the 
social, economic, and environmental benefits of a healthy fishery. 
Although challenges remain in some fisheries, the benefits for the 
resource, the industries it supports, and the economy are beginning to 
be seen as fish populations grow and catch limits increase.
    My testimony today will focus on NMFS' progress in implementing the 
Magnuson-Stevens Act's key domestic provisions, how our proposed 
revisions to the National Standard 1 guidelines could further 
facilitate, provide additional flexibility, and improve compliance with 
the Act, and some thoughts about the future.
Progress in Implementation
    Working together, NMFS, the Councils, coastal states and 
territories, treaty fishing tribes, and a wide range of industry groups 
and other stakeholders have made significant progress in implementing 
key provisions of this legislation.
Ending Overfishing and Rebuilding Fisheries
    U.S. fisheries are producing sustainable U.S. seafood. The Federal 
fishery management system has effectively ended overfishing and is 
rebuilding overfished fisheries. We continue to make progress toward 
long-term biological and economic sustainability and stability. Since 
its initial passage in 1976, the Magnuson-Stevens Act has charted a 
groundbreaking course for sustainable fisheries. When reauthorized in 
2007, the Act gave the eight Regional Fishery Management Councils and 
NMFS a very clear charge and some new tools to support improved science 
and management. We are now seeing the results of those tools. As of 
December 31, 2015, 91 percent of stocks for which we have assessments 
are not subject to overfishing, and 84 percent are not overfished. The 
number of stocks subject to overfishing was highest in 2000, when 47 
stocks were on the overfishing list. In 2002, 55 stocks were 
overfished. Nationally, we have rebuilt 39 stocks since 2000.\4\
---------------------------------------------------------------------------
    \4\ These statistics were compiled from the quarterly stock status 
reports at: http://www.nmfs.noaa.gov/sfa/fisheries_eco/
status_of_fisheries/status_updates.html
---------------------------------------------------------------------------
    We expect the number of stocks on the overfishing list to continue 
to decrease as a result of management under annual catch limits. Ending 
overfishing allows stocks to increase in abundance, so we expect to see 
further declines in the number of overfished stocks and increases in 
the number of rebuilt stocks.
    Flexibility is inherent in the Magnuson-Stevens Act's rebuilding 
requirements. The Act requires that the period to rebuild a stock not 
exceed 10 years, but it permits a longer time period in certain cases 
where the biology of the fish stock, management measures under an 
international agreement in which the United States participates, or 
other environmental conditions dictate otherwise, although this period 
still must be as short as possible. Current rebuilding time periods for 
stocks with active rebuilding plans range from four years to more than 
100 years. Of the 36 active rebuilding plans with a target time to 
rebuild, 22 of them (61 percent) are set longer than 10 years due to 
the biology of the stock (slow-growing, late-reproducing, long lived 
species) or environmental conditions. For example, Pacific yelloweye 
rockfish has a rebuilding timeline of 71 years. The remaining 14 
rebuilding plans are set for 10 years or less. Of the 39 stocks rebuilt 
since 2000, 35 stocks were rebuilt within 10 years or less.
    The Magnuson-Stevens Act provides flexibility to adjust rebuilding 
plans when a stock is failing to make adequate progress toward 
rebuilding. In these situations, the Councils can amend the rebuilding 
plan with revised conservation and management measures. The Act 
requires that the revised plan be implemented within two years and that 
it end overfishing (if overfishing is occurring) immediately upon 
implementation.
    Rebuilding plans are also adaptable when new scientific information 
indicates changing conditions. For example, the target time to rebuild 
Pacific ocean perch off the Pacific Coast was lengthened based on 
information within a rebuilding analysis. The rebuilding analysis, 
conducted in 2011, revised our understanding of the Pacific ocean perch 
stock status and productivity and showed that, even in the absence of 
fishing, the time it would take to rebuild the stock would be longer 
than the previously established target time to rebuild. Given this 
information, NMFS worked with the Pacific Fishery Management Council in 
2012 to modify the rebuilding plan and extend the target time for stock 
rebuilding from 2017 to 2051.
    Rebuilding timelines can also be shortened based on new 
information. As one example, the original rebuilding plan for cowcod, a 
Pacific Coast groundfish, was 95 years. The rebuilding time has been 
modified based on updated scientific information, and is currently 67 
years.
    Rebuilding fisheries brings significant biological, economic, and 
social benefits, but doing so takes time, persistence, sacrifice, and 
adherence to scientific information. Of 26 rebuilt stocks for which 
information is available, half of them now produce at least 50 percent 
more revenue than they did when they were overfished. Seven stocks have 
current revenue levels that are more than 100 percent higher than the 
lowest revenue point when the stock was overfished.
    Atlantic sea scallops provide one example of rebuilding success. In 
the early 1990s, the abundance of Atlantic sea scallops was near record 
lows and the fishing mortality rate was at a record high. Fishery 
managers implemented a number of measures to allow the stock to 
recover, including an innovative area management system. The stock was 
declared rebuilt in 2001. In real terms, gross revenues in New England 
increased almost seven-fold from $44 million in 1998 to $298 million in 
2014, making New Bedford the Nation's top port by value of landings 
since 2000.
    Another example of rebuilding success can be seen with Bering Sea 
snow crab. In 1999, scientists found that Bering Sea snow crab was 
overfished. In response, managers reduced harvests to a level that 
would allow the stock to rebuild, and the stock was declared rebuilt in 
2011. In the 2011-2012 fishing year, managers were able to increase the 
harvest limit by 65 percent to nearly 66 thousand metric tons. In 2013, 
revenue from the fishery was $236 million, an almost three-fold 
increase from its low in 2005 prior to being fully 
rebuilt.\5\<SUP>,</SUP>\6\
---------------------------------------------------------------------------
    \5\ Garber-Yonts, B., and J. Lee., 2014. Stock Assessment and 
Fishery Evaluation Report for King and Tanner Crab Fisheries of the 
Bering Sea and Aleutian Islands Regions: Economic Status of the BSAI 
Crab Fisheries, 2014. P. 79.
    \6\ North Pacific Fishery Management Council. 2015. Stock 
Assessment and Fishery Evaluation Report for King and Tanner Crab 
Fisheries of the Bering Sea and Aleutian Islands Regions: 2015 Final 
Crab SAFE. P. 12
---------------------------------------------------------------------------
Benefits of Annual Catch Limits
    One of the most significant management provisions of the 2007 
reauthorization of the Magnuson-Stevens Act was the mandate to 
implement annual catch limits, including measures to ensure 
accountability and to end and prevent overfishing in federally managed 
fisheries by 2011 (an annual catch limit is an amount of fish that can 
be caught in a year such that overfishing does not occur; 
accountability measures are management controls to prevent annual catch 
limits from being exceeded, and to correct or mitigate overages of the 
limits if they occur). This is an important move away from a management 
system that could only be corrected by going back through the full 
Council process in order to amend Fishery Management Plans--often 
taking years to accomplish, all while overfishing continued.
    Now, when developing a fishery management plan or amendment, the 
Councils must consider, in advance, the actions that will occur if a 
fishery does not meet its performance objectives. As of December 31, 
2015, overfishing had ended for 70 percent of the 33 domestic U.S. 
stocks that were subject to overfishing in 2007 when the Magnuson-
Stevens Act was reauthorized.\7\
---------------------------------------------------------------------------
    \7\ See Fish Stock Sustainability Index. This report was the source 
for the underlying data, but the numbers presented here were compiled 
specifically for this hearing. The report is available at: http://
www.nmfs.noaa.gov/sfa/statusoffisheries/2012/fourth/
Q4%202012%20FSSI%20Sum
mary%20Changes.pdf
---------------------------------------------------------------------------
    Ending overfishing is the first step in rebuilding. Prior to the 
implementation of annual catch limits, a number of rebuilding plans 
experienced difficulty in ending overfishing and achieving the fishing 
mortality rate called for in the plan. As a result, rebuilding was 
delayed. Conversely, stocks where overfishing has ended quickly have 
seen their stock size increase and rebuild more quickly. For example, 
Widow rockfish in the Pacific was declared overfished in 2001. Fishing 
mortality on Widow rockfish was immediately substantially reduced 
resulting in a corresponding increase in stock size. The stock was 
declared rebuilt in 2011, ahead of the rebuilding deadline.
    Most major reductions in allowable catch experienced by fishermen 
when stocks enter rebuilding plans are predominantly from the 
requirement to prevent overfishing--which is now required through 
annual catch limits for all stocks, not just those determined to be 
overfished. When unsustainably large catches have occurred due to high 
levels of overfishing on a depleted stock, large reductions in catch 
will be needed to end overfishing, and the stock must rebuild in 
abundance before catches will increase.
    Because ending overfishing is essential to rebuilding, annual catch 
limits are a powerful tool to address prior problems in achieving 
rebuilding. Overfishing has ended for nine of the 14 stocks currently 
in 10-year (or less) rebuilding plans. Annual catch limits, which are 
now in place as a mechanism to control catch to the level specified in 
the rebuilding plan, are working and we anticipate the next stock 
assessments for these species to confirm that overfishing has ended. 
With that result, we will begin to see stronger rebuilding for these 
stocks. In addition, preliminary data show that annual catch limits 
have been effective in limiting catch and preventing overfishing for 
the majority of stocks. Fisheries have successfully stayed within their 
annual catch limit for 89 percent of the stocks for which we have catch 
data.
Ensuring Transparency and Stakeholder Engagement
    The Magnuson-Stevens Act created broad goals for U.S. fisheries 
management and a unique, highly participatory management structure 
centered on the Councils. This structure ensures that input and 
decisions about how to manage U.S. fisheries develop through a ``bottom 
up'' process that includes fishermen, other fishery stakeholders, 
affected states, tribal governments, and the Federal Government. By 
working together with the Councils, states, tribes, and fishermen--
under the standards set in the Magnuson-Stevens Act--we have made great 
strides in ending overfishing, rebuilding stocks, and building a 
sustainable future for our fishing-dependent communities.
    The Magnuson-Stevens Act guides fisheries conservation and 
management through 10 National Standards. These standards, which have 
their roots in the original 1976 Act, provide a yardstick against which 
all fishery management plans and actions developed by the Councils are 
measured. National Standard 1 requires that conservation and management 
measures prevent overfishing while achieving, on a continuing basis, 
the optimum yield from each fishery, which is the average amount of 
harvest that will provide the greatest overall ecological, economic, 
and social benefits to the Nation, particularly by providing seafood 
and recreational opportunities while affording protection to marine 
ecosystems.
    The Councils can choose from a variety of approaches and tools to 
manage fish stocks to meet this mandate--e.g., catch shares, area 
closures, and gear restrictions--and, when necessary, also determine 
how to allocate fish among user groups. These measures are submitted to 
the U.S. Secretary of Commerce for approval and are implemented by 
NMFS. Thus, the Councils, in developing their plans, must carefully 
balance the need for stable fishing jobs, ecological conservation, and 
societal interests to create holistically sustainable fisheries. A key 
aspect of this effort is to ensure that overfishing is prevented, and 
if it occurs, to end it quickly and rebuild any stock that becomes 
overfished. Other National Standards mandate that conservation and 
management measures be based upon the best scientific information 
available, not discriminate between residents of different states, take 
into account variations in fisheries and catches, minimize bycatch, and 
promote the safety of human life at sea.
    Effects on fishing communities are central to many Council 
decisions. Fishing communities rely on fishing-related jobs, as well as 
the non-commercial and cultural benefits derived from these resources. 
Marine fisheries are the lifeblood of many coastal communities in the 
Pacific Islands and West Coast regions and around our Nation. 
Communities, fishermen, and fishing industries rely not only on today's 
catch, but also on the predictability of future catches. The need to 
provide stable domestic fishing and processing jobs is paramount to 
fulfilling one of the Magnuson-Stevens Act's goals--to provide the 
Nation with sources of domestic seafood. This objective has even 
greater purpose now than when the Act was passed, as today U.S. 
consumers are seeking--more than ever--options for healthy, safe, 
sustainable, and local seafood. Under the standards set in the 
Magnuson-Stevens Act--and together with the Councils, states, tribes, 
territories, and fishermen--we have made great strides in maintaining 
more stocks at biologically sustainable levels, ending overfishing, 
rebuilding overfished stocks, building a sustainable future for our 
fishing-dependent communities, and providing more domestic options for 
U.S. seafood consumers in a market dominated by imports. Thanks in 
large part to the strengthened Magnuson-Stevens Act and the sacrifices 
and investment in conservation by fishing communities across the 
country, the condition of many of our most economically important fish 
stocks has improved steadily over the past decade.
Successes and Challenges
    There are many examples of what fishermen, scientists, and managers 
can do by working together to bring back a resource that once was in 
trouble. In the Pacific Islands Region, NMFS, the Western Pacific 
Fishery Management Council, the State of Hawaii, and fishing 
communities have ended overfishing of the Hawaiian archipelago's deep-
water bottomfish complex--a culturally significant grouping of seven 
species of snapper and grouper. This has enabled NMFS to increase 
annual catch limits for these stocks for both commercial and 
recreational fishermen and ensure these fish are available year-round.
    On the West Coast, NMFS and the Pacific Fishery Management Council, 
the fishing industry, recreational anglers, and other partners have 
successfully rebuilt a number of once overfished stocks, including coho 
salmon, lingcod, Pacific whiting, widow rockfish, canary rockfish, and 
petrale sole. These and other conservation gains, including 
implementation of the West Coast groundfish trawl rationalization 
program, enabled NMFS to increase catch limits for abundant West Coast 
groundfish species that co-occur with groundfish species in rebuilding 
plans.
    In the Southeast Region, NOAA, the Gulf of Mexico and South 
Atlantic Fishery Management Councils, the fishing industries, 
recreational anglers and other partners have successfully rebuilt a 
number of once overfished stocks, including red grouper and king 
mackerel in the Gulf of Mexico, black sea bass in the South Atlantic, 
and yellowtail snapper, which is shared by both the Gulf of Mexico and 
South Atlantic regions. These and other conservation gains enabled NMFS 
to increase catch limits for six stocks or stock complexes and 
eliminate or reduce two fixed seasonal closures over the last year. The 
additional harvest opportunities attributed to rebuilding the South 
Atlantic black sea bass stock alone have increased 2013 gross ex-vessel 
revenues for commercial fishermen and annual profits for for-hire 
vessels by about $1 million and $15 million, respectively, relative to 
their low point prior to being fully rebuilt.\8\
---------------------------------------------------------------------------
    \8\ SAFMC (South Atlantic Fishery Management Council). 2013. 
Regulatory Amendment 19 to the Fishery Management Plan for the Snapper 
Grouper Fishery of the South Atlantic Region. South Atlantic Fishery 
Management Council, 4055 Faber Place, Ste 201, North Charleston, S.C. 
29405.
---------------------------------------------------------------------------
    Many fisheries in the Northeast and Mid-Atlantic are also a 
significant part of the national success story. Of the 39 stocks 
rebuilt nationally since 2000, 21, more than half, were rebuilt by 
NOAA, the Northeast and Mid-Atlantic Fishery Management Councils, the 
fishing industries, recreational anglers, and other partners on the 
Atlantic coast. In addition to Atlantic sea scallops, these include 
other important stocks such as summer flounder and Atlantic swordfish.
    But meeting mandates to prevent and end overfishing and implement 
annual catch limits can be very challenging where data is scarce, which 
is the case for many of the stocks in the Pacific Islands region and 
the Caribbean, particularly those species being fished in the coral 
reef ecosystem. We also face formidable challenges managing recovering 
stocks to benefit both commercial and recreational user groups with 
fundamentally different goals and objectives.
Looking to the Future
Remaining Challenges
    Amid these successes, challenges remain. It is critical that we 
continue meeting the mandate of the Magnuson-Stevens Act to end 
overfishing and rebuild overfished stocks. Annual catch limits have 
been an effective tool in improving the sustainability of fisheries 
around the Nation, but managing fisheries using annual catch limits and 
accountability measures was a major change for some fisheries, and the 
initial implementation has identified some areas where we can improve 
that process.
    To address these issues, the agency has begun the process of 
revising the National Standard 1 guidelines, which were modified in 
2009 to focus on implementing the requirement for annual catch limits. 
This was a major change in how many fisheries were managed, and we want 
to ensure the guidance we have in place reflects current thinking on 
the most effective way to meet the objectives of National Standard 1 
and builds on what we, together with the Councils, have learned. In 
January 2015, NMFS requested public comment on a proposed rule to 
revise National Standard 1 guidelines (and related guidelines) to 
enhance their utility for managers and the public. The objective of 
these proposed revisions is to improve and streamline the National 
Standard guidelines, address concerns raised during the implementation 
of annual catch limits and accountability measures, and provide 
flexibility within current statutory limits to address fishery 
management issues.
    The proposed rule included the following significant proposed 
revisions:

  <bullet> A recommendation that Regional Fishery Management Councils 
        reassess the objectives of their fisheries on a regular basis,

  <bullet> Consolidated and streamlined guidance on determining which 
        stocks are in need of conservation and management,

  <bullet> Additional flexibility in rebuilding plans and managing data 
        limited stocks,

  <bullet> A recommendation on the use of indicator stocks within stock 
        complexes,

  <bullet> Guidance on the use of aggregate maximum sustainable yield 
        and a definition for depleted stocks, and

  <bullet> Revised guidance on optimum yield, accountability measures, 
        and Acceptable Biological Catch control rules to provide 
        additional flexibility in carrying over unharvested catch to a 
        subsequent year and providing more stability in catches from 
        year to year.

    The agency received a significant amount of input on our proposed 
rule and we are in the process of responding to the comments and 
developing a final rule.
    We will continue to work with the Councils to achieve the best 
possible alignment of science and management for each fishery to attain 
the goals of the Magnuson-Stevens Act. We will continue to develop our 
science and management tools, improve our stock assessments and 
monitoring efforts, and create more effective annual catch limits and 
accountability measures. In so doing, we must continue to ensure solid, 
science-based determinations of stock status and better linkages to 
biological, socioeconomic, and ecosystem conditions.
    We value the important partnerships we have formed with the states, 
territories, tribes, fishermen, and other interest groups in helping 
address these challenges. These partnerships are critical to developing 
successful management strategies. Together with our partners, we 
continue to explore alternative and innovative approaches that will 
produce the best available information to incorporate into management.
    It is also increasingly important that we better understand 
ecosystem and habitat factors, such as the effects of climate change, 
interannual and interdecadal climate shifts, ocean acidification, and 
other environmental regime shifts and natural disasters, and 
incorporate this information into our stock assessments and management 
decisions. The agency has recently taken steps to further address these 
challenges. In August, NMFS finalized a Climate Science Strategy as 
part of a proactive approach to increase the production, delivery, and 
use of climate-related information in fulfilling our mandates.
    In September 2015, we also released a draft policy, which outlines 
a set of principles to support implementation of Ecosystem-Based 
Fisheries Management at NMFS. We are currently reviewing comments and 
will finalize the Ecosystem-Based Fishery Management policy in the 
coming months. Resilient ecosystems and habitat form the foundation for 
robust fisheries and fishing jobs. The Magnuson-Stevens Act currently 
provides flexibility for bringing ecosystem considerations into 
fisheries management. This flexibility in the Magnuson-Stevens Act is 
one of the Act's strengths, allowing us to meet our responsibilities 
under the Act in concert with related legislation, such as the Marine 
Mammal Protection Act and the Endangered Species Act, to reduce bycatch 
of protected species to mandated levels. The alignment of measures to 
conserve habitat and protected species with measures to end overfishing 
and rebuild and manage fish stocks will be a key component of NOAA's 
success in implementing ecosystem-based fisheries management.
    NOAA supports the collaborative and transparent process embodied in 
the Councils, as authorized in the Magnuson-Stevens Act, and strongly 
believes that all viable management tools should continue to be 
available as options for the Councils to consider when developing 
management programs.
Conclusion
    Because of the Magnuson-Stevens Act, the United States is 
sustainably and responsibly managing U.S. fisheries, to ensure that 
stocks are maintained at healthy levels, fishing is conducted in a way 
that minimizes impacts on the marine ecosystem, and fishing 
communities' needs are considered in management decisions. Fisheries 
harvested in the United States are scientifically monitored, regionally 
managed, and enforced under 10 National Standards of sustainability. 
But we did not get here overnight. Under the Magnuson-Stevens Act, our 
Nation's journey toward sustainable fisheries has evolved over the 
course of 40 years.
    In 2007, Congress gave NOAA and the Councils a clear mandate, new 
authority, and new tools to achieve the goal of sustainable fisheries 
within measurable timeframes. Notable among these were the requirements 
for annual catch limits and accountability measures to prevent, respond 
to, and end overfishing--real game changers in our national journey 
toward sustainable fisheries that are rapidly delivering results.
    This progress has been made possible by the collaborative 
involvement of our U.S. commercial and recreational fishing fleets and 
their commitment to science-based management, improving gear-
technologies, and application of best stewardship practices. We have 
established strong partnerships with states, tribes, Councils, and 
fishing industries. By working together through the highly 
participatory process established in the Magnuson-Stevens Act, we will 
continue to address management challenges in a changing environment.
    To understand where we are, it is important to reflect on where 
we've been. We have made great progress but our achievements have not 
come easily, nor will they be sustained without continued attention. 
This is a critical time in the history of Federal fisheries management, 
and we must move forward in a thoughtful and disciplined way to ensure 
our Nation's fisheries are able to meet the needs of both current and 
future generations. When final, we expect the revisions to our National 
Standard guidelines to address concerns raised during the 
implementation of annual catch limits and accountability measures and 
provide additional flexibility within current statutory limits to 
address fishery management issues. We look forward to working with 
Congress on fisheries management issues in a holistic, comprehensive 
way that builds on its success and considers the needs of the fish, 
fishermen, ecosystems and communities.
    Thank you again for the opportunity to discuss implementation 
progress of the Magnuson-Stevens Act. We are available to answer any 
questions you may have.

    Senator Sullivan. Great. Let me start off with a few 
questions.
    Do you have a more specific timeline with regard to the 
final rule in terms of the National Standard guidelines that 
you were just talking about?
    Mr. Rauch. Yes, sir. It has to go to OMB for review. We 
hope to do that in the coming month or so. That will be for a 
90-day internal review period, and we hope to have it out by 
June or July--the final rule.
    Senator Sullivan. Great.
    You mentioned the stakeholder model as a really key element 
of the success of the MSA, and I think another key element that 
we can all agree on is that the management decisions are based 
on the best available data. But as you know, in data-poor 
regions or data-poor stocks, sometimes that can result in 
artificially low annual catch limits or even closures. Is there 
something that Congress can do to assist in ensuring that there 
are robust stock surveys and assessments in all the different 
regions? And if there are specific regions that you think have 
challenges with robust data, it would be good for us to know.
    Mr. Rauch. Thank you, Mr. Chairman.
    Every year, we have to allocate the fishery resources we 
have to try to match the survey, the science resources to the 
areas of the greatest need where we see either the most 
important commercial and recreational fisheries or the biggest 
conservation challenges. We do that. We are recently going 
through a stock assessment prioritization process where we are 
trying to, working with the Councils and the states, align our 
stock assessments to match the needs of the stakeholders and 
the councils.
    Senator Sullivan. And do Councils come to you and say we 
are data-poor here, we need more data for our best decisions?
    Mr. Rauch. They do. Every Council has a research plan which 
identifies their highest research priorities. We work with them 
to try to meet those needs. We could always use more effort, 
but we think that we are largely meeting the kind of needs in 
response to the Councils for their highest priority actions. We 
work with them. For instance, in the Northeast, we meet every 
month--not every month, but periodically with the states, the 
two councils, the Atlantic States Marine Fishery Commission and 
try to plan out when we are going to do these stock 
assessments, which ones are the highest priorities. We plan our 
surveys along with the states. Many of our surveys are joint 
between the Federal Government and our State partners. And so 
we work with them closely on when we are going to do which 
surveys and how often we are going to do them. So we work very 
closely to do that.
    We understand that not every fishery has the same amount of 
emphasis put on it, but we do try to give the most resources to 
the fisheries that are of the highest economic commercial and 
recreational value or present the biggest problems.
    Senator Sullivan. And are there assurances that you can 
provide the Committee that the agency will not redirect funds 
from well managed fisheries to data-poor fisheries? Is that a 
challenge that you have to deal with?
    Mr. Rauch. That is often a challenge that we----
    Senator Sullivan. How do you address that?
    Mr. Rauch. We try to be very transparent about that. I was 
articulating there are situations in which we have--let me back 
up, sir. We have just gone through with our science centers an 
extensive process in which we look at the science streams that 
are coming in and try to determine which streams are serving 
management purposes well and which are not. It is possible that 
through that process we identify data streams that we no longer 
need. So we would take those resources and shift them around. 
We do that in a very public and transparent process.
    So I cannot guarantee you that the science that we are 
doing today we will always do, but what I can guarantee you is 
that we will try to be very transparent about our decisions, 
include all the stakeholders, and try to, with the resources 
that are available to us, make sure that they are maximized to 
meet the greatest need of the country.
    Senator Sullivan. Let me talk about the maximum sustainable 
yield issue real quick as my final question. Your written 
testimony reported that in 2014, that was the third highest 
commercial landing in terms of value that we have had in the 
past decade. So again, I think that goes to the broader theme 
here of well managed fisheries based on the MSA.
    Are you able to generate an estimate of what the 
precautionary management has cost in terms of the inability to 
achieve maximum yield on a continuing basis? So in other words, 
are we under-harvesting any stocks that are not achieving the 
maximum sustained yield to any significant degree particularly 
due to the amendments that were passed in 2006?
    Mr. Rauch. I do not know that we can provide any such 
numbers on a national level.
    Senator Sullivan. Can you do it on a Council or----
    Mr. Rauch. Well, I think in Alaska they can tell you that 
if you make an investment in the science and you can decrease 
the scientific uncertainty surrounding their estimates, they 
can actually put a dollar figure to that so that you can--for 
that fishery, the Alaska pollock fishery, which is the second 
largest fishery in the world, they can articulate what an 
investment in science will give you in terms of economic 
return, and vice versa, what not investing in that science will 
mean. I have not seen us been able to do that for any other 
fishery of that level, but we can do it for the Alaska pollock 
fishery. I have seen those numbers. I do not have them with me 
off the top of my head, but we have made those.
    Senator Sullivan. Thank you.
    Senator Booker?
    Senator Booker. Mr. Chairman, I appreciate that.
    Mr. Rauch, as mentioned in my opening remarks, I am pleased 
that our region was the first to use the coral habitat 
protection authority to protect and preserve 38,000 square 
miles of Federal waters. This is critical. The Lautenberg 
provision in the MSA is something I think has been wonderful 
and has been codified in law for about 10 years.
    And I guess my question is, given the importance of 
protecting habitat, are there opportunities to establish 
similar protected areas elsewhere in the United States waters? 
And broadly speaking, do you think we are doing enough to 
protect fish habitat under current law?
    Mr. Rauch. So every council, I believe, has a suite of 
closed areas that they have been managing for years for various 
purposes. For instance, much of the fishable territory in the 
Pacific Islands is closed to bottom trolling. You can fish on 
the surface, but you cannot disturb the bottom. In Alaska, 
there are closed areas. Those are to prevent fishing for a 
certain stock of fish.
    The unique thing about the Mid-Atlantic canyon is nobody 
was fishing for them. This was a precautionary preservation to 
eliminate the potential that fishing could destroy these unique 
characteristics at the bottom.
    There are potentials to do that elsewhere. Many Councils 
are interested in and continue to look through those kind of 
lenses at things. We see the Councils time and again willing to 
close areas that are sensitive to protect them from fishing. 
The Mid-Atlantic canyon is unique in terms of the size and 
scope and the purpose of it, but it is not unique in that it is 
the only fishery closed area. There are many, and the Councils 
have expressed willingness time and again----
    Senator Booker. But I guess my question is do you think we 
could be doing more under current law.
    Mr. Rauch. I think the law is sufficient under that. I 
think the issue there is--we did not know 10 years ago that 
many of these resources existed out there. And so we survey for 
a lot of them. As we find them, the Councils have been very 
willing to protect them. But knowing where these deep water 
corals are is something we were not even looking for a decade 
ago. So this is a really new area of research, and so we are 
looking to find them. But as we find them, I think the law is 
sufficient to protect them.
    Senator Booker. OK.
    The recent proposed guidance for National Standard 1 
included a proposal to remove accountability requirements for 
fish populations that are so dangerously low that their annual 
catch limit has been set at zero. I am concerned that 
eliminating reporting requirements on the zero catch fish 
populations will result in missing things like bycatch or 
accidental take of the most dangerously low fish populations. 
Can you address this at all?
    Mr. Rauch. I do not think we ever meant to eliminate any 
reporting requirements. Most of these are fisheries for which 
we have--there are only a very few fisheries in the country 
which are so dangerously low that we ban fishing for them 
entirely. For those, the accountability measures--there is 
nothing that the fishermen can do because they are prohibited 
from catching them. If they start catching them, we will have 
to deal with other issues.
    I do not believe that we ever intended that the reporting 
be obviated for those. I think almost every fisherman in the 
country is required to report their catch in some manner. We 
would continue to do that for these species. The question is do 
we preset a management response if there is illegal fishing 
going on, and what we told the Councils is they did not have to 
presume illegal activity. If that occurs, we will deal with it 
through other enforcement mechanisms, but we do not necessarily 
need the Council to take an action and say if there is 
widespread illegal activity, because fishing is banned for 
these, then here is what happens.
    Senator Booker. Just real quick. I am concerned about the 
problem of bycatch in some of our Nation's fisheries. In 
October, several of my Senate colleagues and I sent a letter to 
your agency regarding the overfishing of the dusky sharks. In 
that letter, we urged the agency to quickly take action and 
steps to halt and reverse the species' disastrous decline and 
asked the agency to let us know when we can expect the agency 
to implement strong measures, including establishing an annual 
catch limit and accountability measures so that the North 
Atlantic dusky shark population can have a chance to rebuild.
    What actions does the National Marine Fisheries Service 
intend to take to help the dusky shark to rebuild and to 
prevent further bycatch?
    Mr. Rauch. So in bycatch in general, I think we share your 
views about the significance of bycatch. And I would encourage 
you that in the next week or so I think we plan to release our 
national bycatch strategy, the newest iteration, in which we 
echo some of the things that you have just articulated about 
bycatch. The Councils in general have been dealing with bycatch 
and trying to minimize those for some time.
    In dusky sharks, the situation was in 2012 we implemented 
some measures for duskies that it remains to be seen exactly 
how effective they will be. We believe that although they were 
not directed at dusky sharks, they have had a lot of beneficial 
effect about limiting bycatch. Nevertheless, we continue to 
look at that. We know that additional measures may be warranted 
we hope this year--in the coming months actually--I should not 
say ``this year''--in the coming few months to actually 
promulgate I think it is amendment 5B--I think that is right--
which would address those concerns that you have raised for the 
dusky sharks.
    Senator Booker. My time has expired. I want to be 
respectful of my colleagues. I just want to say if we could get 
a formal response to the letter that we sent with part of that 
strategy, I would really appreciate it.
    Mr. Rauch. Yes, sir.
    Senator Booker. Thank you.
    Senator Sullivan. Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I think for both 
you and I, when it comes to fisheries management policy, there 
is probably no more important words than Magnuson-Stevens and 
making sure that we continue the tradition of good fisheries 
management for both our states.
    For us, the issue of salmon is particularly important, and 
I wanted to ask Mr. Rauch particularly about the issue of our 
hatcheries and making sure that we have good plans in place to 
review our hatchery system. So you know that we have had 
unbelievable requirements as it relates to both protecting wild 
and producing hatchery salmon. And yet, we have had something 
like only 52 plans reviewed. So do you think that this is a 
challenge and a threat if we do not have these plans reviewed 
by NOAA?
    Mr. Rauch. Thank you, Senator, for the question.
    We are concerned about the hatcheries for many respects. A 
significant portion of the wild ocean harvest for salmon comes 
from these hatchery programs. And so the hatcheries are key to 
promoting economic viability, but they also, if they are not 
managed correctly, can pose a threat to our wild salmon. 
Recently there have been a lot of major improvements in the 
hatcheries such that they are managed correctly.
    Since 2006, we have required under various different types 
of authorizations that the hatcheries have hatchery genetic 
monitoring plans, to make sure that they are operated at the 
highest levels so they minimize the impact. They were supposed 
to come in and get those approved for many years. For various 
reasons, those issues were delayed, and now we have got 328 
plans that all came in at the same time. We have managed to 
clear through 50 of them, but we are having trouble clearing 
through all of them. We increased our staff such that we could 
increase the throughput to about 55 a year. The President's 
recent budget proposal, which just came out, asked for 
additional funds to increase our staff again to help clear 
these out. We do understand the importance of hatcheries to the 
region for various issues, and we do want to clear these out.
    We have been working with the states and the various 
entities to try to prioritize which ones do you want to see us 
do first. So we hope to get the very important ones out first, 
but we are behind. And I do not expect that by the end of the 
year we will get all of them done, but I do expect that we will 
increase the throughput.
    Senator Cantwell. What are the consequences of not getting 
them done? And do you think that NOAA has the funds it needs to 
proceed in a timely manner? Because at 55 a year, that would 
take us another 6 years to process those.
    Mr. Rauch. We do not have the funds, which is why the 
President has asked for an additional--I do not remember the 
exact number, but there is an increase in the salmon budget to 
help us process through this. We did get a small increase last 
year, which we are going to use for processing through this. So 
we do not have the current resources that we need to address 
these.
    There is some risk to the salmon, the risk that they have 
been facing for a while, if the plans are not approved. But the 
real issue is have the hatcheries actually made the changes. If 
the hatcheries have made the changes and are just seeking the 
approval of the changes, then the risk is relatively minor. If 
the hatcheries have not made the changes that we look for, some 
of these others, then the risk to the salmon could be greater.
    But we have seen a number of lawsuits, not brought by us 
but brought by third parties, seeking to stop hatchery 
production. That is of concern to us. We are a co-defendant 
with the states on----
    Senator Cantwell. Which would bring havoc on a lot of 
different issues, and that is why it is important to have the 
funds. So I will look forward to following up with you on a 
question about how that budget would actually affect a timeline 
so that we can look at this and look at an answer.
    A second related question is just on the issue of ocean 
acidification. My colleague, Senator Wicker, and I have been 
proposing legislation to make sure that ocean acidification's 
impact on our fisheries jobs is well understood particularly as 
it relates to salmon and a food source. Do you think we have 
all the information we need there to make assessments about how 
ocean acidification is going to impact the food chain?
    Mr. Rauch. I do not think we have all the--I cannot tell 
you right now how it will affect the food chain. I know that we 
are very concerned, particularly with shellfish. The shells 
themselves are very susceptible to ocean acidification. I think 
we do not have as good an idea as to how ocean acidification 
will affect other fish stocks.
    We work with other colleagues at NOAA and throughout the 
Government on ocean acidification and looking at those kind of 
issues. I think we share the sentiment that we do not know 
enough about those. I do not know that the administration has a 
position on the bill, but this is an issue that the Fisheries 
Service takes seriously. We are concerned about the impacts. We 
have worked with industry like we worked with the Washington 
State shellfish industry when their shellfish reproduction was 
harmed by----
    Senator Cantwell. I see my time has expired. So thank you 
so much for that.
    And I am going to submit a question about financing of 
fishing vessels and making sure that people do not believe that 
we are overcapitalized and that way we should not invest. I 
want to make sure that we get a financing that works. But I 
will submit that for the record. Thank you.
    Mr. Rauch. Thank you.
    Senator Sullivan. Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you.
    Mr. Rauch, we have heard a lot today of discussion about 
the success of the MSA, but I can assure you that for my ground 
fishermen, it has been an unmitigated disaster. Literally as I 
look at what my ground fishermen have faced--and I think about 
putting out of business people who have often fished our waters 
for generations and really are so hard-working. I have had the 
chance to visit them personally.
    But as of March 1, your agency has announced that you are 
not going to fund the at-sea monitoring. And just to put this 
into perspective, for your average ground fisherman in New 
Hampshire, which, for example, on cod over the last 4 years has 
faced a 95 percent reduction in what they can catch, on top of 
that, now they are going to have to pay at-sea monitoring, 
which is contrary to what I think many of us believe the 2015 
appropriations provided. In fact, your agency received a letter 
from many of us describing that.
    To put it in perspective, average fisherman. I catch $1,500 
worth of fish. After covering all my boat's expenses and paying 
my crew, I take home $300. That is not a lot, but I make a 
living. But then when you put an average of $710 per trip, a 
cost for at-sea monitoring, that they now have to put in place, 
60 percent of my ground fishermen cannot make any money. They 
lose money. So we want to talk extinction. This is extinction 
of fishermen.
    And so I want to ask you--I look at your budget, $5.4 
billion for 2015, and you cannot find $3.78 million to fund at-
sea monitoring which is consistent with what many of us have 
written in the 2015 appropriations bill for you. I think you 
have gotten a letter from myself, Senator Collins, Senator 
Markey on this committee, Senator Warren, Senator Reed, many of 
us.
    As far as I can see, there are articles of the MSA that 
require you to think about the economic impact. I believe 
article 1 does.
    So can you explain to me why we cannot find this small 
amount of money, $3.78 million, for fishermen that are going 
out of business that we have dramatically reduced their shares? 
These are not large fishermen. Talk about too big to fail. I 
have said this before. But this is essentially going to put the 
little guy out of business. So tell me why can we not fund 
this.
    Mr. Rauch. So we are very concerned about the declining 
status of the cod fishery. We believe that it is caused by many 
factors, including the fact that the Gulf of Maine has been the 
warmest it has ever been.
    Senator Ayotte. I do not have a lot of time. But why can we 
not fund the $3.78 million of monitoring so they do not go 
altogether out of business? That is what I need to know.
    Mr. Rauch. The other provision of the Magnuson Act that is 
relevant to this is that we have to provide for standardized 
bycatch reporting methodology, and we lost a court case. We 
have been traditionally funding this amount of money.
    Senator Ayotte. So no other place in this agency you can 
find this money so that these fishermen do not go out of 
business. And by the way, I think we have written you the 
letter saying that that should not be prioritized based on the 
appropriations bill over at-sea monitoring.
    Mr. Rauch. I understand that, Senator, but----
    Senator Ayotte. So are you telling me there is no other 
place in this agency we can find $3.7 million so fishermen do 
not cease to exist in my community?
    Mr. Rauch. The court found that we have to spend the money 
on other priorities before we spend it on at-sea monitoring.
    Senator Ayotte. But anywhere else in your budget, you 
cannot find $3.78 million to keep fishermen in place because 
otherwise I say the Magnuson-Stevens Act is an absolute failure 
in this regard.
    Mr. Rauch. As I said, the court said we have to fund other 
priorities.
    Senator Ayotte. So just the question, yes or no, there is 
no place else in this budget you can find that.
    Mr. Rauch. Not that we are allowed to fund.
    Senator Ayotte. OK. Well, please submit for the record what 
language we need to put in to give you the authority to make 
sure that these people have the at-sea monitoring funded 
because I cannot believe that we would have a system where we 
are going to put iconic fishermen out of business, no longer in 
business. The large folks--they are going to be fine. The small 
fishermen--they are done. Seven hundred bucks is more than they 
make after this. So I would ask for a follow-up on that.
    And I have a number of follow-up questions. I would like to 
know with regard to the reauthorization, what specific language 
is necessary to ensure that National Standard 1 and National 
Standard 8 are considered with equal importance.
    Mr. Rauch. If you are asking for technical drafting 
assistance, I would imagine----
    Senator Ayotte. Well, there are two provisions, National 
Standard 1 and National Standard 8. And as far as I can see for 
the fishermen that I represent, they are not being weighted 
equally. And when it comes to the economic impact on our 
fishermen, if you combine the dramatic cut in shares, if you 
combine the concerns they have about the science, if you 
combine the fact that they now have to fund this at-sea 
monitoring system themselves, I do not see how their economic 
vitality is being taken into consideration at all here.
    Mr. Rauch. So it is clear that National Standard 8 is 
subordinate to National Standard 1 based on the terms of it. If 
you would like us to provide you language that would alter 
that, I think we could do that.
    Senator Ayotte. I think that it would be reasonable for 
this committee, as we look at this reauthorization, to put 
forward language that does not put every small ground fisherman 
in my state and the New England States out of business because 
that would be doing a real disservice to the fishery as a 
whole. So thank you.
    I have some additional questions that I am going to submit 
for the record.
    Senator Sullivan. Thank you, Senator Ayotte, and I share 
your concerns on the monitoring and the balance between the 
different National Standards. So I appreciate that line of 
questioning.
    Senator Schatz?

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    I wanted to ask about National Standard 1, which we all 
know is essentially to prevent overfishing and achieve optimum 
yield. And I want to understand how you see aquaculture fitting 
into that because on a sort of common sense level, to the 
degree and extent that recognizing that different regions have 
different concerns regarding aquaculture, that this seems to be 
a strategy that could achieve optimum yield and prevent 
overfishing. And I am wondering how we might pursue amendments 
to MSA in the future that would enable aquaculture to flourish 
where the FMPs and where the different regions think that is a 
good strategy.
    Mr. Rauch. Thank you, Senator.
    We have just worked through this issue in the Gulf of 
Mexico where we did the first-ever large-scale commercial 
aquaculture permit in Federal waters. We do believe that 
aquaculture is fishing. So it is part of the Magnuson-Stevens 
Act purview to regulate. We did have to set optimum yield for 
aquaculture. It is a little bit awkward to do that because 
usually you set optimum yield trying to determine how much of 
the fishery you can take out of the otherwise wild population. 
Aquaculture is not really that same metric. You take a little 
bit out of the wild population and then you sort of create 
another population.
    But we did work through that. We set an overall cap on the 
amount of fishing, 20 large-scale operations in the entire Gulf 
of Mexico, with the understanding that if we actually achieve 
that limit, you go back to the Council, we might increase it.
    So we have been able to work through that issue. It was not 
without some difficulty trying to conceptualize it, but we do 
think within the Magnuson Act, as it is currently written, you 
can regulate aquaculture. You can do things like setting 
optimum yield. It is important to the country to continue to do 
that.
    Senator Schatz. Do you need any clarification from the 
Congress in terms of this optimum or maximum yield question 
when it comes to aquaculture? Because I guess it seems to me a 
little bit of a square peg in a round hole.
    And then the other question is do you feel like it is 
settled that aquaculture is fishing rather than farming.
    Mr. Rauch. For us, it is settled. There are a number of 
fishery management plans going back 2 decades or so that 
include aquaculture, that authorize aquaculture, nothing on the 
scale of the Gulf. But as the Senator may be aware, we are 
subject to a lawsuit that challenges that very principle. And I 
am not aware, other than some very preliminary rulings, that we 
have had any court uphold us. From our perspective, though, it 
is a position we have had for well over a decade, and we think 
it is settled.
    We do think, as I said, it works well within the Magnuson 
Act, that there is no need to change the statute to give us 
that, but if Congress would like to work with us, I am sure it 
could be clearer.
    Senator Schatz. OK, thank you.
    The second question I have is regarding coastal habitats. 
As you know, they face increasing pressure from growing 
populations and environmental damage. As coastal habitat 
degrades, fisheries suffer. But on the positive side, 
obviously, maintaining healthy coastal habitats will help 
fisheries to be more productive.
    So how can MSA reward stewardship, and what other agencies 
need to be involved in this conversation?
    Mr. Rauch. We do know that there is a close link between 
habitat and fishery production. We have an entire habitat 
division within the Fisheries Service that is designed toward 
protecting coastal habitat with the aim towards increasing 
fishery production.
    Currently the Magnuson Act includes an authorization for 
the community-based restoration programs so that we can work 
with local communities to do that. It also includes essential 
fish habitat provisions such that we can work with other 
agencies, agencies like the Corps in terms of their Clean Water 
Act dredge and fill permits. As they try to assess the amount 
of modification that is allowable, they come and consult with 
us so that we make sure that the fishery impacts are working 
well.
    So we work well with a number of agencies. It is the 
agencies that you would expect, the Corps, the military, those 
folks that work on the coastal development. And we have a 
really good working relationship with them to make sure that as 
they authorize projects, they are taking into account the 
fishery needs.
    Senator Schatz. Thank you.
    Senator Sullivan. Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    This hearing is vitally important to Connecticut and our 
country, particularly so because the Magnuson-Stevens Act can 
be effective only if the latest science is brought to bear on 
decisions that are made and only if the people who are affected 
by this law have representation so they can bring a real-world 
sense of what is happening to bear on these decisions.
    I have met often over the past years, when I served as 
Attorney General and most recently as Senator--last week with 
our Connecticut fishing community, I met with them in a town 
hall in Stonington and heard their perspectives and concern as 
they relate to the Magnuson-Stevens Act. And frankly, I 
strongly believe that the goals of conserving and rebuilding 
fish populations and promoting the growth of the fishing 
industry are two goals that should be and are compatible, not 
mutually exclusive.
    But unless the best science is brought to bear and unless 
the views of that fishing industry have some say, the system 
will run amok. And right now, it is running amok in their view. 
And I think their views are very persuasive and convincing.
    They tell me that the sea bass and flounder, among other 
species, have migrated north, are available in much greater 
abundance than ever before because of the effects of warming. 
And so the system that gives primary say in determining the 
catch numbers permissible to the Mid-Atlantic Council and 
management organization is not only inequitable but 
ineffective. And their industry is under extreme economic 
stress, and that matters to the entire state of Connecticut. 
The commercial and recreational fishing industries involve 
6,600 jobs in my state and has an economic output of $763 
million. These are numbers that are approximate, but even if 
they are off by a little bit, the magnitude of the effect is 
certainly significant.
    So my hope is that we can have smarter, more efficient 
targeting of resources in these programs and greater effort to 
take into account the effects of climate change and shifting 
fish populations and other environmental issues and we can make 
this system work well for fishermen and protect and rebuild 
vulnerable species at the same time.
    So my question to you is, what can be done to take account 
of those moving fish populations? I know I am probably stating 
it in imprecise layman terms, but the sea bass and the flounder 
do not speak our language anyway. They are just going to do 
what they are going to do based on water temperatures, and 
those water temperatures are driving more of them north.
    And here is the really egregious and unacceptable outcome. 
These fishermen are throwing overboard tons of fish that are 
dead when they hit the water. So they are of no use to anyone, 
least of all people who are hungry, literally hungry in 
Connecticut and around the country, who could benefit by having 
those fish available. So there is extraordinary unnecessary 
waste in this system right now, and I want your view about what 
we can do about it.
    Mr. Rauch. So there are two aspects of that question.
    One is on the science side, all the science that we work 
with in this instance is done through the Northeast Fisheries 
Science Center which serves both Connecticut, the Mid-Atlantic. 
So there is some uniformity there so we can make sure that the 
science views are not influenced by the technical geography, 
which Council is managing it.
    In terms of the Council, the actual management advice--as 
you know, the Council boundaries are set by statute. There are 
some provisions--and you are absolutely correct that the stocks 
appear to be moving north. There are some other ones that are 
moving south. The fish are moving, and we are not sure why. We 
suspect it is climate change. That is going to create over 
time--this may be the first of many of these kind of issues in 
which you have fish showing up where they traditionally were 
not, and we have to set appropriate management measures. And 
these are issues that both the Councils work with.
    Under the Magnuson Act, we have two main tools to do that. 
The Council of jurisdiction--as I said, it is not something 
that we can change, but we can make sure that the New England 
and the Mid-Atlantic Council are working together. They do have 
liaisons. We have traditionally designated a lead council. In 
this case, it is the Mid-Atlantic. There is always opportunity 
to change the lead council. I am not sure that would be 
advisable here. But occasionally we also require joint 
management plans. This happens a lot in the Keys where the fish 
do not care particularly whether they are in the north or 
south, whether they are being regulated by the Gulf Council or 
the South Atlantic. And we have a number of joint plans where 
we have asked the Councils to work together on those kind of 
things.
    So all of those are options that are available as this 
continues, and my suspicion is this is not the only instance in 
which this is going to occur. The stocks are moving all over 
the country, and we will see this happen more and more.
    Senator Blumenthal. But you would agree with me that the 
system right now has really run amuck and needs to be set 
right.
    Mr. Rauch. I do not know how long-term this is. I do know 
that there are issues with new fishing opportunities in old 
fishing grounds and we have to deal with those. We are working 
through the Council process. I think the tools are there. But 
it is an issue that all the Councils have to start facing.
    Senator Blumenthal. And the fishing opportunities, to use 
your euphemism, which means to me there are fish to be caught, 
they are being thrown overboard, they are hitting the water 
dead, they are wasted, and fishermen are deprived of their 
livelihoods and people's lives are diminished because they go 
unnecessarily hungry--would you disagree with that summary?
    Mr. Rauch. I do not know that that is what is happening 
with summer flounder or black sea bass. I know that is one of 
the reasons we are very concerned about bycatch issues in 
general, that we would like to avoid those kind of wasted 
situations. And we are required to minimize bycatch. I would 
rather minimize it by increasing fishing opportunities for 
those. I mean, if they are going to be dead anyway, we might as 
well look for opportunities to catch them.
    Senator Blumenthal. In other words, increase the catch 
quotas.
    Mr. Rauch. If that scientifically can be done. These are 
thorny issues in terms of what the implications for increasing 
catch quotas might mean for others. You cannot just increase 
catch quotas without there being consequences. It is often a 
zero sum game. Somebody would have to decrease somewhere. And 
that is an issue traditionally that we work out through the 
Council process, often where two Councils meet together and try 
to reach an agreement on what should happen.
    Senator Blumenthal. Well, I would just emphasize for what 
it is worth as a message to take back to NOAA and to all the 
agencies that have authority here that science has a very 
important role to play. These decisions ought to be fact-based 
and founded in good science, but clearly in the real world what 
is happening is unacceptable because fishermen are losing 
livelihoods and people are losing food that otherwise could be 
extraordinarily nourishing and healthy. And I want to make sure 
that we in no way compromise the goal of preserving and 
enhancing the populations of fish, consistent with good 
environmental science, but common sense dictates a change here.
    So thank you.
    Senator Sullivan. Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Chairman Sullivan, very much. 
And thank you for mentioning Massachusetts, along with Alaska, 
as the seafood superpowers in the United States.
    Senator Sullivan. I will note that next time. Oh, I did.
    Senator Markey. You complimented Massachusetts.
    Senator Sullivan. Absolutely. No doubt about it.
    Senator Markey. He went to Harvard. So maybe he is 
subconsciously doing it and then forgetting that he did it. But 
in your opening statement, Alaska and Massachusetts were 
mentioned.
    Senator Blumenthal. Should I get in the middle here?
    Senator Markey. A Yale man in the middle.
    [Laughter.]
    Senator Markey. And the truth is that my mother is a 
Sullivan. You are a Sullivan. We were probably fishing in 
Ireland. Then we went to the two states.
    Senator Sullivan. Probably, once the potatoes ran out.
    [Laughter.]
    Senator Markey. And then we went to the two states that are 
the seafood superpowers.
    So our story, though, is one of the declining seafood, and 
we have to basically try to do our best to figure out the issue 
because the namesake of the iconic arm of Massachusetts is the 
cod that is found just off of the Cape's coast. Cape Cod and 
the rest of Massachusetts have a strong and a rich history of 
fishing and science. The Magnuson-Stevens Fishery Conservation 
and Management Act brings together these two subjects to 
support healthy fisheries and the fishermen and coastal 
communities that depend upon them.
    We have seen how fishermen, managers, and scientists have 
worked together to revive the Atlantic sea scallop fishery. Due 
to their success, New Bedford continues to be the leading U.S. 
fishing port based on dollar amount of fish and seafood landed. 
And I hope that this model of collaboration can extend to the 
other fisheries that are struggling in New England and support 
a vibrant seafood industry in Massachusetts in the 21st century 
and beyond.
    But given the immense challenges we face with the ever-
growing effects of climate change and ocean acidification, 
today we must begin to acknowledge that we cannot solely plan 
on what happened in the past. Cod, which used to be so 
plentiful, is less so now. There is an ever-important need to 
focus on science and provide fisheries managers with the proper 
data to make well informed management decisions.
    There are many challenges, though. Carbon dioxide levels in 
the atmosphere are the highest in recorded history. We have 
reached over 400 parts per million. The last time carbon 
dioxide levels were this high, the world was a very different 
place. The earth is warming and our oceans are too. Not only 
are our oceans taking up some of the global warming, but carbon 
dioxide dissolving in our oceans is causing them to acidify. 
Study after study details the changes occurring in our climate 
in the Gulf of Maine in New England and are looking at some of 
the most adverse changes in the near future. Without action to 
reduce carbon pollution, we could face a New England without 
lobsters and a Cape without cod.
    But there is hope. Our fishermen have made it through many 
past challenges, and the hearing today is exploring ways that 
we can ensure a strong, vibrant fishing industry and healthy 
oceans for generations to come.
    So, Mr. Rauch, as you know, New England ground fishermen 
have faced significant economic challenges in recent years, and 
Senator Ayotte raised the cost of at-sea monitoring earlier. 
Can NOAA prioritize certain fisheries for standard bycatch 
reporting methodology coverage at a higher rate?
    Mr. Rauch. Thank you, Senator.
    In New England, we set the priority for standardized 
bycatch reporting methodology through the system laid out by 
the Council in their fishery management plan amendment. So they 
have articulated--we are required by statute to establish a 
standardized bycatch reporting methodology for the fisheries in 
New England. We do not believe it has to be the same for every 
fishery, but it does have to be standardized.
    Senator Markey. Would you need changes to Magnuson-Stevens 
to enable the agency to prioritize certain fisheries for SBRM 
coverage?
    Mr. Rauch. I do not believe you would need it to--you 
might. I do not know the answer to that question. I do know 
that the answer--given the court cases up there, if we wanted 
to prioritize at-sea monitoring over SBRM, we would need that. 
I do not know that we would need that to prioritize SBRM 
funding, but it would take at this point Council action because 
we do have a Council amendment that dictates how we were going 
to do that.
    Senator Markey. And what criteria would NOAA use to 
identify priority fisheries?
    Mr. Rauch. I think we would look at--you would look at 
which fisheries have a history of bycatch, which fisheries is 
the bycatch that you are concerned about. There are some stocks 
that are healthy that you would be less concerned about bycatch 
and some stocks that, if you catch them, you would be very 
concerned. So you would make an assessment about the different 
fisheries, if you had limited bycatch monitoring resources, 
which we do, and decide which ones you want to allocate those 
resources to. So those are the kinds of criteria that we would 
look at, but it would be largely with the Councils that we 
would be doing that.
    Senator Markey. Well, the New England fisheries are already 
feeling the effects of climate change. The Gulf of Maine sea 
surface temperature is rising faster than almost anywhere in 
the entire world. And these changes pose significant challenges 
to our fisheries.
    How does NOAA plan to allow for adaptation of management 
strategies to changes in ocean conditions due to climate 
change?
    Mr. Rauch. We just put out a report which echoes much of 
what you just said and which indicates that certain stocks are 
perhaps more susceptible than others. And we were very 
concerned that the economic driver behind New Bedford is the 
scallop fishery. They have calcium carbonate shells, and so 
they are potentially very vulnerable to climate change.
    So we have articulated which ones are perhaps the most 
vulnerable. I think it is imperative there--the Fisheries 
Service does not control climate change, but we can work with 
the fishermen to try to diversify portfolios to try to make 
sure that they account for potential downturns if they are 
going to be in those fisheries.
    Senator Markey. Well, the cod and lobster--they need cold 
water.
    Mr. Rauch. Exactly.
    Senator Markey. And the lobster are voting with their claws 
as they move northward, and the cod are voting with their fins 
as they move northward. And so as they chase the colder water, 
as our water becomes warmer, it becomes a real issue 
economically for our region.
    So what additional or new data would NOAA require to help 
understand the different causes of changing fish populations?
    Mr. Rauch. We have invested a lot of money recently. I 
think last year we invested about $3 million in Northeast 
climate science to try to get at that exact question. By virtue 
of the Fisheries Service placed within NOAA, we have a lot of 
access to our partners who do the environmental monitoring that 
can monitor temperature and other conditions. We are 
integrating all that now.
    I think it is hard to determine why a fish stock reacts the 
way it does, but we are investing a significant amount of 
resources now and we will continue to do so trying to improve 
our understanding about the way that these stocks may react to 
various climate scenarios.
    Senator Markey. Mr. Chairman, can I have an additional two 
minutes, if you do not mind?
    Senator Sullivan. Absolutely. Take as many as you want.
    Senator Markey. Thank you, Mr. Chairman.
    Researchers at the University of Massachusetts at Dartmouth 
are working on a new video system that will count cod to 
improve the accuracy of the scientific assessment. This is just 
one example of technological innovation with implications for 
fisheries management.
    Can you speak to how technological innovation, such as the 
one I mentioned, can improve stock assessments not just in New 
England but around the country?
    Mr. Rauch. We think it is very important to work with third 
parties that develop these new systems like that one to work 
them into the science enterprise. It is important for trust. It 
is also important to have a transparent system, so we need to 
be open to this kind of new information.
    We have a study fleet where we have employed the fishermen. 
They put cameras on the study fleet that look at where--we tell 
them go catch fish where you think the fish are. And then they 
will take the environmental conditions and reports and we will 
incorporate that into our data set. All that is very important. 
So we invest a lot of money in our partners to do these. Even 
if we did not fund the initial research, we try very hard to 
incorporate that data into our assessment of the stocks. 
Sometimes it takes a while to incorporate the data into the 
stocks. Sometimes it is very easy to do that. And we work very 
well with the state of Massachusetts and the various 
institutions there to do those kind of things.
    Senator Markey. So it is important for fishermen and women 
and the fisheries management people to have the information----
    Mr. Rauch. Absolutely.
    Senator Markey.--so they can make timely decisions about 
the future.
    And finally--thank you, Mr. Chairman--illegal, unreported, 
and unregulated fishing may account for up to $23 billion per 
year loss to the global fishing industry. This directly affects 
the fishermen of Massachusetts. However, seafood fraud affects 
every State. Alaska and Massachusetts, of course, would be at 
the top of the list just because of how massive our fishing 
industries are.
    In order to protect American consumers and fishermen, are 
there specific provisions of the Magnuson-Stevens Act that can 
be enhanced to combat illegal, unreported, and unregulated 
fishing?
    Mr. Rauch. There are. And we are currently using the 
Magnuson-Stevens, as you may be aware, to create a traceability 
system for both foreign imports. We have a wonderful 
traceability system in the United States. We can as the 
government agency. It is not publicly available. But as 
regulators work with our states, we basically know where the 
fish was caught, when it was caught up to the point of entry 
into the market. Using the Magnuson Act, we are imposing 
similar requirements on foreign imports to level the playing 
field. Our fishermen should not be at a disadvantage to that.
    The Magnuson Act right now is not a particularly good tool 
for the seafood fraud part. We have other tools. We are working 
with our enforcement agencies. That is mainly economic fraud 
that is going on, and we work with States and local governments 
to help prosecute that. We have some tools available. We are 
very concerned about that.
    Senator Markey. Do you need additional regulatory authority 
that the Magnuson Act can provide?
    Mr. Rauch. We have indicated that if we are fully going to 
achieve the vision of enforcing against illegal fish and fraud, 
that additional enforcement authorities that would allow us to 
enforce beyond the point of entry--we can do a very good job 
enforcing at the docks. That is where the NOAA fisheries 
enforcement agents go. Once it leaves the docks and enters in 
the chain of commerce domestically, we have very few tools to 
deal with that.
    Senator Sullivan. Does the IUU legislation that I mentioned 
in my opening statement, recently signed by the President--does 
that provide you enough authority?
    Mr. Rauch. It helps us with certain things. It does not 
provide that authority from the point of entry, once it is into 
the United States, to guard against market fraud that might 
happen at a local distributor. It does not do that. It is a 
very powerful tool protecting us up to the borders and making 
sure that what is coming into the United States is good and 
sustainable. But the Fisheries Service at least would have to 
rely on our State and Federal partners for that enforcement 
beyond the chain. We do not have any authority right now to do 
that.
    Senator Markey. And I have been working with Senator Wicker 
on this issue trying to find a bipartisan way in which perhaps, 
Mr. Chairman, we could work together as we are going forward.
    Senator Sullivan. Great.
    Senator Markey. So I thank you.
    And can I ask a question? My mother's family is from County 
Kerry. Where are your Sullivans from?
    Senator Sullivan. That is County Kerry as well. So maybe we 
were fishing together.
    Senator Markey. Maybe we are cousins.
    [Laughter.]
    Senator Markey. Maybe destiny has brought us here to work 
together.
    Senator Sullivan. Well, I look forward to working with 
Senator Markey as we did last year on an amendment that was 
signed into law just recently by the President with regard to 
helping move forward the fisheries in Alaska, in Massachusetts, 
and throughout the country. In all seriousness, I think we had 
a lot of work.
    Senator Markey. I agree with you. My mother always said the 
Sullivans are a very intelligent people. So this is just 
further proof of that as we work together in the future on new 
amendments.
    [Laughter.]
    Senator Markey. Thank you, Mr. Chairman.
    Senator Sullivan. So, Mr. Rauch, I just have a few more 
questions, if that is all right, since I have you hostage here.
    I am going to follow up on a couple questions Senator 
Markey talked about, that Senator Ayotte talked about. The 
first one relates to Senator Ayotte's questions on the ranking 
of the different National Standards.
    Is National Standard 1 ranked above all others, and if so, 
how does that position allow you to achieve balance?
    Mr. Rauch. Thank you, Senator.
    There have been a number of judicial interpretations of the 
various National Standards. Some of them are explicitly subject 
to the overarching conservation rationales and others. National 
Standard 8 is one of those that by its own terms--and I do not 
have it in front of me--refers to the conservation objectives 
of the Magnuson Act, and so the courts have interpreted that to 
be subordinate to National Standard 1. National Standard 1 says 
we are to prevent overfishing while achieving the optimum 
yield. There is a lot of material in there. We are supposed to 
be conservation-minded but, at the same time, achieve the 
maximum benefit that we can while making sure we do not cross 
over the conservation objectives.
    Other ones are not so subordinate like the requirement to 
use the best available science. That is not subordinate.
    Senator Sullivan. How about the economic impact?
    Mr. Rauch. The economic one, which is in National 
Standard----
    Senator Sullivan. Because you are seeing that among the 
Committee members. It is a concern.
    Mr. Rauch. The current wording of National Standard 8 does 
make it--you consider the economic--economic flexibility--you 
consider it once you have made sure that you have not allowed 
overfishing. And so it has been viewed and the Fisheries 
Service would view it now as subordinate to the requirement to 
make sure that you do not allow overfishing.
    But that still gives an awful lot of flexibility to try to 
create economic opportunity. So I do not want to leave the 
impression that it is meaningless. It is quite powerful. We are 
in the Commerce Department. We take it seriously that we are 
trying to achieve the most economic value we can and the least 
economic harm to our coastal communities in everything that we 
do. It is just that there is a line about overfishing that we 
will not cross.
    Senator Sullivan. Let me turn to the issue of the 
monitoring system. And you know, it is a big issue. Obviously, 
Senator Ayotte was very strong and forceful in her comments to 
you. You know, in Alaska, we actually have a bit of a different 
issue, but in some ways it is similar where the monitoring 
situation--and I have seen this with our fishermen. The 
requirement of a human observer particularly for small-boat 
fishermen--so for some of the smallest vessels, there is a huge 
burden. Right? I mean, literally just space in terms of the 
burden that we have. I do not believe anyone in our fishing 
fleet gets subsidized or has been subsidized by the Federal 
Government on monitoring. So there is a bit of an equity issue 
that I will not go into right now. But as you know, different 
monitoring programs have been treated differently in terms of 
the way the Federal Government has actually helped pay for 
those. We have never been paid for at all. So there is a 
fairness issue there I believe.
    But also in terms of electronic monitoring, I know that you 
have been working for years to develop that kind of program, 
but I will tell you there is just a real strong interest in 
Alaska for you to get to a point where we can deploy electronic 
monitoring. No one is trying to avoid monitoring, but as I 
mentioned, it is a real burden when you have to have human 
observers particularly on small vessels.
    Where are we on that, and can I tell my constituents that 
we are getting to a spot where we can have electronic 
monitoring sometime not in the far, distant future?
    Mr. Rauch. So you are absolutely right that we are 
struggling with the small boat fleet up there. The Council has 
determined that we need to start--that fleet had been 
unmonitored for a long time, and there needs to be some sort of 
monitoring. And the initial technology is a human observer, 
which creates all these space issues. And we have struggled for 
years with that fishery because, as you said, there is only a 
limited number of spaces, and in order to have a bunk space for 
an observer, you might have to have a crewman sleeping on deck, 
which is not a good solution.
    Senator Sullivan. And that happens, as you know.
    Mr. Rauch. Yes.
    So we worked for a while on various mechanisms. At the 
moment, we are offering an experimental arrangement where if 
they agree to take a camera in lieu of an observer, they do not 
have to take the observer. We have got, I think, 59 boats 
signed up for that process right now, give or take a few. We 
hope to get up to 90 next year before the system is fully 
operational in 2018. Our long-term vision is exactly the same. 
I would much rather have this fishery observed with cameras----
    Senator Sullivan. Yes.
    Mr. Rauch.--than with human observers.
    Senator Sullivan. So would we.
    Mr. Rauch. And I think they are working through the 
technology, but right now, my understanding is if you sign up 
for this program, you can take a camera instead of a human 
observer. And many of the folks have done that. There are some 
people that are still not part of that system, and we continue 
to work with that segment of industry.
    Senator Sullivan. Well, if you can commit here to 
continuing to focus on accelerating that, I think that goes to 
some of the burdens that we have been talking about, certainly 
a burden on the industry in Alaska.
    Mr. Rauch. Senator Ayotte is no longer here, but we are 
continuing to work to develop a camera system in New England 
similar to that in Alaska to decrease some of the costs that 
she identified.
    Senator Sullivan. Good.
    Let me turn to eco-based fisheries management. In your 
testimony, you talked about that being used in concert with 
protected species conservation. And I believe you are familiar 
with the experience we have had in Alaska with regard to the 
stellar sea lion and Alaska fisheries. And it seems to me that 
a risk-averse ecosystem policy in certain cases could possibly 
make things worse for fishing communities in my state, given 
that example.
    Do you agree with that or do you disagree and why?
    Mr. Rauch. I think it is important to recognize the role of 
the fish stock that the fishermen fish for in the ecosystem, as 
the Council has done, as the fishing industry has done. I have 
talked to many of the fishermen in Alaska, and they are 
conservationists at heart, many of them.
    Senator Sullivan. Absolutely, they are. That is for sure.
    Mr. Rauch. And they are willing to make certain sacrifices 
if they believe the science is there, and they have done so. 
The Council--our latest iteration on the stellar sea lion was 
to approve the Council's proposal, which the fishermen 
supported to address that.
    But like many things, there is often only so many fish to 
go around. And so you do have to weigh the balances between the 
fish that we remove versus the fish that you allow to stay.
    My experience has been that once the Councils in general 
embrace this idea, they are perfectly willing, if they can 
understand the science behind it, to set aside what the 
ecosystem may need because in that case, we are talking about 
stellar sea lions, but in other cases we are talking about 
fisheries that may grow bigger and feed another segment of the 
fishery. So you are not setting it aside. You are setting it 
aside for other fishermen. And so these are kinds of ecosystem 
considerations, how removing the stock from one part of the 
ecosystem affects another one, that the Councils have been very 
willing to address and in general have been willing to work 
through these issues. And it is not always that we are setting 
it aside for a native species. Many times we are setting it 
aside for other fishermen down the line.
    Senator Sullivan. Let me ask another question that has 
caused a lot of concern or potential concern with regard to the 
President's authorities under the Antiquities Act. And as you 
probably know, when the President uses the Antiquities Act, 
there is no requirement to consult with any stakeholders that 
are adversely affected, including States, including Members of 
Congress, including even NMFS. And as you also know, that is 
completely different than the structure, the MSA, where it is a 
robust and transparent public process that develops the 
fisheries management plans including, as you just mentioned, 
conservation measures.
    Do you think the Antiquities Act could benefit from similar 
requirements to be modeled in some ways where there is more 
input? There are a lot of concerns that certain areas of the 
North Pacific region are going to have a unilateral, 
unbeknownst to anybody, especially the stakeholders, 
antiquities designation by the time the President leaves. And 
that really cuts against the entire structure of the MSA which 
has been stakeholder-driven, transparency-driven, and 
stakeholder-approved.
    Mr. Rauch. So the Marine Fisheries Service does not 
implement the Antiquities Act.
    Senator Sullivan. You do not even get consulted either.
    Mr. Rauch. I do not have a view on the Antiquities Act.
    But I will say in terms of preserving land and presenting 
harm to large sections of the ocean from fisheries impacts, the 
Magnuson Act has been a wonderful tool to that.
    Senator Sullivan. Exactly.
    Mr. Rauch. We heard about the Mid-Atlantic Council, which 
was a very open and transparent stakeholder process. The one 
limitation there is that--and the Councils sometimes express 
frustration--it is limited to fishing impacts. We can close an 
area to fishing. We can regulate fishing in areas, and that is 
all that the Fisheries Service really can do.
    Senator Sullivan. Well, let me ask a favor, as I wrap up 
here. And I appreciate you taking the time to answer additional 
questions. But as this Antiquities Act issue starts to maybe 
rear its head, if you can weigh in with the other Federal 
agencies and say, look, we have an act where it is open, it is 
transparent, where the conservation of the stakeholders is 
undeniably clear when they have the information. And a blind-
side antiquities designation certainly is not going to help or 
get a lot of buy-in in my region, but I think in most other 
regions. And I think if agencies like yours can remind the 
other agencies or the White House about this that things are 
working on a conservation objective right now, that that could 
be helpful.
    Mr. Rauch. So I think we continue to discuss with our 
partners in the administration and with the administration as a 
whole the value of the Magnuson Act, the value of the 
structure, the transparency, and the strengths of the structure 
throughout the system.
    Senator Sullivan. Well, I appreciate that. If you can 
continue to do this in the final year of this administration, 
that would be helpful.
    Let me ask one final question. In the North Pacific region, 
many have expressed support for a NEPA sufficiency process 
within the MSA to reduce redundancy and the programmatic 
burden. Does the agency have a position on such a provision?
    Mr. Rauch. The Council chairs at one point developed a 
proposal led in part by the North Pacific Council. The agency 
did not take a position itself on that one, although I 
personally have pointed out some of the, I think, difficulties 
in working through that system.
    We did take a position on the NEPA language in the House 
bill, which we opposed. We thought it was unnecessary. We think 
that the Councils have largely made NEPA work, that many of the 
supposed ills that they cite are not actually true. They cite a 
lengthy EIS process from the mid-2000s that we have never done 
since. We do not anticipate doing again. NEPA has not been an 
impediment to the Councils to do their job. In fact, it has 
provided important environmental analytical capabilities that 
are very similar to the Magnuson Act. Most of the Council 
documents now are integrated NEPA fishery management plan 
objectives. You cannot tell where NEPA stops and the fishery 
management begins. They have integrated them very well. And so 
we think it is unnecessary to have sufficiency language, and 
that is why we opposed the House bill. But we did not any 
particular official position on the Council Chairs' position.
    Senator Sullivan. Well, listen, I want to thank you again. 
I think you presented us outstanding testimony. And obviously, 
a lot of members on both sides of the aisle are very interested 
in this issue. We look forward to working with you and the 
agencies as we look at the importance of this issue with regard 
to the MSA. Again, I want to thank you for your patience and 
very thorough answers to everybody's questions.
    This hearing is adjourned.
    [Whereupon, at 3:58 p.m., the hearing was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Marco Rubio, U.S. Senator from Florida
    The Magnuson-Stevens Act (MSA) set ten principles, called National 
Standards, for fishery management and conservation. Today, we analyze 
National Standard 1, which stipulates our fishing ``measures shall 
prevent overfishing while achieving, on a continuing basis, the optimum 
yield (OY) from each fishery for the U.S. fishing industry.'' It is in 
the national interest to prevent overfishing while producing an optimal 
yield. However, the underpinning of this goal can only be accomplished 
with sound science. All can agree that timely and accurate data 
benefits both the recreational and commercial sectors. Together, they 
contribute significantly to the national economy, employing millions of 
Americans and providing sustenance to all fifty states and abroad. It 
is because of their importance that I led a bipartisan congressional 
request to the Government Accountability Office (GAO) to examine 
current data practices used in determining stock assessments. The 
report found that the National Marine Fisheries Service (NMFS) ``does 
not have a comprehensive strategy to guide the implementation of its 
various efforts. . .Moreover, without clearly communicating the 
strategy to its stakeholders, NMFS may find it difficult to build 
trust, potentially limiting its ability to effectively implement MRIP 
improvement initiatives that rely on data collection partners.'' On 
December 14, 2015, I wrote to Secretary of Commerce Penny Pritzker 
urging the Department of Commerce use the necessary resources to 
implement GAO's recommended changes as soon as possible and to begin to 
rebuild the trust with key stakeholders. I remain hopeful the 
department will take tangible actions to address these issues.
    As I have stated before, it is because of the charter, commercial 
and recreational industries' importance that fisheries elicit strong 
emotions. Our nation has a solid foundation of fishermen. Livelihoods 
and favorite past times are spent on the water and whether it's 
supplying seafood to our restaurants or to our families' dinner tables, 
decisions affecting our fisheries must be made by taking all sectors 
into account. Just last year, this committee reported the Florida 
Fisheries Improvement Act, legislation I authored that would strike a 
balance and improve fisheries management in the Gulf of Mexico and 
South Atlantic regions. The bill would amend the Magnuson-Stevens Act 
to give the Regional Management Councils greater flexibility in setting 
rebuilding timelines, require the Secretary of Commerce to create a 
stock assessment plan to better prioritize stock assessments and report 
to Congress on how to improve data collection from stakeholders. It 
would also increase the availability of funding for stock assessments, 
surveys and data collection efforts. Should the committee move forward 
with an MSA reauthorization bill, I urge the inclusion of this vital 
bill.
    I thank Senator Sullivan for chairing this important hearing.
                                 ______
                                 
    Written Testimony on behalf of the Alaska Longline Fishermen's 
Association (ALFA), the Alaska Marine Conservation Council (AMCC), the 
 Central Bering Sea Fishermen's Association (CBSFA), the City of Saint 
   Paul Island, AK, (the City), and the Halibut Association of North 
                             America (HANA)
    Mr. Chair, Ranking Member, and members of the Subcommittee, thank 
you for the opportunity to submit comments on the Magnuson-Stevens Act 
at 40.
    These comments are submitted on behalf of the Alaska Longline 
Fishermen's Association (ALFA), the Alaska Marine Conservation Council 
(AMCC), the Central Bering Sea Fishermen's Association (CBSFA), the 
City of Saint Paul Island, AK, (the City), and the Halibut Association 
of North America (HANA). Together these associations, organizations, 
community development quota (CDQ) groups, and local governments 
represent a diverse group of halibut users including commercial, 
recreational, and subsistence fishermen, and halibut dependent 
communities--from the Bering Sea, to the Gulf of Alaska to Southeast 
Alaska--that are concerned with the conservation and management of the 
North Pacific halibut resource.
    The primary strength of the Magnuson-Stevens Act (MSA) is its 
commitment to long- term conservation of marine fisheries and 
resources. While achieving optimal yield from the fisheries is clearly 
important, managers ``must give priority to conservation measures.'' 
\1\ The signatories to this letter share this priority and oppose any 
action that weakens this long-term commitment to resource conservation 
and sustainable fisheries.
---------------------------------------------------------------------------
    \1\ Natural Res. Def. Council, Inc. v. Daley, 209 F.3d 747, 753 
(D.C. Cir. 2000)
---------------------------------------------------------------------------
    That said, legal and policy frameworks must evolve to reflect 
changed conditions, participation, and uses over time. The Magnuson-
Stevens Act (MSA) is no different. While the MSA through the balancing 
of the National Standards has clearly had many successes in its forty 
years of existence that have resulted in improved management, 
conservation, and participation by stakeholders in the nation's 
fisheries, our comments will be focused on areas that require 
recalibrating or rebalancing. These comments are based on recent 
challenges in the conservation and management of the North Pacific 
halibut fishery, which exemplify the shortcomings of current National 
Standards, as well as the need for additional guidance--either through 
Agency input or Congressional reauthorization--on how regional councils 
are to apply the ten National Standards.
I. The North Pacific Halibut Fishery
    Halibut is considered one of the world's premium whitefish. It is 
popular with consumers and seafood restaurants throughout the United 
States and around the world. Along with red king crab and salmon, it is 
emblematic of Alaska's wild fisheries and a key
    commercial, recreational, and subsistence fishery in communities 
from Alaska through British Columbia, to California. Since 1923, the 
U.S.-Canada International Halibut Commission (IPHC) has managed the 
North Pacific's halibut stocks, a testament to its historic and 
commercial importance to communities throughout its international 
range.
    There are currently 2,714 halibut Individual Fishing Quota (IFQ) 
holders in the United States--and 1,965 of the IFQ holders are 
Alaskans, who employ other Alaskans. In addition, there are a total of 
1,157 vessels in the halibut IFQ and CDQ fleets. The CDQ fleet is based 
out of 39 Western Alaska villages. The directed halibut fishing vessels 
made IFQ landings in 32 different community ports in 2014. There are 77 
distinct registered buyers that purchase halibut in these ports.
    In addition, halibut is a key subsistence fishery. Residents of 118 
rural Alaskan communities and areas, and members of 123 tribes, are 
eligible to participate in the federal subsistence fishery. In 2011, 
4,705 individuals subsistence fished for halibut. Those individuals 
harvested an estimated 38,000 halibut, comprising 700,000 pounds--a 
vital source of food and a critical cultural component for dependent 
villages and individuals, which must be protected. This is particularly 
important in areas where salmon has been all but removed from the 
traditional subsistence diet in an effort to conserve Chinook.
II. A Distorted Use of the Halibut Resource
    Over the last 15 years, the IPHC has steadily reduced directed 
halibut catch limits as a necessary conservation measure in response to 
a declining available halibut resource. This has resulted in the 
directed halibut fishermen undergoing extreme cuts in their quotas. 
Meanwhile, until last year, the bycatch users in the Bering Sea 
groundfish fisheries have been permitted by regulation to catch and 
discard halibut up to the limit set more than 20 years ago, when the 
halibut resource was double what it is now. In effect, a dramatic 
reallocation of halibut from the directed halibut fisheries to bycatch 
users has taken place in recent years.
    The impact of BSAI halibut bycatch is felt throughout the range of 
this great fish, but in particular by the directed halibut fishermen in 
the commercial, recreational, and subsistence sectors. These fishermen 
are primarily based in coastal, and economically less-diversified, 
Alaskan communities. IPHC studies reveal that halibut undertake 
lifelong migrations from nursery areas in the Eastern Bering Sea to the 
Gulf of Alaska and beyond. Of the under 26-inch--or juvenile--halibut 
tagged in the Bering Sea, 10-30% of the recovered tagged fish were 
recovered in the Bering Sea, while 70-90% were recovered in the Gulf of 
Alaska.
    The current Bering Sea/Aleutian Islands (BSAI) halibut bycatch 
limit of 3,515 Metric Tons (round weight, or weight of the entire fish) 
legally allows up to 5.81 million pounds of halibut (net weight, 
without heads and entrails) to be caught and discarded overboard as 
bycatch mortality in groundfish fisheries. Meanwhile, this year, 
directed commercial halibut fishermen in the BSAI are limited to 4.19 
million pounds (net weight). In 2015, BSAI trawl fisheries caught and 
discarded nearly 7 times more halibut than the directed fishery landed 
in the BSAI. BSAI trawl bycatch mortality was 3.99 million pounds--at 
an estimated average net weight of 3.675 pounds/fish, a total of 
1,088,000 halibut.\2\ The directed fishery landed 3.57 million pounds--
at an average weight of 21.7 pounds/fish, a total of 164,000 
halibut.\3\
---------------------------------------------------------------------------
    \2\ Int'l Pac. Halibut Comm'n, 2015 Report of Assessment and 
Research Activities, 251, 323
    \3\ Int'l Pac. Halibut Comm'n, 2015 Report of Assessment and 
Research Activities, 34, 96
---------------------------------------------------------------------------
    Please note the differences in average weight between bycaught 
halibut and those landed by the directed fishery. The longline fleet is 
constrained from catching halibut less than 32-inches long. Trawl 
fisheries have no such constraint. Of all halibut bycatch in Area 4CDE, 
76% is less than 32-inches. These are two to seven-year-old halibut 
that have not yet spawned. These small fish are the future of the 
halibut stock, and must be protected.
III. Halibut Bycatch Reduction and the National Standards
    In June of 2015, the North Pacific Fishery Management Council 
(NPFMC), which manages the groundfish fisheries and the associated 
Prohibited Species Catch (PSC) or bycatch, took action to reduce 
overall halibut PSC limits by 21%. This reduced actual bycatch by only 
1%. Nevertheless, the National Marine Fisheries Service (NMFS) recently 
approved the action and will be issuing a final rule in the spring of 
2016.
    Collectively, the NPFMC action and the corresponding NMFS approval 
of that action, demonstrate some of the current limitations of the 
National Standards, as interpreted and applied by the NPFMC and NMFS. A 
more detailed discussion follows.
a. The NPFMC and NMFS placed too much emphasis on the economics of the 
        groundfish fishery when applying the National Standards
i. National Standard 1
    National Standard 1 requires that the NPFMC and NMFS establish 
harvest limits that prevent overfishing while ensuring, on a continuing 
basis, the optimum yield from each fishery.\4\ The analysis and 
deliberations from the June meeting continuously mentioned the need to 
balance bycatch reduction with the mandate to achieving optimum yield 
on ``a continuing basis.'' Both the MSA and the National Standard 1 
Guidelines make clear that optimum yield is a blend of factors. The MSA 
defines ``optimum,'' with respect to the yield from a fishery, as the 
amount of fish that ``will provide the greatest overall benefit to the 
Nation, particularly with respect to food production and recreational 
opportunities, and taking into account the protection of marine 
ecosystems''; and ``is prescribed as such on the basis of the maximum 
sustainable yield from the fishery, as reduced by any relevant 
economic, social, or ecological factor.'' \5\ The National Standard 1 
Guidelines also provide a non-exhaustive list of potential 
considerations, which include social, economic, and ecological 
factors.\6\ Yet, both the NPFMC and NMFS largely limited their optimum 
yield analyses to the financial needs of the groundfish fleet.\7\ In 
doing so, they failed to consider optimum yield within the full context 
of MSA requirements.
---------------------------------------------------------------------------
    \4\ 16 U.S.C. Sec. 1851(a)(1).
    \5\ 16 U.S.C. Sec. 1802(33).
    \6\ 50 C.F.R. Sec. 600.310(c)(3)(iv).
    \7\ See, e.g., N. Pac. Fishery Mgmt. Council, Fishery Management 
Plan for Groundfish of the Bering Sea and Aleutian Islands Management 
Area 56 (2015) (explaining that the Council rejected ``reductions in 
excess of [the Preferred Alternative] level [as] no longer be 
practicable as they would seriously affect jobs and revenue'') 
[hereinafter EA/IRFA].
---------------------------------------------------------------------------
    Economic considerations in the groundfish fishery cannot override 
other priorities in the MSA. While achieving optimum yield is an 
important objective, nowhere does the MSA suggest that optimum yield 
should be prioritized over bycatch minimization measures that are 
otherwise feasible. Rather, the MSA is conservation focused, and 
conservation standards should be prioritized when applying the National 
Standards.\8\ NMFS ``must give priority to conservation measures. It is 
only when two different plans achieve similar conservation measures 
that the Service takes into consideration adverse economic 
consequences.'' \9\
---------------------------------------------------------------------------
    \8\ See Natural Res. Def. Council, Inc. v. NMFS, 421 F.3d 872, 879 
(9th Cir. 2005) (``The purpose of the Act is clearly to give 
conservation of fisheries priority over short-term economic 
interests.''); Natural Res. Def. Council, Inc. v. Daley, 209 F.3d 747, 
753 (D.C. Cir. 2000).
    \9\ Natural Res. Def. Council, Inc. v. Daley, 209 F.3d 747, 753 
(D.C. Cir. 2000)
---------------------------------------------------------------------------
    Similarly, neither the NPFMC nor NMFS acknowledged that optimum 
yield is fluid concept--the average of ``a long-term series of 
catches.'' \10\ By assuming that optimum yield is a fixed amount, the 
NPFMC and NMFS at least implicitly give National Standard 1 priority 
over the other National Standards.\11\
---------------------------------------------------------------------------
    \10\ See 50 C.F.R. Sec. 600.310(f)(3)(i)(B) (``In [National 
Standard 1], use of the phrase ``achieving, on a continuing basis, the 
optimum yield from each fishery'' means producing, from each stock, 
stock complex, or fishery: a long-term series of catches such that the 
average catch is equal to the OY. . . .'').
    \11\ It is also worth noting that BSAI groundfish optimum yield is 
statutorily capped at 2 million metric tons each year, which is 
generally well below the sum of acceptable biological catches for the 
groundfish species (i.e., where the NPFMC could set the optimum yield). 
For example, in 2015, the sum of acceptable biological catches was 
equal to 2.85 million metric tons, while the NPFMC set total allowable 
catch quotas well below the ABC levels due to optimum yield 
constraints.\11\ Thus, the NPFMC never considered the fact that Optimum 
yield can still be achieved because of the 2 million metric ton cap on 
optimum yield in the BSAI. OY of the groundfish harvest is never 
achieved because of this cap. The NPFMC and NMFS could increase other 
target species to account for reduced groundfish harvest.
---------------------------------------------------------------------------
ii. National Standard 4
    National Standard 4 mandates that allocative measures must not 
discriminate between residents of different states and must reflect 
consideration of other factors, including present participant and 
coastal community dependence and recreational fishing 
opportunities.\12\ The NPFMC and NMFS' analysis of the bycatch 
reduction action fails to account for the de facto reallocation that 
had been occurring for the past 10 years under the existing regulations 
thus skewing its analysis of economic effects of bycatch reduction. In 
2014, for example, halibut PSC accounted for 77% of all BSAI halibut 
removals.\13\ This allocation disproportionately benefited Washington 
residents at the expense of Alaskan residents: Washington State 
residents own 89% of the trawl catcher processors and 75% of the 
catcher vessels in the BSAI groundfish fishery.\14\ Washington State 
also received the vast sum of revenues from the trawl sectors--the 
largest recipient of PSC allocation.\15\
---------------------------------------------------------------------------
    \12\ 16 U.S.C. Sec. 1851(a)(4); 50 C.F.R. Sec. 600.325(c)(3)(iv). 
See also 16 U.S.C. Sec. 303(a)(15)(when conservation measures are 
necessary, NMFS must consider the economic impact of harvest 
restrictions and recovery benefits for each sector, and allocate the 
costs or benefits ``fairly and equitably among the commercial, 
recreational and charter fishing sectors.'').
    \13\ Int'l Pac. Halibut Comm'n, 2015 Annual Meeting Handout 
(Bluebook) Appx IV 240 (2015).
    \14\ N. Pac. Fishery Mgmt. Council, Appendix C Proposed Bering Sea/
Aleutian Islands Halibut Prohibited Species Catch Limit Revisions: 
Community Analysis 14-15 (2015).
    \15\ See id. at 11, 15.
---------------------------------------------------------------------------
iii. National Standard 8
    National Standard 8 requires the NPFMC and NMFS to establish 
harvest limits that account for the importance of fishery resources to 
local fishing communities by providing for the sustained participation 
of local fishing communities, and that fishery management decisions be 
tailored to minimize the economic impacts on communities that depend on 
fishery resources.\16\ NMFS and the NPFMC improperly applied this 
standard. Under the National Standard 8 Guidelines, NMFS and the NPFMC 
should have prioritized the sustained participation of Area 4CDE and 
other halibut dependent communities.\17\
---------------------------------------------------------------------------
    \16\ 16 U.S.C. Sec. 1851(a)(8).
    \17\ 50 C.F.R. Sec. 60.345(c)(4)(``any particular management 
measure may economically benefit some communities while adversely 
affecting others''); 50 C.F.R. Sec. 600.345(b)(4)(``sustained 
participation means continued access to the resource within the 
constraints of the conditions of the resource'').
---------------------------------------------------------------------------
    Instead, they overestimated the economic dependency of Seattle, by 
treating the large metropolitan area as a fishery dependent community 
(despite the fact that the analysis acknowledged that Seattle's 
community dependence on fisheries is not even a ``salient issue'' 
\18\). This is contrary to the National Standard 8 Guidelines, which 
define a ``fishing community'' as one ``that is substantially dependent 
on or substantially engaged in the harvest or process of fishery 
resources to meet social and economic needs.'' \19\
---------------------------------------------------------------------------
    \18\ EA/IFRA at 55, 57.
    \19\ 50 C.F.R. Sec. 600.345(b)(3).
---------------------------------------------------------------------------
    By contrast, the NPFMC and NMFS undervalued the dependence of 
halibut-dependent communities in the Bering Sea by failing to consider 
``direct or indirect community impacts that may have already occurred 
due to changes in the status of halibut,'' and underestimating ``the 
number of communities [that are] dependent on halibut and those levels 
of dependency.'' \20\ The Science and Statistical Committee (SSC) noted 
that the analysis treated the PSC and halibut user groups unevenly, 
using metrics that failed to fully capture the level of engagement 
among Alaskan communities.\21\ With respect to subsistence use, the SSC 
stated that the treatment of subsistence use of halibut in the analysis 
``remains insufficient and likely underestimated'' the potential 
impacts'' \22\
---------------------------------------------------------------------------
    \20\ Report of the Scientific and Statistical Committee, June 1-3, 
2015, at 9.
    \21\ Id. at 9-10.
    \22\ Id. at 9.
---------------------------------------------------------------------------
    NMFS and the NPFMC also treated the National Standard 8 requirement 
that it ``provide for the sustained participation of [fishing] 
communities'' \23\ as if it were qualified by ``to the extent 
practicable'' and therefore subordinate to National Standard 1. The 
maker of the NPFMC's amended motion, for example, explicitly 
acknowledged that the bycatch reductions he was proposing would not get 
the fishing communities of the Bering Sea where they needed to be for 
sustained participation in the fishery. This is contrary to the plain 
language of the statute and begs for further clarification by the 
agency.
---------------------------------------------------------------------------
    \23\ 16 U.S.C. Sec. 1851(a)(8).
---------------------------------------------------------------------------
iv. National Standard 9
    National Standard 9 provides that NMFS and the NPFMC ``shall, to 
the extent practicable, minimize bycatch.'' \24\ The recent halibut 
bycatch action highlights the difficulties that regional councils and 
NMFS have in applying National Standard 9.
---------------------------------------------------------------------------
    \24\ 16 U.S.C. Sec. 1851(a)(9).
---------------------------------------------------------------------------
    The term ``practicable'' is inherently ambiguous, and, in light of 
that ambiguity, it has become an industry driven standard that places 
more weight on the economic costs of bycatch reduction than any other 
factors. For example, the scenarios modeled in the NPFMC's analysis 
predicted that bycatch could not be reduced without closing groundfish 
fisheries--an assumption the NPFMC's SSC identified as an ``unrealistic 
characterization'' because the model does not reflect likely behavior 
changes in the groundfish fishery. NMFS similarly states more stringent 
PSC reductions are not practicable because of the foregone harvests and 
revenues in the groundfish fishery.\25\ This interpretation that the 
groundfish fleet's revenue set the boundary of practicability does not 
comport with the MSA. As an Alaskan representative on the NPFMC said in 
voting against the minimal bycatch reductions, ``[National Standard 9] 
doesn't mandate bycatch reduction at all cost, but it also doesn't 
mandate bycatch reduction at no cost.''
---------------------------------------------------------------------------
    \25\ Fisheries of the Exclusive Economic Zone Off Alaska; Bering 
Sea and Aleutian Islands Management Area; American Fisheries Act; 
Amendment 111, 80 Fed. Reg. 71,650, 71,668 (proposed Nov. 16, 2015).
---------------------------------------------------------------------------
b. The NPFMC and NMFS did not take a comprehensive approach to 
        balancing the National Standards
    Both the NPFMC and NMFS noted ``[a]n inherent tradeoff in this type 
of action is between National Standard 1 and National Standard 9, where 
the [NPFMC] and NMFS use management tools such as halibut PSC mortality 
limits to minimize bycatch in the groundfish fisheries to the extent 
practicable, while achieving, on a continuing basis, the optimum yield 
from the groundfish fisheries.'' \26\ The analysis also found tension 
``between National Standard 8, which requires provision for the 
sustained participation of and minimized adverse economic impacts on 
fishing communities, and National Standard 4, which states that 
management measures shall not discriminate between residents of 
different states, and requires allocations of fishing privileges to be 
fair and equitable to all fishery participants.'' \27\
---------------------------------------------------------------------------
    \26\ ER/IRFA at 376.
    \27\ Id.
---------------------------------------------------------------------------
    While it is true that any fishery management action requires the 
NPFMC and NMFS to find balance between the National Standards, the 
approach taken by the agency here improperly restricts that balancing 
test (e.g., the need to only find balance between National Standards 1 
and 9). What should also be required, and clarified by Congress when 
the MSA is reauthorized, is for NMFS and the NPFMC to explicitly take a 
holistic view at how the National Standards interrelate. In this case, 
the National Standards 4, 8, and 9 all weigh heavily in favor of more 
stringent reductions to halibut PSC limits in the BSAI groundfish 
fishery; however, because of the way NMFS and the NPFMC structured 
their balancing test, this did not come out in the analysis or 
rationale.
V. Recommendations
    It is clear from this experience, that a recalibration, 
clarification, or rebalancing of how the National Standards are 
weighted is required in order to conserve the resource and restore 
balance among the various stakeholders and user groups. Specifically, 
we recommend that:

  <bullet> NMFS produce guidance on how the regional councils and 
        agency are to balance the relationship between National 
        Standard 1 and the other National Standards.

    <ctr-circle> National Standard 1 Guidelines already do this, but 
            the guidance is focused on the how the requirement to 
            prevent overfishing and rebuild overfished stocks relates 
            to the other standards. As demonstrated above, NMFS and the 
            NPFMC place continuous achievement of optimum yield as the 
            priority. Additional guidance is needed to determine how 
            that priority fits with the other standards.

  <bullet> NMFS and the regional councils be more explicit in how they 
        factor social, economic, and ecological factors into its 
        National Standard 1 calculation.

  <bullet> National Standard 8 be given more weight when sustained 
        participation of fishery dependent communities is threatened 
        due to bycatch in other fisheries.

  <bullet> NMFS provide additional guidance as to how practicality is 
        determined with respect to bycatch reduction. Consistent with 
        the MSA, this guidance should include more than economic 
        factors. Reducing bycatch to the maximum extent practicable 
        should involve consideration of a suite of alternative options 
        such as prioritizing catch for gear types with low bycatch or 
        modifying the behavior of the fisheries with high bycatch.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                        Hon. Samuel D. Rauch III
Cooperative Management
    Question 1. Cooperative management tries to achieve more effective 
and equitable systems of resource management. With respect to fishery 
cooperative management, representatives of user groups, the scientific 
community, and government agencies may share knowledge, power, and 
responsibility of the fishery. What legislative and/or administrative 
barriers exist to implementation of cooperative management strategies 
under the Magnuson-Stevens Fishery Conservation and Management Act 
(MSFCMA)?
    Answer. For several years, NOAA Fisheries has carried out 
cooperative management and cooperative research under several statutes 
including MSA. NOAA Fisheries recently completed a White Paper on this 
issue that can be found here:

        http://www.nmfs.noaa.gov/op/docs/
        cooperative_research_and_mgmt.pdf

    NOAA Fisheries determined that successful cooperative management 
and cooperative research activities have several key attributes. These 
include:

  <bullet> A clear legal framework.

  <bullet> An organized stakeholder group, with leadership.

  <bullet> Clear roles for partners, stakeholders, and NOAA Fisheries 
        personnel.

  <bullet> Clear goals.

  <bullet> Buy-in of partners and stakeholders.

  <bullet> Trust between stakeholders and NOAA Fisheries personnel.

  <bullet> Transparent and clearly understood decision-making process.

  <bullet> Strong and regular communication.

  <bullet> Matching the scale of the cooperative management system with 
        the distribution and mobility of the managed species.

  <bullet> Use of results to make fishery management decisions.

  <bullet> Funding.

    NOAA Fisheries is currently implementing the recommendations in 
this White Paper.
Electronic Monitoring
    Question 2. The National Observer Program (established in 1999) is 
composed of 11 regional observer programs that use a combination of 
trained biologists and at-sea monitors to collect catch data, document 
fishing gear, conduct safety inspections, and monitor fishing efforts. 
The data collected through the program aids fishery managers in 
conducting stock assessments, reducing bycatch, and obtaining necessary 
information for many other decisions. Since the establishment of the 
program, the cost to collect fishery-dependent data has risen 
dramatically and the number of fisheries to observe has increased. 
Disproportionate growth between cost and the number of fisheries 
observed has led some stakeholders to call for alternatives to the 
traditional observer program such as electronic monitoring (EM). In the 
United States, there are five active EM programs--four in the Alaska 
groundfish fisheries that are funded by the fishing industry, and one 
for the Atlantic Highly Migratory Species that is funded by NOAA 
Fisheries. What legislative and/or administrative barriers exist to a 
more complete or full implementation of EM under the MSFCMA?
    Answer. NOAA Fisheries doesn't believe significant legislative or 
administrative barriers exist that are preventing electronic monitoring 
(EM) implementation. Expansion to other regions of the fee authorities 
in Section 313 of the MSA could simplify implementation of EM programs 
however, it is not absolutely necessary. Developing thoughtful 
solutions to the cross-cutting issues and numerous fishery-specific 
challenges requires planning, which is why NOAA Fisheries and the 
Regional Fishery Management Councils are taking a systematic and 
regional approach toward adopting these new technologies. We have 
implemented EM in five fisheries, and planned for implementation in six 
more, which would bring total EM programs to as many as 11 fisheries by 
2018. Some of the outstanding issues affecting the pace of EM 
implementation include: (1) efficiently transferring and storing the 
large quantities of EM data involved, (2) determining costs associated 
with different EM program designs, (3) determining who is responsible 
for paying the costs of EM programs, (4) gaining acceptance of EM by 
the fishing industry, and (5) developing new technologies such as 
automatic image recognition systems to allow automated fish counts and 
weight estimation for catch and bycatch accounting.
Overlap with the National Environmental Policy Act
    Question 3. H.R. 1335 would add provisions to change the 
relationship between MSFCMA and other environmental laws such as the 
National Environmental Policy Act (NEPA). The bill would require 
councils to develop fishery management plans and amendments, which 
would satisfy and replace NEPA requirements. In what ways can NOAA help 
reduce the duplicative NEPA and Fishery Management Plan requirements?
    Answer. As outlined in the May 19, 2015 Statement of Administration 
Policy, the agency strongly opposes provisions in H.R. 1335 that would 
change how the MSA interacts with other important statutes. NOAA has 
worked closely with the councils to integrate the processes and 
analyses required by other statutes such as the National Environmental 
Policy Act (NEPA) into an overall framework that is both timely and 
effective. Section 7 of the bill would incorporate some aspects of this 
statute into the MSA and could potentially alter the manner in which 
they apply to fishery management actions. Specifically, the bill would 
establish a new set of standards for environmental analysis that are 
similar to the requirements under NEPA. We believe this provision is 
unnecessary because it is unclear what substantive problem specifically 
related to NEPA the language seeks to solve.
    On February 23, 2016, the agency issued final NEPA Procedures for 
MSA Actions (MSA NEPA Procedures) which clarify roles and 
responsibilities of the National Marine Fisheries Service (NMFS) and 
the Regional Fishery Management Councils (Councils), explain timing and 
procedural linkages, provide guidance on documentation needs, and 
foster partnerships and cooperation between NMFS and Councils on NEPA 
compliance. The MSA NEPA Procedures represent a very successful 
collaboration between NMFS, the Council on Environmental Quality, and 
the Councils that resulted in a consensus document that has broad 
support from many of our constituents. The agency believes these MSA 
NEPA Procedures represent the appropriate mechanism for integrating 
NEPA requirements into the MSA fishery management process. You can find 
more information about these Procedures at http://www.nmfs.noaa.gov/
sfa/laws_policies/msa/nepa.html.
Lionfish
    Question 4. Two lionfish species (Pterois volitans and Pterois 
miles) represent the first non-native marine finfish to become 
established in Atlantic waters of the United States, including the Gulf 
of Mexico and Caribbean. During the course of their nearly three-decade 
invasion, lionfish have demonstrated how challenging a marine invasive 
can be to control once it becomes established. Lionfish are proficient 
opportunistic predators, consuming a wide variety of prey which has led 
to drastic declines in the abundance and richness of native reef fish 
species. Should lionfish be regulated by MSFCMA, and if so, how?
    Answer. NOAA Fisheries does not believe it is appropriate to 
regulate invasive lionfish through the Magnuson-Stevens Act (MSA). One 
of the central purposes of the MSA is to ``achieve and maintain, on a 
continuing basis, the optimum yield from each fishery.'' If lionfish 
were to be regulated under the MSA, NOAA Fisheries would be required to 
maintain a fishable population of lionfish rather than act to eradicate 
the species.
Fisheries Buyback Program
    Question 5. My staff has inquired as to what statutory authorities 
NOAA requires to make and refinance buyback loans in their Fishing 
Capacity Reduction Programs. Their initial inquiry was in January of 
2015. My staff has followed up several times. Please provide the reason 
that you have not been responsive to my staff's questions as well as 
when I can expect you to provide a response to them.
    Answer. (Note: NOAA will also follow-up the response below with a 
buyback loan brief which provides additional details.)
    The Magnuson-Stevens Fisheries Conservation Act and the fishing 
capacity reduction framework regulations authorize NOAA to implement an 
industry funded capacity reduction program. The Merchant Marine Act, 46 
U.S.C. Chapter 537, allows the Secretary to make a loan for a capacity 
reduction program.
    Neither the Magnuson-Stevens Act nor the Merchant Marine Act 
authorizes the refinancing of existing buyback loans. This would 
require explicit Congressional authorization and appropriations 
language that includes loan limits, subsidy costs, and the cost to 
refinance.
    Section 312 (b)-(e) of the Magnuson-Stevens Fisheries Conservation 
Act (P.L. 94-265, as amended by P.L. 109-479) (Magnuson-Stevens Act) 
and the fishing capacity reduction framework regulations, originally 
published in 2000 and revised in 2010 (50 CFR Part 600, Subpart L), 
provide authority to implement a buyback program.
Civil Penalties for Gulf Red Snapper
    Question 6. Senator Thune along with Senators Wicker, Sessions, 
Cassidy, and Cornyn submitted a letter to Dr. Sullivan dated January 
19, 2016 inquiring about NOAA's position to not issue civil penalties 
for Mexican fisherman caught illegally fishing for red snapper in U.S. 
waters. This letter builds on prior staff inquires that first began 
over 7 months ago. The Committee has still not been informed of the 
justification for the decision to not pursue civil penalties, and 
whether NOAA will reverse this position. Please follow up with the 
information requested in our letter, or a timeline for when we can 
expect to be informed of NOAA's position.
    Answer. The letter is in the final stage of clearance and will be 
sent shortly.
Violation of Federal regulations in New England
    Question 7. Last month, Carlos Rafael, the owner of one of the 
largest commercial fishing businesses in the northeastern U.S. was 
arrested on charges of conspiracy and submitting falsified records to 
the Federal Government to evade Federal fishing quotas. Northeast 
fisheries managers believe that the case has singlehandedly impacted 
the resource, and the lack of monitoring and enforcement it highlights 
are a threat to the future of fishing in the Northeast. Currently NOAA 
is monitoring very few New England fishing boats. The switch to more 
cost-effective electronic monitoring would increase confidence among 
fishermen that everyone is playing by the same rules. What impacts on 
Northeast fishery stock assessments does NOAA see as a result of the 
Rafael case, and does this case highlight the need for increased 
electronic monitoring outside of pilot programs in New England? Also, 
please provide the total amount of Federal fishing disaster funds that 
Carlos Rafael has received.
    Answer. The case involving Carlos Rafael is an ongoing 
investigation, therefore we cannot comment on or speculate as to 
whether and how the allegations in the Rafael case may have impacted 
Northeast Multispecies stock assessments.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                        Hon. Samuel D. Rauch III
    Question 1. There seems to be a remarkable disconnect between the 
Integrated Coastal and Ocean Observing System ICOOS Program and the 
National Marine Fisheries Service. How effective has MSA been with 
respect to availability of monitoring and observing technologies 
authorized under programs such as ICOOS?
    Answer. The Integrated Coastal Ocean Observation System Act (ICOOS 
Act), signed by President Obama in March of 2009, established the 
statutory authority for development of the U.S. Integrated Ocean 
Observing System (IOOS). By integrating and coordinating a variety of 
oceanic data sources, IOOS provides public access to data streams that 
can contribute to the science needed for better understanding and 
managing the Nation's living marine resources. NOAA Fisheries utilizes 
these data in a variety of ways, namely in research and development to 
better our understanding of the oceanic processes that affect fish 
stock productivity. Thus, IOOS data complements NMFS' primary data 
collection efforts (fishery-independent surveys for estimating stock 
abundance and fishery-dependent programs to estimate catch and 
discards). Further, NOAA continues to promote partnerships for 
integrating long-term surveys and ocean observation systems. NOAA is 
routinely evaluating how best to deploy its limited days-at-sea aboard 
oceanographic vessels to support NOAA's survey and ocean observation 
requirements.

    Question 2. Do you think that the observation monitoring programs 
and data established under ICOOS should be explicitly referenced in MSA 
for the purposes of fisheries management and stock assessments?
    Answer. We feel that ICOOS or IOOS do not need an explicit 
reference in the MSA. The current statute allows the incorporation of 
ecosystem and environmental data into the fisheries management process, 
and there are numerous data sources, some of which are hosted by IOOS, 
that fit within this context. However, increasing total information 
will only improve the fisheries management process, so NOAA Fisheries 
supports any efforts to increase monitoring and observing of oceanic 
systems.

    Question 3. Are there deep water species and habitats currently not 
included in previous MSA language regarding deep sea coral research 
that are potentially important to the management of living resources?
    Answer. No, the MSA's broad definition of ``fish'' includes deep-
sea sponges and sponge habitats: ``The term `fish' means finfish, 
mollusks, crustaceans, and all other forms of marine animal and plant 
life other than marine mammals and birds.'' In addition, the MSA 
section on the Deep Sea Coral Research and Technology Program provides 
authority ``to conduct research . . . on deep sea corals and related 
species,'' which also covers sponges and their deep-sea habitats.
    Because these deep-sea benthic habitats potentially attract fish 
and their prey, they are of concern to the management of living 
resources. The lack of explicit mention of sponges and other deep-sea 
species in MSA does not prohibit NOAA and the Fishery Management 
Councils from managing some fishing impacts to these habitats such as 
bycatch, in particular, as laid out in the 2010 NOAA Strategic Plan for 
Deep-Sea Coral and Sponge Ecosystems. Regional Fishery Management 
Councils have made significant progress on deep-sea coral conservation 
since the 2007 reauthorization.

    Question 4. What technologies or technology development programs 
are required to improve understanding of non-coral deep water 
environments, species, or habitats for fisheries management?
    Answer. NOAA Fisheries believes that increased development and use 
of advanced technologies is key to improving our understanding and 
management of deep water species and the environments they inhabit. 
New, more capable and cost-effective technologies are needed to address 
the mismatch between the very small areas of deep seafloor that can 
currently be surveyed in detail and the relatively large deep-sea areas 
we manage. These environments are difficult to access, expensive to 
study, and conventional survey gear such as trawls cannot provide the 
necessary comprehensive ecological information. In addition, these 
gears can destroy sensitive organisms that form many deep-water 
habitats, such as large benthic invertebrates, including sponges, 
bivalves, and tube worms. Thus, we depend on remote sensing and 
sampling technologies to work in these areas. These technologies 
include:

  <bullet> Acoustics, such as advanced sonars for counting fish and 
        mapping seafloor habitat;

  <bullet> Optics, such as high-resolution video and still cameras that 
        can operate in low light or total darkness;

  <bullet> Sample collections and analyses, including genetic 
        techniques that can aid in identifying species and populations; 
        and

  <bullet> Platforms for deploying these instruments, such as 
        autonomous underwater vehicles, remotely operated vehicles, 
        towed bodies, and manned submersibles.

    In many cases we need to use a combination of technologies. For 
example, we can map seafloor using sonar, and then use that information 
to target follow-up camera surveys in areas with characteristics that 
make them potentially suitable for the habitats of interest. In 
addition, these instruments produce extremely large volumes of data, 
creating needs for improved data processing capabilities, such as 
automated species recognition and measurement from optical data, and 
improved data management to enable our scientists and the public at 
large to efficiently access the latest advanced data products.
    NOAA Fisheries is working with partners across NOAA, other Federal 
agencies, and research institutions through our Deep Sea Coral Research 
& Technology Program to identify, coordinate and apply technologies for 
use in deepwater environments. This program conducts multi-year surveys 
to map and characterize deep-sea habitats and their associated 
fisheries resources in order to provide fisheries managers with 
information needed to conserve vulnerable biogenic habitats formed by 
sponges, bivalves, tube worms in addition to corals. These surveys 
regularly combine advanced acoustic, optical and sampling technologies 
deployed off a variety of vessels, as well as analyses of deepwater 
organisms caught as bycatch on commercial fishing trips or in NOAA 
Fisheries' scientific trawl surveys. This program does not, however, 
include resources for technology development but is well situated to 
apply these types of advanced technologies developed by others.
    NOAA Fisheries is also actively working to advance our survey 
capabilities through our Advanced Sampling Technology (AST) program. 
Many deep-sea technologies have been developed for purposes other than 
fisheries, so our AST program is often working on research and 
development to adapt technologies to meet our needs. For example, many 
platforms that can operate in these environments work well for mapping 
seafloor habitat. However, some platforms, such as towed bodies, lack 
sufficient ability to avoid the obstacles that may be encountered on 
rough bottoms, and many platforms are far too intrusive to accurately 
survey fish, which may be frightened away by, or sometimes are actually 
attracted to, these devices. Thus, we are working on platforms that are 
stealthy and can avoid obstacles, and we are developing analytical 
methods that can account for fish behavior.
    NOAA Fisheries is working as effectively as possible to address our 
technology research and development needs.

    Question 5. Has NOAA or any other government agency developed or 
applied technologies that can be used in the enforcement of fishing 
violations on the high seas?
    Answer. NOAA currently uses several systems that collect and 
analyze identifying information broadcasted by fishing vessels on the 
high seas that help determine the vessels location and possible 
activity. These systems collect technological information from both 
cooperative and non-cooperative equipment. Cooperative sensing 
equipment (VMS/ERS) are technologies that vessels are aware that they 
are broadcasting and have agreed to share their vessel information with 
regulating authorities. Technologies using non-cooperative sensing 
equipment (AIS/Radar) identify vessels without their direct knowledge. 
Some raw data sources include information collected from:

  <bullet> Vessel Monitoring System (VMS)

  <bullet> Automatic Identification System (AIS)

  <bullet> Synthetic Aperture Radar (SAR)

  <bullet> Coastal Radar

  <bullet> Maritime Safety and Security Information System (MSSIS)

  <bullet> Acoustic

  <bullet> Classified Sources

    It is important to note that detecting fishing activity is only one 
step in the enforcement process. In many areas, fishing in and of 
itself is not illegal, but the use of certain types of gear or fishing 
practices, or the retention of certain species may be prohibited. 
Technologies that simply confirm the location of a boat are unable to 
provide much value in these circumstances. In addition, there are 
limitations with many of these data sources that prohibit them from 
being able to be used in a criminal/civil trial.

    Question 6. What technologies should be developed to assist 
agencies with reducing fishing violations on the high seas?
    Answer. NOAA OLE has been using SeaVision, a Department of Defense 
(DOD) front-end system that consolidates multiple data sources into one 
display; however DoD recently let its contract with its largest 
provider of AIS datasets lapse, which significantly reduces its 
coverage of fishing vessels on the high seas. This gap in data presents 
us with the need for an unclassified front-end system that is able to 
ingest various data sources (AIS/VMS/SAR/Coastal Radar/MSSIS etc.) and 
run analyses on the data.
    Also, most fishing vessels are not required to transmit any signals 
while fishing on the high seas, which presents one of our largest 
hurdles. The current IMO regulation exempts fishing vessels from having 
to carry AIS, although individual nations may be able to enforce 
stricter regulations on vessel that sail under their flag. 
Recommendation 3 of the Presidential Task Force on Combating IUU 
Fishing and Seafood Fraud directs the Secretaries of Defense and 
Homeland Security to include IUU fishing threat analysis and monitoring 
as a component of U.S. and international efforts to increase overall 
maritime domain awareness.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                        Hon. Samuel D. Rauch III
    Question 1. As you know, Congress is currently considering 
reauthorization of the Magnuson-Stevens Act (MSA). In your written 
testimony, you spoke extensively about the successes of the MSA--
however, we know the law is not performing as intended in many regions. 
As I understand it, New England groundfish fishermen have not exceeded 
their NOAA Fisheries-approved catch quotas in over a decade. Catch 
shares are destroying small boat fishing communities and my home state 
of New Hampshire may be entirely removed from the fishery if 
substantial changes to the MSA are not soon implemented. How will NOAA 
offer leadership in authoring changes in MSA to put more flexibility in 
the fishery management tool box so that regions, like New England, with 
multispecies fisheries can achieve Optimum Yield across the suite of 
species, not on a single species basis?
    Answer. The Magnuson-Stevens Act (MSA) has been the driver of our 
success in sustainably managing our Nation's valuable commercial, 
recreational, and subsistence fisheries for the past forty years. The 
science-based, regional system outlined in the requirements of MSA is 
recognized as a global model for responsible fisheries management; the 
flexibility and adaptability built into the MSA requirements are key 
components to our success.
    Last year, NOAA Fisheries issued a proposed rule to revise the 
National Standard 1 guidelines to address concerns about the 
implementation of annual catch limits and enhance flexibility to 
address fishery management challenges. The proposed rule includes 
revisions to expand flexibility in rebuilding plans and provide for 
more stable fisheries with guidance on how to phase in results of new 
stock assessments and carry over any unused portion of annual catch 
limits to subsequent years. In addition, the proposed rule offers 
guidance on using aggregate maximum sustainable yield estimates to 
account for multi-species interactions and other relevant factors. With 
these aggregate estimates, managers can specify fishery level optimum 
yield and facilitate ecosystem-based fisheries management. When final, 
we expect the revisions to the National Standard guidelines will 
provide additional flexibility in the fishery management toolbox.

    Question 2. As you know, there are ten National Standards included 
in the MSA. By law, according to National Standard 8, NOAA is directed 
to sustain both fishing stocks and fishing communities. I remain deeply 
concerned about the future of New Hampshire's historic fishing 
industry, which is critically important to our local seacoast 
communities and our economy. When I talk with fishermen in New 
Hampshire, it seems that NOAA is prioritizing National Standard 1 and 
disregarding the other nine standards. What specific language will NOAA 
offer to make National Standard 1 and National Standard 8 of equal 
importance in the reauthorization of MSA for regional fishery 
management councils?
    Answer. The Magnuson-Stevens Act's (MSA) ten National Standards 
embody different policy goals with which fishery management plans and 
implementing regulations must be consistent. 16 U.S.C. 1851(a)(1)-(10). 
NMFS and the Councils give serious consideration to all of the National 
Standards. However, the plain language of National Standard 8 clearly 
gives priority to conservation concerns, as numerous court cases have 
confirmed. For example, in Natural Resources Defense Council, Inc. v. 
Daley, 209 F.3d 747, 753 (D.C.Cir. 2000), the court examined National 
Standards 1 and 8 and stated that ``[i]t is only when two different 
plans achieve similar conservation measures that the Service takes into 
consideration adverse economic consequences.'' National Standard 8 
explicitly refers to conservation and management measures being 
``consistent with the conservation requirements of this Act (including 
the prevention of overfishing and rebuilding of overfished stocks).'' 
16 U.S.C. 1851(a)(8). National Standard 8 also has the caveat that 
measures shall minimize adverse economic impacts on communities ``to 
the extent practicable.'' Id.
    Under this construct, the Magnuson-Stevens Act has been a success. 
The occurrence of overfishing and status of overfished stocks in the 
U.S. are at historic lows--with only 17 percent of stocks determined as 
overfished and no new stocks added in 2014. This investment in 
environmental stewardship is paying off. We understand that some 
fishing communities are struggling economically as we work to rebuild 
stocks to sustainable levels. However the 2013 Fisheries Economics of 
the U.S. report states that overall, commercial and recreational 
fisheries contributed $195 billion per year to the U.S. economy and 
supported 1.7 million jobs. In 2013, U.S. fishermen landed 9.8 billion 
pounds of fish and shellfish--an increase of 245 million pounds from 
2012--worth $5.5 billion, an increase of $388 million over 2012. These 
numbers illustrate MSA's success in balancing conservation and 
economics. Given this overall success, NOAA Fisheries believes the 
current construct of the National Standards, which give priority to 
conservation concerns, is appropriate.
    At this time, NOAA does not plan to put forward a legislative 
proposal to make National Standard 1 and National Standard 8 of equal 
importance.

    Question 3. I continue to hear from fishermen in New Hampshire 
regarding the serious disconnect between what they are seeing on the 
water and what NOAA science is reporting related to fishing stocks. 
Recreational and commercial fishermen alike tell me the only folks who 
aren't seeing fish off the coast of New England are Federal regulators. 
In light of the continued and enormous difference in opinion in the 
status of stocks, especially Gulf of Maine cod, should congress remove 
the money for government trawl surveys from the budget and use that 
money to fund industry-based surveys, as I understand is the case in 
other fisheries? If not, why not?
    Answer. NOAA determines stock status using scientific analyses 
(stock assessments) that incorporate numerous sources of data, 
including fishery catches as well as data collected by government 
surveys (where available). Thus, a variety of factors influence stock 
status determinations, and on-the-water observations alone are not 
sufficient for assessing the health of a fish stock. In fact, there are 
several reasons why perceptions by fishermen may differ from the 
results of a stock assessment. For example, fish stocks may consolidate 
their aggregations. In other words, some fish may be readily available 
in specific fishing grounds but absent from other parts of their range 
where they were previously abundant, meaning they remain accessible to 
fishermen where they are fishing but their overall abundance is 
reduced. Also, some fishing vessels may have higher catch rates than 
NOAA trawl survey vessels, which may be perceived as the survey 
``missing fish''. These lower survey catch rates do not reduce the 
accuracy of a stock assessment however, because assessments account for 
the catch efficiency of trawl surveys. In fact it is more important 
that a survey maintain consistent methodology over time than it is for 
the survey to catch fish at a high rate.
    The time series of consistent trawl survey data is critical for 
fish stock assessments, as well as for informing other research on 
changes in marine ecosystems in response to climate change and other 
pressures. Further, NOAA ships have equipment and capabilities for 
research that are often not available on fishing vessels. Nevertheless, 
we are actively working with industry stakeholders through our recently 
reconvened Trawl Survey Advisory Panel and through our cooperative 
research Study Fleet to incorporate industry input into our surveys as 
well to provide more industry-collected data to our assessments and 
research.
    NOAA places a high value on cooperative research, and in fact 
relies on chartered fishing vessels to conduct surveys of many stocks. 
However, where there is stronger reliance on chartered vessels (e.g., 
the northwest and North Pacific), surveys were established in the 1970s 
when there was not sufficient time available on NOAA ships in these 
regions. Thus, chartered vessels can be used to fulfill requirements 
for limited types of data collection, but we focus on use of NOAA ships 
because they are configured to support large, multi-disciplinary groups 
of researchers with all of their specialized gear, instrumentation and 
data processing requirements.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                        Hon. Samuel D. Rauch III
    Question 1. State Management of Red Snapper in the Gulf of 
Mexico.--Mr. Rauch, the Gulf Council met at the end of January to 
consider a number of different measures, one of which was Amendment 39 
to the Reef Fish Management Plan. That amendment would allow for 
management of the recreational red snapper fishery in Federal waters by 
Florida and the other four Gulf Coast states. Ultimately, because the 
state regulators and other voting members of the Council couldn't agree 
on how to allocate red snapper among the states for management 
purposes, the Council voted to indefinitely postpone further 
consideration of this amendment. Meanwhile, a few of our colleagues in 
the House and Senate have been pushing legislation to turn management 
of Gulf red snapper over to some sort of state-run red snapper 
management council. This begs a couple of questions that I'd appreciate 
your thoughts on.
    If Amendment 39 can already provide the Gulf Coast states an avenue 
to manage red snapper in Federal waters, why would anyone think this 
red snapper legislation is even needed?
    Answer. NOAA Fisheries agrees legislation is not required to 
establish a regional management system for red snapper in the Gulf of 
Mexico because the Magnuson-Stevens Fishery Conservation and Management 
Act already provides the regional fishery management councils and NOAA 
Fisheries authority to develop such a system. We continue to support 
regional management in concept as a way to resolve the current 
challenges created by inconsistent state regulations and better meet 
diverse management objectives across the Gulf, and believe the best way 
to develop an effective regional management strategy that withstands 
the test of time is through the regional fishery management council 
process. The Magnuson-Stevens Act established that process to ensure 
fishery management decisions are developed from the bottom up, 
stakeholder-based, transparent, and consistent with all applicable law. 
We believe it is a good process for working through the types of 
difficult decisions that regional management requires.

    Question 2. If the Gulf Coast states can't agree on how to allocate 
red snapper among themselves under Amendment 39, why would anyone think 
they can agree sitting on a state-run red snapper council?
    Answer. The various bills proposing state management of the Gulf of 
Mexico red snapper fishery are unclear as to how the red snapper quota 
would be allocated among the states and how such allocation decisions 
would be made. NOAA Fisheries believes allocation decisions are best 
made through the open, public Magnuson-Stevens Fishery Conservation and 
Management Act process which requires such decisions to be fair and 
equitable to affected fishermen, reasonably calculated to promote 
conservation, and prevent individual entities or corporations from 
obtaining excessive shares. NOAA Fisheries worked closely with all 
eight regional fishery management councils over the last several years 
to develop policy guidance regarding when and how to conduct allocation 
reviews that meet these criteria, including best practices to ensure 
allocations remain current and relevant.

    Question 3. South Atlantic Black Sea Bass.--Mr. Rauch, when we look 
at the red snapper fishery in the Gulf of Mexico, we see a stock that 
has historically been overfished but is now rebuilding itself as the 
Council has imposed science-based catch restrictions in the fishery. 
Unfortunately, this has led to some fishermen placing pressure on the 
Council and Congress to increase catch limits before the stock is fully 
rebuilt, and that reminds me of a similar situation on our east coast 
of Florida just a few years ago. Black sea bass was a species in the 
South Atlantic that was experiencing similar levels of overfishing, 
from both the commercial and recreational sectors, leading to severe 
restrictions in harvest. As the species rebuilt itself, I remember 
similar pressure from some fishermen to increase catch limits. The 
South Atlantic Council was resolute in maintaining harvest 
restrictions, because although the numbers of black sea bass were 
increasing, they were not yet of the optimal size and maturity to 
produce enough juvenile fish to maintain the stock. The Council trusted 
the science, and as a result in 2013 the stock was declared fully 
rebuilt, with an allowable annual catch more than doubling from 847,000 
pounds to 1,814,000 pounds, and with fisherman reporting they are 
catching more large black sea bass than they've ever seen in their 
life. What does the story about black sea bass in the South Atlantic 
say to you about the value in holding to the rebuilding plan for red 
snapper in the Gulf of Mexico?
    Answer. The South Atlantic black sea bass rebuilding plan is indeed 
a success story. The catch increase made possible by rebuilding that 
species increased economic benefits to commercial and recreational 
fishermen by hundreds of thousands to millions of dollars. The Gulf of 
Mexico red snapper rebuilding plan differs from the black sea bass plan 
in many respects. Black sea bass are relatively short lived compared to 
red snapper (9 years versus 55 years), so the black sea bass 
population was rebuilt on a much shorter schedule (10 years versus 31 
years). That is one reason the South Atlantic Council adopted a 
rebuilding strategy for black sea bass that delayed the distribution of 
recovery benefits until the end of the rebuilding schedule by holding 
catches constant as the stock rebuilt.
    In contrast, the red snapper rebuilding strategy is designed to 
distribute rebuilding benefits throughout the rebuilding schedule by 
allowing catches to increase as the stock rebuilds. NOAA Fisheries has 
increased the combined (commercial and recreational) red snapper catch 
limit from 5 million pounds to about 14 million pounds since the 
rebuilding plan was last revised in 2007. In addition to increased 
catches, fishermen are encountering more and larger red snapper than 
many have seen in their lifetimes--and in places they have not been 
seen in decades--as the population expands back to its historic range. 
For that reason, we do not expect the red snapper rebuilding plan to 
have a similar impact on catch levels at the end of the rebuilding 
period. However, we do expect to see a much healthier number of older 
larger fish in the population when the stock is rebuilt, which will 
make the population more resilient to both fishing pressure and 
environmental variables.

    Question 4. South Atlantic Red Snapper.--Mr. Rauch, with so much 
interest and discussion concerning the red snapper fishery in the Gulf 
of Mexico, I want to turn some attention to the same fishery on the 
east coast of my home state of Florida, where fishing is closed 
entirely this year because red snapper catch exceeded the allowable 
harvest last year by roughly100,000 fish--nearly twice the allowable 
catch. The number of dead discards, the fish that had to be tossed 
overboard dead because they could not be legally kept, was 163,000 
fish, nearly four times as many fish as were kept. The dead discards 
alone exceeded the total quota for red snapper. Do you have any 
thoughts on what we can do to reduce this unintentional bycatch of red 
snapper in these fisheries where fishermen are targeting other species 
that live in the same habitat?
    Answer. Minimizing bycatch in multi-species fisheries, such as the 
South Atlantic snapper-grouper fishery, is one of our most challenging 
mandates. Several years ago, the South Atlantic Fishery Management 
Council initiated a stakeholder-driven visioning project to evaluate 
and refine current management goals and objectives for the snapper 
grouper fishery. One of the resulting recommendations was to better 
align fishery opening and closure dates in a way that best balances the 
need to minimize discards while providing fishing opportunities. We 
will continue to support the Council in evaluating these and other 
measures to reduce bycatch, and in exploring the potential uses of new 
technologies, like descending devices, to better minimize the mortality 
of bycatch that cannot be avoided.

    Question 5. Billfish Conservation Act Implementation.--Mr. Rauch, 
back in 2012 Congress enacted the Billfish Conservation Act, which 
prohibits the sale of marlin and certain other billfish species. The 
Act made an exception to this prohibition for billfish landed in Hawaii 
and U.S. territories and possessions in the Pacific, in order to 
protect the traditional fisheries and markets there. Here we are, four 
years later, and the Administration still hasn't implemented the 
Billfish Conservation Act. Some say the delay is due to confusion about 
whether Congress intended for Hawaiian-landed billfish to be sold on 
the U.S. mainland, but commercial sale of billfish to the U.S. mainland 
has never been a part of Hawaii's traditional billfish fisheries or 
markets. Can you comment on whether there is any truth to this question 
of Hawaiian sale to the mainland holding up NOAA's rulemaking?
    Answer. NMFS published an Advanced Notice of Proposed Rulemaking on 
April 4, 2013 (78 FR 20291). We received comments from academia, 
recreational fishing interest groups, environmental non-governmental 
organizations, individual citizens, industry, states and one regional 
fishery management council. The comments centered around six major 
themes: (1) whether billfish caught by U.S. fishing vessels and landed 
in Hawaii or Pacific Insular Areas can be sold on the mainland United 
States; (2) the interplay between international trade law and the BCA 
section 4(c)(1) exemption; (3) the impact of the BCA on recreational 
billfish activities; (4) the effectiveness and cost of the billfish 
certificate of eligibility (COE) for identification and tracking 
purposes; (5) the impact of the BCA on recreational versus commercial 
fisheries; and (6) degradation of conservation benefits of the BCA due 
to the exemptions from the general prohibition on sale of billfish. 
NMFS has been carefully considering all of these issues in preparing 
the proposed rule.

    Question 6. When can we expect to see a final rule issued to 
implement the Billfish Conservation Act?
    Answer. NMFS is still working to develop a proposed rule to 
implement the Billfish Conservation Act. Although rulemaking is 
ongoing, the provisions of the Act have been in effect since it was 
enacted in October 2012, and sale of billfish, except as specifically 
provided for by the statute, has been prohibited since that date.

    Question 7. Preventing Overfishing.--Mr. Rauch, the Magnuson-
Stevens Act clearly states in National Standard 1 that fisheries 
management measures ``shall prevent overfishing.'' 16 U.S.C. 
1851(a)(1). This is a cornerstone to the success of the law. U.S. 
fishery exports command higher prices and more respect in the global 
marketplace because of our firm commitment to well-managed stocks. But 
the agency's newly proposed guidance for how to implement National 
Standard 1 would allow some years of overfishing to go unaddressed, and 
would allow managers to make riskier decisions when managing stocks. 
Doesn't the proposed guidance conflict with the Act by increasing the 
risk that overfishing will occur, and jeopardize our international 
reputation for stellar management?
    Answer. Under the Magnuson-Stevens Act (MSA), the U.S. has become 
an international leader in fisheries management and we are committed to 
continuing our successful efforts to prevent overfishing and rebuild 
overfished fisheries. To this end, the proposed revisions to the 
National Standard 1 (NS1) guidelines are designed to both strengthen 
and clarify existing guidance on preventing overfishing.
    The proposed revisions to the NS1 guidelines, if finalized, would 
allow managers to consider multiple years of data in order to make a 
more accurate determination of whether a stock is subject to 
overfishing. This provision would not increase the risk that 
overfishing will occur because it pertains strictly to reporting 
requirements. Furthermore, this provision, in no way, would allow 
overfishing to go unaddressed because the management measures such as 
annual catch limits must be established to prevent overfishing every 
year. Instead, the proposed revisions would give managers greater 
certainty when reporting that a stock is subject to overfishing and 
will help avoid the potential negative market impacts of listing a 
stock as subject to overfishing based on a single year of uncertain 
data. In developing a final rule, NOAA is carefully considering all 
comments on the proposed rule including those concerning whether a 
stock is subject to overfishing.

    Question 8. Rebuilding Overfished Stocks.--Mr. Rauch, the Magnuson-
Stevens Act states that the Secretary is to review rebuilding fisheries 
every two years, and determine if adequate progress is being made in 
recovering overfished stocks. 16 U.S.C. 1854(e)(7). The agency's 
proposed guidance for National Standard 1 seeks to define ``adequate 
progress,'' but the proposed language only examines whether the plan is 
being implemented as intended, or if there is ``unexpected'' new 
information.
    This guidance lacks any consideration of whether the health of the 
stock is actually improving. How does the agency defend suggesting that 
rebuilding plans can be making adequate progress even if no rebuilding 
is occurring?
    Answer. The Magnuson-Stevens Act (MSA) has established a rigorous, 
science-based management system that successfully rebuilds overfished 
fisheries. Since 2000, 39 fish stocks have been fully rebuilt to 
sustainable population levels. Biomass is the key factor in determining 
if a stock is rebuilt. However, during the rebuilding plan, increases 
in biomass are often not steady, but are more irregular--several years 
of poor recruitment may yield little biomass increase, followed by a 
strong year or two that significantly increases the biomass. Experts, 
including the National Research Council in its 2013 evaluation of stock 
rebuilding mandated by the 2007 Magnuson-Stevens Reauthorization Act, 
have concluded that rebuilding plans should focus on adequate control 
of fishing mortality. By focusing on controlling fishing mortality, 
managers can avoid issues with updating rebuilding timelines that are 
based on biomass milestones, which are subject to uncertainty and 
changing environmental conditions that are outside the control of 
fishery managers.
    Further, NMFS has found that, in most cases where biomass does not 
increase significantly toward rebuilding goals, fishing mortality rates 
have remained too high. Therefore, NMFS believes that emphasizing 
achievement of the rebuilding plans' fishing mortality goals is 
essential to ensuring adequate progress in rebuilding. In the small 
number of cases where fishing mortality is fully controlled to the 
planned level, but the stock fails to increase in biomass, the 
environmental conditions causing poor stock productivity need to 
improve before rebuilding will succeed. These cases, where a rebuilding 
plan is being implemented correctly, but the biomass of the stock is 
not responding with increased biomass, would be considered 
``unexpected'' and under this circumstance, the proposed National 
Standard 1 guidance still allows NMFS to determine that the rebuilding 
plan is not making adequate progress towards rebuilding which would 
require the Council to re-evaluate the rebuilding plan. In developing 
final revisions to the guidelines, NOAA is carefully considering all 
comments on the proposed guidelines, including those concerning 
rebuilding plans.

    Question 9. Timelines for Rebuilding Overfished Stocks.--Mr. Rauch, 
The Magnuson-Stevens Act says that overfished stocks are to be rebuilt 
in as short a time as possible. 16 U.S.C. 1854(e)(4). Proposed changes 
to the National Standard 1 guidelines offer new ways to calculate the 
maximum length of time for a rebuilding plan for those stocks that take 
longer than 10 years to rebuild. Under the new proposal, managers would 
have three different methods to calculate the maximum rebuilding time. 
However, the agency fails to provide any advice for how to choose 
between the three options. This new slate of choices allows managers to 
choose the most risky option, which could undermine rebuilding 
successes and would be counter to the requirements of the law. How does 
the agency intend to ensure that rebuilding is occurring in as short a 
time as possible under the newly proposed guidelines?
    Answer. The Magnuson-Stevens Act (MSA) and National Standard 1 
(NS1) Guidelines require that when a fish stock is determined to be 
overfished, a plan be put into place to rebuild the stock. This is 
accomplished through rebuilding plans that, pursuant to the MSA, must 
specify a target time period for rebuilding that is as short as 
possible, taking into consideration certain factors, such as the 
biology of the stock and the needs of fishing communities. To calculate 
this target time period, the National Standard 1 Guidelines provide for 
identifying a minimum time to rebuild (i.e., where there is no fishing 
mortality) and a maximum rebuilding time, and state that the target 
time period shall not exceed the maximum time period and shall be based 
on the statutory factors. NMFS emphasizes that management measures for 
rebuilding stocks are developed and implemented based on the shortest 
time possible in which the stock can rebuild (i.e., the target 
rebuilding timeline), not the maximum allowable time.
    Traditionally, calculating a maximum time for a stock to rebuild 
requires reliable information on the life history of the stock. Such 
information is not available in all cases, and even if available, might 
have a much higher level of uncertainty than other sources of available 
data such as fishing mortality. Thus, the proposed revisions to NS1 
guidelines provided two additional scientifically supported methods to 
calculate a maximum allowable time to rebuild that are intended to 
provide Regional Fishery Management Councils and their Scientific and 
Statistical Committees options to use a calculation method that is 
based on the best scientific data available. Based on internal 
analyses, NMFS does not expect that the three calculation options will 
produce drastically different estimates. Furthermore, the selection of 
a calculation method must be based on what sources of data are 
determined to be the best scientific information available, rather than 
the outcome of the calculation. In developing final revisions to the 
guidelines, NOAA is carefully considering all comments on the proposed 
guidelines including those concerning rebuilding timelines.

    Question 10. National Standard 1.--While the agency has proposed 
revising guidelines for how to achieve the goals of National Standard 1 
in the Magnuson-Stevens Act, the revisions are silent on how to 
confront climate change and other enormous challenges that our 
fisheries face. How does the agency expect Councils to achieve optimum 
yield and ensure fisheries provide the greatest overall benefit to the 
Nation without revising the guidance to confront these challenges?
    Answer. Climate-related changes are affecting the Nation's valuable 
living marine resources and the people, businesses, and communities 
that depend on them. However, NMFS is taking proactive steps to both 
produce and use climate-related information to fulfill our statutory 
mandates in a changing climate. The existing National Standard 1 (NS1) 
guidelines establish an adaptive, science-based Federal fisheries 
management system that allows Regional Fishery Management Councils 
(Councils) to respond to these environmental changes that may that 
inhibit their ability to achieve optimum yield (OY) on a continuing 
basis.
    Optimum yield is prescribed on the basis of a stock's maximum 
sustainable yield (MSY) as reduced by ecological, economic, and social 
factors. The existing NS1 guidelines are designed to be responsive to 
changing environmental conditions and other emerging challenges in 
Federal fisheries management and set forth examples of how to apply 
ecological factors related to climate change when setting a stock's OY. 
In fisheries where councils are aware of climate change impacts that 
affect the yield available from a stock, they can, and should, 
reevaluate the OY specification for the fishery, consistent with the NS 
guidelines and the best scientific information available.

    Question 11. Are the Magnuson-Stevens Act and the guidelines 
properly equipped to deal with climate change?
    Answer. The Magnuson-Stevens Act (MSA) and the existing National 
Standard 1 (NS1) guidelines establish an adaptive, science-based 
Federal fisheries management system capable of responding to changes in 
environmental conditions, including changes caused by climate change. 
To further strengthen this system, NMFS proposed revisions to the NS1 
guidelines which instruct Councils to manage their fish stocks 
according to the changing needs of the fishery, which would encompass 
necessary management adjustments in response to climate change. In 
developing final revisions to the guidelines, NOAA is carefully 
considering all comments on the proposed guidelines including those 
related to ensuring management responds to changing ocean conditions.

    Question 12. Recently, NOAA Fisheries released a draft Ecosystem-
Based Fisheries Management (EBFM) policy, under which managers weigh 
existing data about where fish live, what they eat, what eats them, and 
what impacts they face from various threats, including climate change. 
The draft policy intends to and repeatedly highlights EBFM's usefulness 
in optimizing the benefits from fishery resources, evaluating trade-
offs, and making better decisions. Why wasn't this important tool 
included in the NS1 guideline revisions to better address climate 
change and other considerations into management?
    Answer. NMFS supports the incorporation of ecosystem-based 
fisheries management (EBFM) into Federal fisheries management; the 
implementation of EBFM practices can occur within the current 
management framework and are supported by the National Standard 1 (NS1) 
guidelines. Further, NMFS' proposed revisions to the NS1 guidelines 
include several new provisions that facilitate the incorporation of 
EBFM into Federal fisheries management, including a provision that 
allows Councils to take into account multi-species interactions within 
their management frameworks. However, implementing EBFM, as described 
in the draft NMFS EBFM policy, spans multiple national standards within 
the MSA and the implementation of multiple statutes. While the NS1 
guidelines can accommodate many specific EBFM approaches, they are not 
the only source of guidance for implementing a broader EBFM approach.

    Question 13. Fisheries Enforcement.--Mr. Rauch, how do fisheries 
dependent data, such as catch history, inform the stock assessment 
process? If a participant in a fishery with significant catch history 
regularly and chronically over-reported or underreported catch of a 
species, or misreported one species as another species, can you 
describe how those actions might affect the accuracy of the stock 
assessment process? What kind of biases might this introduce into the 
process?
    Answer. Stock assessments rely on accurate information about total 
catch over time to determine the historical effects of fishing. Thus, 
any misreporting or errors in the catch history can result in biases in 
stock assessment results. In particular, estimates of stock size and 
fishing mortality are most susceptible to these biases. However, the 
magnitude and the direction of biases cannot be generalized and can 
only be evaluated on a case-by-case basis. There are many factors that 
would affect how biased an assessment result would be, including the 
degree of misreporting, the time over which misreporting was occurring, 
stock-specific biology and productivity, and potential interacting 
effects of changing ecosystems and fishing strategies.

    Question 14. Fisheries Enforcement.--Mr. Rauch, NOAA's fisheries 
enforcement officers, special agents, Coast Guard boarding officers, 
and state enforcement officers operating under a Joint Enforcement 
Agreement are out there, every day, doing the tough work of ensuring 
compliance and a level playing field for our fishermen by enforcing our 
complex Federal fisheries regulations, and I commend their dedication 
and bravery. However, since 2010 we have seen the number of NOAA law 
enforcement personnel steadily decline--from 187 in 2010 to just 89 
today. In the Northeast Region, NOAA has issued zero Notices of 
Violations from 2010-2013, and only a few in the past two years, 
despite handling over 700 investigations in 2015. Has the decrease in 
fisheries law enforcement capacity in the U.S. opened opportunities for 
nefarious individuals to operate?
    Answer. The total staff of NOAA's Office of Law Enforcement (OLE), 
including both sworn and non-sworn members, has gone from 234 in 2010 
to 189 today. OLE is in the process of hiring 31 new enforcement 
officers. OLE will continue to manage its resources to enforce the 
Federal statutes under NOAA's purview to deter violations. OLE 
continues to conduct investigations of illegal activity and has a 
number of recent successes with both international and domestic 
investigations. These successes also demonstrate the level of expertise 
we can bring to bear with current resources.

    Question 15. Are there opportunities for better strengthening 
relationships with partner agencies (i.e., the Coast Guard and JEA 
partners) to better utilize existing enforcement resources?
    Answer. OLE works continuously with our JEA partners to ensure we 
are maximizing appropriated funds provided to our State partners to 
help OLE meet its ever expanding mission. We recently met with all of 
our State partners at a joint meeting to discuss process and mission 
priority identification improvements in order to continue to improve 
the program. OLE continues to have a good cooperative and collaborative 
relationship with our Federal partners including the Coast Guard and 
the U.S. Fish and Wildlife Service.

    Question 16. What is NOAA's plan for hiring new enforcement 
officers and placing them out into the field?
    Answer. NOAA is using both the normal hiring process as well as 
special hiring authorities like the Veterans Recruitment Act (VRA) to 
speed up the process of bringing on board additional enforcement 
officers. OLE has recently conducted a staffing analysis that has 
identified the highest priority locations for new enforcement officers.

    Question 17. Do NOAA OLE personnel feel they have the support and 
tools they need to do their job? If not, what could we do to help?
    Answer. Through the Presidential Task Force on Combatting IUU and 
Seafood Fraud, the Administration recommended broader search and 
inspection authority, detention authority, administrative subpoena 
authority and additional prohibitions to address trafficking in IUU 
fish and fish products. These authorities would help OLE combat IUU 
fish that has entered into the U.S. stream of commerce and that 
promotes unfair trade practices and directly affects and competes with 
lawfully harvested domestic product from the U.S. fishing industry.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                        Hon. Samuel D. Rauch III
    Question 1. Protecting our Waters.--Mr. Rauch, at the hearing you 
indicated that you believe current law is adequately protecting fish 
habitat. At the same time, you also said that fisheries managers are 
limited to only addressing impacts of fishing on such habitat. Can you 
explain what tools exist for Councils to impact other activities that 
could have adverse effects on fish habitat?
    Answer. The Essential Fish Habitat Program under the Magnuson 
Stevens Act has successfully conserved the habitats that are the 
foundation of the Nation's fisheries for the past 20 years. Fishery 
Management Councils seize opportunities through this program by 
commenting on proposed Federal activities with recommendations to NOAA 
Fisheries and other Federal agencies to protect habitat that could be 
impacted by activities unrelated to fishing. Several Councils have an 
active interest in reviewing these activities and have procedures in 
place to improve coordination with NOAA Fisheries on such comments.
    Fishery Management Councils also have a voting seat in the Regional 
Ocean Planning Bodies. These Bodies develop regional ocean plans to 
address healthy ocean ecosystems, sustainable ocean uses, and 
coordinated management. They provide an opportunity for Councils to 
work with scientists and other stakeholders to develop and test 
applications of ecosystem based management and influence decisions on 
ocean development.

    Question 2. If a Council or NOAA Fisheries raises concerns about 
activities that occur under the oversight of another agency, how does 
that agency have to respond? Do they need to take any regulatory 
action?
    Answer. While Federal agencies are not required to implement our 
advisory conservation recommendations, when they choose not to do so, 
they are required to send a written justification explaining why they 
are permitting the proposed project in a way that is inconsistent with 
NOAA's advice. Strong relationships between NOAA Fisheries and other 
Federal agencies, however, frequently result in applicants 
incorporating conservation measures during the pre-application, early 
project-planning stage, leading to efficient and effective habitat 
conservation. This collaborative process relieves the Federal agency 
from the burden of lengthy, expanded consultations, inspires smart 
development, and allows activities to move forward with as minimal 
impact to fish habitat as possible.

    Question 3. Do you think there would be a benefit for our fisheries 
if NOAA and the Councils were given additional opportunities to 
participate in decisions regarding non-fishing activities, such as oil 
and gas exploration and development that affect fisheries and marine 
habitats?
    Answer. Councils currently have opportunities to provide this kind 
of input, and many Councils have taken advantage of this. Several 
Councils have coordination procedures with NOAA Fisheries or explicit 
policy statements on non-fishing activities. For example, the North 
Pacific Fishery Management Council and NOAA Fisheries' Alaska Regional 
Office have an agreement to coordinate comments on Federal activities 
that could have major impacts to essential fish habitat or would 
conflict with fishing operations. The Mid-Atlantic and South Atlantic 
Fishery Management Councils have developed policy statements on various 
coastal and offshore development activities to guide our comment 
letters and to inform other Federal agencies of the Councils' habitat 
conservation priorities.

    Question 4. Mr. Rauch, under current law, Councils are required to 
work with NOAA Fisheries to identify essential fish habitat (EFH) in 
their regions and minimize adverse effects from fishing, but only ``to 
the extent practicable.'' How does this practicability caveat impact 
the designation and protection of EFH?
    Answer. The practicability clause has no influence on EFH 
designations. Councils are required to identify EFH based on the best 
available science. Practicability must be taken into account when 
considering EFH protection. NOAA Fisheries and the Councils struggle to 
quantify the habitat conservation benefits of measures when seeking to 
minimize fishing impacts (e.g., gear modifications), which makes it 
difficult to evaluate tradeoffs between habitat conservation and 
impacts to the fishing industry.

    Question 5. Does the practicability caveat result in important 
fisheries habitat from not being protected?
    Answer. In some cases, without quantitative data on habitat 
conservation benefits, the available data on the economic impact to the 
fishing industry may lead Councils to find habitat protection measures 
not practicable.

    Question 6. Dusky Shark Bycatch.--What actions does the National 
Marine Fisheries Service intend to take to help the dusky shark to 
rebuild and to prevent further bycatch?
    Answer. Both the commercial and recreational harvest and retention 
of dusky sharks has been prohibited since 2000. The stock has been 
under a rebuilding plan since 2008 when Amendment 2 to the 2006 
Consolidated Atlantic Highly Migratory Species (HMS) Fishery Management 
Plan (FMP) was implemented. Amendment 2 modified and established 
regulations in the shark fishery that dramatically changed how the 
directed shark fishery operates and took additional measures to reduce 
fishing mortality on dusky and other sharks. These regulations 
included, but were not limited to: requiring fins remain naturally 
attached, reducing the commercial trip limit from 4,000 pounds (dressed 
weight) to 36 \1\ non-sandbar large coastal sharks (LCS) per trip, and 
prohibiting the retention of sandbar sharks--the primary species 
targeted by the directed shark fishery at that time--outside a limited 
shark research fishery. These measures have greatly reduced dusky shark 
mortality in the directed shark fishery, in large part because dusky 
sharks are often caught in areas where sandbar sharks are caught. 
However, only two years of data under these regulations (2008 and 2009) 
were incorporated in the most recent stock assessment for dusky sharks 
that was finalized in 2011 through Southeast Data Assessment and Review 
(SEDAR) 21. That stock assessment showed that the dusky shark 
population was overfished and experiencing overfishing. Since the 2011 
assessment, updated information and analyses conducted for an 
Endangered Species Act Status Review in 2014 and for the HMS Advisory 
Panel meeting in 2015, show positive trends in abundance of dusky 
sharks and reductions in fishing mortality of dusky sharks, signifying 
a significant improvement for the dusky shark population. An update to 
the stock assessment, which incorporates data through 2015, is underway 
and is expected to be completed in August 2016. Once stock assessment 
update results are finalized, NMFS will take additional action, as 
appropriate, to continue to rebuild the dusky shark population in 
Amendment 5b to the 2006 Consolidated HMS FMP.
---------------------------------------------------------------------------
    \1\ The Final Rule for Amendment 6 to the 2006 Consolidated HMS FMP 
(80 FR 50073; August 8, 2015) changed the non-sandbar LCS trip limit to 
a default of 45 sharks per trip with a range that can be adjusted from 
1 to 55 sharks.

    Question 7. Recreational Fishing.--What specific, tangible changes 
is NOAA making in their fisheries management in line with the new 
recreational fisheries policy adopted last year?
    Answer. NOAA Fisheries is working diligently to achieve the goals 
of the National Policy for Saltwater Recreational Fisheries by 
fulfilling commitments identified in the supporting Recreational 
Fisheries Implementation Plan. The National Implementation Plan 
identifies more than 60 specific commitments that support the 
objectives and goals of the Saltwater Recreational Fisheries Policy. 
The examples of recent progress supporting the national recreational 
saltwater fisheries policy cited below represent a limited portion of 
ongoing work. Progress includes:

  <bullet> NOAA Fisheries worked closely with anglers, states, and the 
        Pacific Fisheries Management Council to expand recreational 
        fishing opportunities with the recent approval a new six month 
        mid-water long-leader fishery for rockfish of the coast of 
        Oregon.

  <bullet> NOAA Fisheries and the Atlantic States Marine Fisheries 
        Commission will jointly host a national workshop examining the 
        potential of artificial reefs as a management tool to support 
        or enhance sustainable recreational fisheries June 9-10, 2016 
        (Alexandria, VA).

  <bullet> NOAA Fisheries is finalizing a new fisheries allocation 
        policy jointly developed by the Federal Fishery Management 
        Councils' Coordinating Committee and NOAA Fisheries 
        (anticipated Spring 2016). Of substantial interest to 
        recreational anglers, the policy will facilitate periodic 
        council review of catch allocations.

  <bullet> NOAA Fisheries awarded approximately $2.2 million in grants 
        to recreationally fishery focused research projects through the 
        Saltonstall Kennedy Grant Program in FY15.

  <bullet> NOAA Fisheries released regionally tailored recreational 
        policy implementation plans in late April 2016. These plans, 
        developed with the input anglers, states and councils, step 
        down the national policy and plan and facilitate identification 
        and resolution of regionally specific recreational issues where 
        anglers live and fish.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                        Hon. Samuel D. Rauch III
    Question 1. Black Sea Bass and Summer Flounder in New England.--Mr. 
Rauch: Warming ocean temperatures are having a significant impact on 
species distribution on the Atlantic coast. Fish that were 
traditionally in mid-Atlantic waters are now migrating further north as 
ocean temperatures climb. Two of these species that have noticeably 
grown in numbers in waters off of the coast of CT are black sea bass 
and summer flounder.
    Just last week, I had the opportunity to meet with the Connecticut 
Seafood Council and other representatives of the fishing industry and 
community within my state. What fishermen in Connecticut tell me is 
that while the number of black sea bass and summer flounder found off 
the coast of Mid-Atlantic States is dwindling, New England is 
experiencing an increase in these species. I don't want to contradict 
what conservationists and NOAA's scientists and observers are telling 
us about the reasons for this shift. And whether the cause is due to a 
recovery of the species or a shift northward of species that have yet 
to fully recover is a separate issue. My concern is that, if there are 
environmental and ecological forces at play that are resulting in a 
different distribution of fish and in waters of a fishery that doesn't 
have oversight of the management of those species, does MSA adequately 
account for those changes.
    In November of last year I led a letter to NOAA on this topic. The 
letter was signed by the entire Connecticut and Rhode Island 
delegations. The letter called for NOAA to consider ways to use its 
ecosystem-based fishery management practices to give the New England 
Fishery Management Council more of a say when population distributions 
shift. NOAA responded in a letter that MSA provides authority to 
determine when joint management between councils is necessary, but I 
think this issue is worth revisiting in this forum.
    Despite the agency's assurances that MSA has a mechanism to allow 
for joint management, the fishing community in New England still feels 
underrepresented in the management decisions for black sea bass and 
summer flounder. Can you explain the process by which MSA allows for 
joint management?
    Answer. MSA section 304(f) states that in situations where the 
fishery in question extends beyond the geographical area of any one 
Council's jurisdiction, the Secretary may either designate one Council 
to prepare the FMP or may require a joint FMP. The appropriate 
management approach for shared stocks varies depending on specific 
circumstances. Ideally, the associated Councils and NMFS work together 
to determine when joint management is appropriate or should be 
considered, like in the case of black sea bass and summer flounder. 
These species are currently jointly managed through the Mid-Atlantic 
Council and the Atlantic States Marine Fisheries Commission 
(Commission). The Mid-Atlantic Council's area of responsibility 
includes areas seaward of states specified in the MSA, and voting 
members of the Council include officials from each of those states. The 
Commission is made up of representatives from all Atlantic states, 
including the New England states; any decisions made about the 
management of black sea bass and summer flounder are reviewed by all 
members of both the Commission and Mid-Atlantic Council.

    Question 2. Should this process be re-examined to allow for a 
quicker adoption of joint management plans if species distributions 
rapidly shift?
    Answer. Joint management requires management measures to be 
approved by both Councils concerned, and thus often result in a slower 
and more arduous management process. MSA section 304(f) specifies that, 
``no jointly prepared plan or amendment may be submitted to the 
Secretary unless it is approved by a majority of the voting members, 
present and voting, of each Council concerned.'' Therefore, creation of 
a joint management plan may not be appropriate for situations that 
require a rapid management response, including situations where fish 
stocks rapidly expand or drastically alter their ranges.

    Question 3. In regard to summer flounder and black sea bass, is 
joint management the answer to this issue? Do you have any other 
recommendations to make sure all parties feel adequately represented?
    Answer. While summer flounder and black sea bass are not jointly 
managed by the New England and Mid-Atlantic Councils, these stocks are 
jointly managed through the Mid-Atlantic Council and the Atlantic 
States Marine Fisheries Commission (Commission). Given that the 
Commission includes representatives from all Atlantic states, including 
the New England states, the current management approach allows 
significant input from New England states. Significant stock-wide 
decisions, including allocations decisions, are made by all the 
Commission members, including those representatives of the New England 
states, as well as all members of the Mid-Atlantic Council.
    Through the Commission, the states implement management measures 
for their commercial and recreational fisheries, tailored to individual 
state needs. In response to an increased abundance of black sea bass 
off of New Hampshire and Maine, the Commission has recently added New 
Hampshire and Maine to the Black Sea Bass Management Board.
    The Mid-Atlantic Council and Commission are currently developing a 
comprehensive summer flounder amendment to review the Fishery 
Management Plan (FMP) in its entirety. This action may result in 
changes to the state-by-state quotas. When established, these 
allocations were based exclusively on historical proportion of catch. 
The Commission has discussed options for updating allocations that take 
into account the current distribution of the stock, but are still 
working to determine the appropriate actions to take. All states are 
represented in the Commission, and as such, any decisions to adjust 
allocation formulas for summer flounder will be reviewed and considered 
by all members of the Commission.

    Question 4. Structure of Fisheries Management.--Mr. Rauch, NOAA's 
response to my letter also mentioned that summer flounder and black sea 
bass are co-managed by the mid-Atlantic Fisheries Council--which 
governs Federal fisheries--and the Atlantic State Marine Fisheries 
Commission which handles state fisheries management and on which 
Connecticut is represented. The response letter also mentions that the 
New England Council has a liaison to the mid-Atlantic Council, which 
provides the New England region with input toward the management of 
mid-Atlantic species.
    However, members of the Connecticut fishing community have 
explained to me that the Commission's authority is subordinate to that 
of the mid-Atlantic Council and that in areas of dispute, the Council's 
determination prevails. Additionally, although the New England Council 
has a liaison to the mid-Atlantic Council, it is one liaison for the 
entire region. And while we are a region that shares many issues, there 
are concerns and conditions specific to each New England state and its 
fishing industry. Can you provide more detail about the co-management 
relationship between the mid-Atlantic Council and the Atlantic States 
Commission?
    Answer. The Mid-Atlantic Council and the Atlantic States Marine 
Fisheries Commission (Commission) have a joint fishery management plan 
(FMP) for summer flounder, scup, and black sea bass. For stock wide 
decisions, including setting catch limits, the Council and the 
Commission carefully consider the issues collectively and make final 
recommendations together. For example, in setting the overall level of 
catch for each species, the Mid-Atlantic Council's Scientific and 
Statistical Committee (SSC) makes a recommendation called the 
``acceptable biological catch'' (ABC). Pursuant to the Magnuson-Stevens 
Act, the Council cannot recommend a catch level that exceeds the 
fishing level recommendations (i.e., ABC) of its SSC, and the 
Commission typically votes in coordination with the Council's 
recommendation. Changes to the state-by-state allocations of summer 
flounder must be approved by both the Council and the Commission before 
being implemented. In the case of black sea bass, however, the 
Commission has sole responsibility for the state-by-state allocations. 
As such, any changes to that measure would only require consideration 
and action by the Commission.

    Question 5. Can you provide more detail about the New England 
liaisons role to the mid-Atlantic Council?
    Answer. The primary role of the New England Council liaison to the 
Mid-Atlantic Council is to attend Mid-Atlantic Council meetings and 
report on activities of interest or jurisdictional overlap to the New 
England Council. In some instances, including for summer flounder and 
black sea bass specifications and management decisions, the New England 
liaison participates as an equal member of the Mid-Atlantic Council 
with voting privileges. The New England Council liaison can also 
participate as a member of management boards and committees, like the 
Mid-Atlantic Council's Demersal Committee and Black Sea Bass Management 
Board.

    Question 6. In instances where fish populations shift from the 
waters of one region to another, is the current system adequate to 
provide representation to each or fair representation to the region 
that is experiencing the influx of new species?
    Answer. The MSA provides a variety of options to ensure 
representation of the appropriate regions when fish populations shift 
across Council jurisdictions. For example, as described above, MSA 
section 304(f) states that in situations where the fishery in question 
extends beyond the geographical area of any one Council's jurisdiction, 
the Secretary may either designate one Council to prepare the FMP or 
may require a joint FMP. Councils also include liaisons from adjacent 
Councils to ensure appropriate representation on issues of 
jurisdictional overlap. MSA section 302(g) provides the Councils with 
considerable latitude to appoint needed experts to advisory bodies and 
its scientific and statistical committees. Already, some Councils, 
particularly on the East Coast, share Science and Statistical Committee 
(SSC) members. This practice can be expanded as the need arises to 
ensure adequate representation as stocks shift.

    Question 7. Environmental Impacts on Species Distribution.--Mr. 
Rauch, I want to again stress that we should let the best science 
dictate catch limits and that rebuilding stocks and vulnerable species 
have the ability to recover are imperative priorities. My argument is 
that if certain species distributions are shifting, that the new region 
where the species are found should be able to contribute its research, 
scientific findings, and expertise in determining what the proper and 
appropriate catch limit should be.
    In NOAA's response letter to me, the agency indicated that while 
black sea bass appears to be recovering, uncertainty still exists as to 
the full recovery of the species. The agency also state that summer 
flounder abundance is still decreasing although the distribution may be 
changing. It seems that experts of New England's waters and conditions 
in the region could help fill out the picture of changes these species 
are undergoing as well as the health status of the populations. 
Connecticut produces tremendous research at UConn and Mystic Aquarium, 
among other institutes and research facilities. The fishermen in 
Connecticut who are experiencing these conditions daily can also 
provide much needed perspective and deserve to have their voices heard.
    My letter was in response to NOAA's proposed ecosystem-based 
fishery management policy, which calls for the reliance on 
environmental and ecological indicators to determine management 
decisions.
    I know that it is early in NOAA's development of the ecosystem-
based fishery management policy and that the agency is still reviewing 
the feedback it received during the public comment period, but are 
there any preliminary data or findings that you can share that could be 
useful in guiding our MSA reauthorization process?
    Answer. In our work to develop a national policy for ecosystem-
based fishery management, it is increasingly apparent that a lot is 
already being accomplished with the authorities we have under the 
Magnuson-Stevens Act (MSA) and other statutes, such as Endangered 
Species Act and the Marine Mammal Protection Act. Fishery management 
councils have developed 10 Fishery Ecosystem Plans around the country 
and are tackling a variety of ecosystem-related issues through their 
regular fishery management process, including issues like deep sea 
coral protection, multi-stock interactions, forage fish, and the 
impacts of climate change.

    Question 8. Are changing environmental conditions like climate 
change and sea temperature rise adequately provided for in MSA as it 
currently stands?
    Answer. The Magnuson-Stevens Act (MSA) currently contains several 
provisions that provide mechanisms for addressing climate change 
impacts. For example, the Act requires that fishery management councils 
specify optimum yield for the fishery and defines optimum yield, in 
part, as being prescribed on the basis of maximum sustainable yield, as 
reduced by any relevant economic, social and ecological factors. 
Changing ocean conditions resulting from climate change is an 
ecological factor that could be addressed in the setting of optimum 
yields. The Act also includes direction (MSA section 304(f)(1)) for 
fisheries that cross multiple Council jurisdictions, which could help 
guide decisions as stocks shift due to changing ocean conditions.

    Question 9. How can we improve the inclusion of expertise from new 
regions as those regions see a larger share of certain species?
    Answer. The Magnuson-Stevens Act (MSA) section 302(g) provides the 
Councils with considerable latitude to appoint needed experts to 
advisory bodies and its scientific and statistical committees. Already, 
some Councils, particularly on the East Coast, share Science and 
Statistical Committee (SSC) members. This practice can be expanded as 
the need arises. Further, fisheries management operates within a public 
forum and we encourage stakeholder participation in that process. All 
data and observations are welcome for consideration in stock 
assessments; however, any data source (NOAA or external) is subjected 
to the same peer-review process to ensure its quality and that it is 
used appropriately.

    Question 10. MSA and Aquaculture.--Mr. Rauch: The impact of 
aquaculture to the United States economy is enormous. However, while 
the United States is a major generator of research and aquaculture 
related innovations that contribute to the growth of the industry 
globally, our seafood trade deficit has ballooned to over $11 billion 
annually. Half of the seafood consumed in the United States is produced 
through aquaculture, but only 5 percent of our seafood is produced 
domestically.
    Despite NOAA declaring aquaculture priority for the Nation's marine 
economy, less than one percent of the agency's budget goes to 
aquaculture research. The nation's largest contributors to aquaculture 
research, like the NOAA Northeast Fisheries Science Center in Milford, 
CT are pioneering groundbreaking aquaculture techniques while falling 
victim to budget cuts and personnel shifting.
    In 1993, through a legal interpretation, it was determined that 
aquaculture fell under the definition of fishing under MSA, thus giving 
NOAA authority over permitting and other oversight activities regarding 
aquaculture. Yet, aquaculture is not specifically mentioned in MSA 
statute. This has led to uncertainty in the permitting process, 
discouraging commercial investment and has allowed resources to be 
shifted away from aquaculture research even while NOAA is stating that 
aquaculture is a priority. What is NOAA's official stance on the 
importance of aquaculture and its role in the United States seafood and 
fishing industry?
    Answer. The National Aquaculture Act of 1980 declared that it is 
``in the national interest, and it is the national policy, to encourage 
the development of aquaculture in the United States.'' NOAA's Next 
Generation Strategic Plan (2010) aligns with this mandate and declared 
that maintaining sustainable fisheries and safe marine-origin foods is 
a priority for NOAA and that a key component of this objective is the 
development and implementation of a national aquaculture policy that 
provides information and guidance to implement ecologically and 
economically sustainable aquaculture programs. NOAA's Marine 
Aquaculture Policy (2011) states that aquaculture is an important 
component of NOAA's efforts to maintain healthy and productive marine 
and coastal ecosystems, protect special marine areas, rebuild 
overfished wild stocks, restore and conserve marine and coastal 
habitat, and enable the production of safe and sustainable seafood.

    Question 11. What does NOAA currently do to demonstrate that 
aquaculture is the priority that the agency claims it is?
    Answer. NOAA reaffirmed its commitment to promoting sustainable 
aquaculture development in the United States in its Marine Aquaculture 
Policy (2011) and supports a number of important regulatory, research, 
and technology transfer activities including the following:
    NOAA is implementing the first comprehensive regional regulatory 
program for offshore aquaculture in Federal waters under the Magnuson-
Stevens Act.

  <bullet> In January, NOAA published a final rule to implement an 
        aquaculture fishery management plan developed by the Gulf of 
        Mexico Fishery Management Council.

  <bullet> NOAA Fisheries' Southeast Regional Office has developed 
        guidance for permit applicants and is ready to accept permit 
        applications and engage in a coordinated permit review process 
        with other Federal regulatory agencies in the region.

  <bullet> The Gulf regulatory program provides an example for other 
        regions interested in developing a similar regulatory program.

    NOAA staff, research, and grant funds support the advancement of 
aquaculture around the country. Examples include:

  <bullet> The National Shellfish Initiative, which was launched in 
        2011 to get more oysters, clams, and mussels into our marine 
        waters through shellfish farming and restoration.

    <ctr-circle> Since 2011, industry, NGOs, and state, tribal, and 
            Federal agencies have been working together through state 
            initiatives in Washington, Connecticut, Alaska, Oregon, and 
            California. Other states and regions are considering 
            similar initiatives. Although each state effort is somewhat 
            different, common objectives include improving regulatory 
            efficiency, science to address ocean acidification and 
            study ecosystem services, public education, and habitat 
            restoration.

  <bullet> The annual Milford Aquaculture Seminar (ongoing since 1975), 
        which transfers information and technology from NOAA's Milford, 
        Connecticut lab to the aquaculture industry, the scientific 
        community, and the public.

  <bullet> Long-standing collaboration of the Milford Laboratory with 
        two regional aquaculture high schools, which helps train the 
        next generation of aquaculture scientists in shellfish and 
        finfish aquaculture.

  <bullet> Federal reviews of shellfish farm permits and programmatic 
        approaches to shellfish permitting in Washington and California 
        (e.g., Humboldt Bay).

  <bullet> New off-bottom culture of shellfish in Mississippi and 
        Alabama.

  <bullet> The first offshore mussel farms off Massachusetts and 
        California.

  <bullet> A workshop of scientists, regulators, and shellfish farmers 
        to examine potential whale and turtle interactions with 
        offshore mussel farms in New England.

  <bullet> Siting and water column/benthic impact models for use in 
        permit decision making for fish farms in Hawaii and California.

  <bullet> The new Kenneth Chew Center for Shellfish Research and 
        Restoration at the Manchester Research Station in Washington, a 
        partnership with the Puget Sound Restoration Fund to restore 
        the native Olympia oyster in cooperation with other NGO, 
        university, tribal, state, and Federal partners.

    NOAA also engages in technology transfer, including:

  <bullet> External aquaculture grant awards in 2015 through Sea Grant 
        ($4.4 million), Saltonstall-Kennedy ($4.8 million), and two 
        Phase 1 and one Phase 2 Small Business Innovation Research 
        grants.

  <bullet> Cooperative Research and Development Act (CRADA) agreements 
        to transfer probiotics and algal culture techniques developed 
        at NOAA labs to the private sector.

  <bullet> An annual course in algal culture methods for shellfish 
        hatchery technicians at the Milford, Connecticut Lab.

    Question 12. What is NOAA's role in the oversight of the 
aquaculture industry and its management of commercial aquaculture 
siting and promotion of aquaculture research?
    Answer. NOAA's role in oversight and management. Under several 
Federal laws, including the National Environmental Policy Act, 
Magnuson-Stevens Fishery Conservation and Management Act, the Marine 
Mammal Protection Act, the Endangered Species Act, the Coastal Zone 
Management Act, and the National Marine Sanctuaries Act, NOAA is 
responsible for considering and preventing and/or mitigating the 
potential adverse environmental impacts of planned and existing marine 
aquaculture facilities through the development of fishery management 
plans, sanctuary management plans, permit actions, proper siting, and 
consultations with other regulatory agencies at the federal, state, and 
local levels.

  <bullet> In Federal waters of the Exclusive Economic Zone, NOAA has a 
        direct permitting role where there is an aquaculture fishery 
        management plan in place or if an aquaculture facility requires 
        an exemption from harvest, size, gear, season or other 
        restrictions under a Federal fishery management plan. NOAA also 
        has a direct permitting role in National Marine Sanctuaries 
        where applicable management plans do not preclude commercial 
        aquaculture activities.

  <bullet> For all aquaculture in both State and Federal marine waters, 
        NOAA engages in consultations with other Federal permitting 
        agencies (mainly the Corps of Engineers and the Environmental 
        Protection Agency) under the authority of the Endangered 
        Species Act, the Marine Mammal Protection Act, the Essential 
        Fish Habitat provisions of the Magnuson-Stevens Fishery 
        Conservation and Management Act, the National Environmental 
        Policy Act, and other statutes. NOAA also works with other 
        Federal agencies, states, tribes, and local government on 
        coordinating permit review processes.

    NOAA's aquaculture management role includes the review and approval 
of state coastal management programs which have aquaculture components, 
oversight of Federal consistency with these programs under the Coastal 
Zone Management Act, and development of models, tools, and analyses to 
assist coastal managers and regulators in identifying appropriate 
sites, evaluating proposed aquaculture projects, and monitoring 
impacts.
    NOAA's role in research. NOAA is working to address the technical 
and scientific barriers to marine aquaculture in a number of ways 
including through in-house research at science centers, grants and 
cooperative agreements with academic and other stakeholders, and by 
coordinating research with other Federal agencies.

  <bullet> NOAA's aquaculture science portfolio comprises complementary 
        and coordinated efforts in three NOAA line offices. Together 
        these efforts are critical to achieving the Administration's 
        goal of supporting sustainable marine aquaculture. The 
        Fisheries Service focuses on developing science-based ``tools 
        for rules'' to help inform permitting and other regulatory 
        decisions, as well as working with industry partners on a range 
        of topics such as hatchery techniques and disease management. 
        The Ocean Service develops coastal planning and management 
        tools and services. The Sea Grant program at the Office of 
        Ocean and Atmospheric Research provides grants to external 
        partners for industry development, as well as technology 
        transfer and extension. These efforts and those of other 
        Federal agencies (e.g., USDA) are coordinated under the 2014 
        Strategic Plan for Federal Aquaculture Research, published with 
        NOAA's assistance and leadership by the White House's Office of 
        Science and Technology Policy.

  <bullet> Two laboratories house the bulk of the Fisheries Service's 
        aquaculture science portfolio--the Northeast Fisheries Science 
        Center's Milford, CT lab and the Northwest Fisheries Science 
        Center's Manchester, WA lab. Milford has traditionally been a 
        shellfish aquaculture lab (e.g., siting tools, disease 
        management, ecosystem services) and Manchester has been a 
        finish aquaculture lab (e.g., feeds development, finfish 
        hatchery and grow-out methods). However there is growing 
        coordination and collaboration in certain areas such as some 
        aspects of feeds research. Detailed information for each lab's 
        research portfolio may be provided upon request.

  <bullet> NOAA also supports aquaculture research through its 
        competitive Small Business Innovation Research (SBIR) and 
        Saltonstall-Kennedy grant programs. The SBIR grant program 
        encourages small businesses to leverage Federal funds to invest 
        in innovative technologies and next-generation products and 
        processes that may lead to commercialization. The Saltonstall-
        Kennedy grant program funds as a priority research projects 
        that encourage the development of environmentally-and 
        economically-sound aquaculture.

    Question 13. What benefits will come of incorporating aquaculture 
into MSA reauthorization? What recommendations do you have for this 
committee in terms of what that should look like?
    Answer. It has been NOAA's longstanding interpretation that the 
Magnuson-Stevens Act provides NMFS the authority to regulate 
aquaculture as ``fishing'' and, thus, that regional fishery management 
councils have the authority to prepare fishery management plans 
covering all aspects of aquaculture in EEZ waters under their 
respective jurisdictions. NOAA is working within the context of current 
laws and regulations to address barriers to permitting of aquaculture 
in Federal waters.

    Question 14. At-Sea Monitoring.--Mr. Rauch: I have spoken with 
fishermen in Connecticut who have said that the cost of the At-Sea 
Monitoring program, or ASM, could completely erase the total profit 
from a day of fishing. While it is necessary to ensure that catch 
limits are being adhered to and that discards and other issues are 
limited, the ASM program is in need of reform to be less of a financial 
burden on fishermen in depressed and recovering fisheries. The fishing 
community in Connecticut has conveyed to me that ASM is not only 
extremely costly, many times the monitors assigned to boats lack 
adequate training.
    I recently joined a letter with my New England Senate and House 
colleagues urging NOAA to adopt the New England Council's 
recommendations for improving the ASM system in the New England 
groundfish fishery, such as a more strategic allocation of resources 
from areas of low by-catch to areas of higher by-catch.
    The New England groundfish fishery still has disaster declaration 
status. It is my hope that industry cost sharing will continue to be 
deferred until reforms can be made to limit the financial burden on New 
England's fishermen. What steps is NOAA taking to reform ASM and reduce 
the financial burden on fishermen?
    Answer. NMFS approved Framework Adjustment 55 to the Northeast 
Multispecies Fishery Management Plan, which became effective on May 1. 
This action modifies the method used to set the target coverage level 
for the industry-funded ASM program to addressing groundfish monitoring 
program objectives while making the program more cost-effective. These 
changes include removing ASM coverage for a subset of groundfish trips 
that catch little to no groundfish, using more years of data to predict 
the coverage level, and basing the coverage level on stocks that have 
the least risk tolerance for error in discard estimates.
    The changes approved in Framework 55 result in a target coverage 
level of 14 percent for the 2016 fishing year, including coverage for 
the standardized bycatch reporting methodology paid in full by our 
Northeast Fisheries Observer Program (NEFOP). Assuming NEFOP covers 4 
percent of trips as we have in recent years, this will result in 
sectors paying for ASM on approximately 10 percent of their vessels' 
trips in 2016.

    Question 15. Will you give NOAA's commitment to continue to work 
with the New England delegation to strengthen the ASM program so that 
it is more efficient, effective, and less costly for fishermen and the 
fishing industry?
    Answer. We support efforts to evaluate groundfish monitoring 
programs through our membership on the New England Fishery Management 
Council, its Groundfish Plan Development Team, and its Groundfish 
Oversight Committee. The Council made evaluation of groundfish 
monitoring a priority for 2016, and is expected to initiate a new 
amendment to consider more extensive changes to the groundfish 
monitoring program. The Council's Plan Development Team is already 
working on analysis to inform this action.
    We also remain committed to working directly with the fishing 
industry to reduce costs where possible through improved administration 
of the ASM program.

    Question 16. By-Catch.--Mr. Rauch: In my discussions with the 
Connecticut fishing industry, an issue that was frequently raised was 
the high levels of by-catch that many of them are experiencing. Because 
of the discrepancy between the numbers of black sea bass and summer 
flounder the quota setting mid-Atlantic Council observes and the 
population levels that are in New England waters, fishermen in New 
England often end up with high levels of fish that they must discard in 
order to stay below the quota limit.
    By-catch is a significant issue that has far-reaching consequences. 
By-catch disrupts the connectivity and health of entire ecosystems, 
slows progress in stock rebuilding, and is economically harmful to the 
fishing industry. What steps can be taken by NOAA or at the Council 
level to reduce and eliminate by-catch?
    Answer. NMFS agrees that bycatch is an important issue and can be a 
problem in some fisheries. NMFS and the Councils have a long history of 
addressing bycatch with notable success over the last forty years 
through improved gear technology and bycatch monitoring. We acknowledge 
that there is more work to do. In February this year, the agency 
released a draft National Bycatch Reduction Strategy aimed at 
improvements in bycatch research, monitoring, management 
implementation, enforcement, evaluation and communication. The goal of 
the draft strategy is to coordinate NMFS' efforts under multiple 
mandates to reduce bycatch and bycatch mortality and increase 
utilization of discards to maintain sustainable fisheries and recover 
protected species. The draft strategy is available for public comment 
until June 3, 2016, and once finalized, NMFS will work with our 
regional stakeholders, including the Councils, to develop regionally-
specific implementation plans. (http://www.nmfs.noaa.gov/sfa/
fisheries_eco/bycatch/index.html)

    Question 17. Can an increase in communication and cooperation 
between Councils lead to a reduction of by-catch?
    Answer. Cross-Council communication can help improve efforts to 
address bycatch in several ways. First, Councils can learn about 
effective approaches and gear solutions from each other and apply those 
in their own fisheries as necessary. For example, in 2004, the U.S. 
began requiring the use of circle hooks, which are designed to reduce 
sea turtle and mammal bycatch, in the HI longline fishery for swordfish 
and the Atlantic pelagic longline fishery. Circle hooks are now widely 
used across the country by both commercial and recreational fishermen. 
Another example of the success of cross-Council communication is in New 
England, where scallop fishermen use an early warning system similar to 
an approach used in Alaska to avoid salmon bycatch in the Alaska 
Pollock fishery. The program uses real time communications with fishing 
vessels to determine the location of `bycatch hotspots' to help 
fishermen more accurately target their scallop allocation without 
triggering bycatch closures. Similar programs in the Pacific Islands 
help fishermen avoid turtle hotspots. Additionally, cross-Council 
communication is critical when fisheries managed by different Councils 
are contributing to bycatch of the same stock or species.

    Question 18. Seafood Fraud--Mr. Rauch: In October of last year, 
Oceana issued a report that revealed wide-spread salmon labeling fraud. 
This issue is not only limited to salmon, but occurs with other species 
of fish as well. Not only is this problem misleading for consumers, as 
they pay more for what they think is higher quality fish, it also harms 
fishermen and seafood sellers who are supplying fresh caught, local 
seafood.
    I have called for additional steps to be taken to limit seafood 
fraud and I have encouraged consumers to ask questions and educate 
themselves on the origins of the seafood they are purchasing, as well 
as to buy fresh, locally caught seafood.
    Last Congress, I cosponsored S. 520, the Safety and Fraud 
Enforcement for Seafood Act. That bill would have required NOAA to 
increase inspections of seafood shipments, strengthened coordination 
with sea grant colleges--like UConn--on consumer outreach activities, 
and established penalties under MSA for seafood fraud. What is NOAA 
currently doing to prevent and eliminate seafood fraud? What 
improvements can be made to NOAA's efforts?
    Answer. The NOAA Seafood Inspection Program offers professional 
inspection services assuring compliance with all applicable food 
regulations on a fee-for-service basis, for seafood in all forms and 
regardless of location. The Program works in support of the mandatory 
Food and Drug Administration inspection activities for seafood. The 
Seafood Inspection Program has an active Memorandum of Understanding 
with FDA to work collaboratively to cover the large area of seafood 
certification, plant, and product inspection. The Program focuses on 
the buyer-supplier relationship and as a result a main function of the 
inspections would be to determine if seafood fraud is present; either 
in simple mislabeling, species substitution, low net weights, or added 
water. This service was mentioned in a 2009 GAO report on seafood fraud 
where the use of this voluntary program was encouraged. Whenever 
seafood fraud is detected through Program inspection, and Program 
personnel cannot secure correction of the issue, the product is held 
and referred to the proper enforcement authority for action.
    NOAA was a co-lead on the Presidential Task Force on IUU Fishing 
and Seafood Fraud and currently serves as co-chair of the National 
Ocean Council Committee on IUU fishing and seafood fraud. In this role 
it is responsible for, among other things, the promulgation of 
rulemaking to implement a risk-based program to trace seafood, both 
imported and domestic, from point of harvest to entry into U.S. 
commerce. Publication of the final rule implementing the Seafood Import 
Monitoring Program (NOAA already has access to the traceability data 
from harvest by domestic fishing vessels to entry into U.S. commerce) 
is expected to occur in late summer of 2016. When implemented, the 
Program will serve as a valuable tool in identifying fraudulently 
represented seafood presented for entry into the U.S.
    Further, NOAA Fisheries personnel, through the Office of Law 
Enforcement and the Seafood Inspection Program, are working to bolster 
efforts of fraud detection at the border and within commerce in the 
United States.

    Question 19. What level of consumer outreach and education is being 
coordinated by NOAA?
    Answer. In addition to weekly e-news from NOAA Fisheries related to 
all agency activities, including implementation of Task Force 
recommendations, NOAA Fisheries established and maintains a webportal 
(www.iuufishing.noaa.gov) dedicated exclusively to implementation of 
Task Force recommendations for combating IUU fishing and seafood fraud. 
With regard to the broad spectrum of ``seafood fraud'' activities that 
can occur along the supply chain, NOAA Fisheries also maintains a 
public information site, FishWatch, focused on U.S. fisheries and 
seafood, including descriptions of the most common forms of seafood 
fraud (http://www.fishwatch.gov/eating-seafood/fraud).

    Question 20. What enforcement and penalty authority does NOAA 
currently have in deterring seafood fraud?
    Answer. The U.S. Food and Drug Administration (FDA) has primary 
Federal authority to prevent seafood fraud \1\ under the Food, Drug and 
Cosmetic Act \2\ (FD&CA) which, among other things, prohibits the 
mislabeling or adulteration of seafood.\3\ FDA's authority extends to 
seafood imports as well as domestically-harvested seafood. In 
exercising its authority, FDA inspects imported seafood products, 
domestic and foreign seafood processors and importers, and assists 
state and local governments in their efforts to regulate retail 
establishments, including restaurants. FDA also maintains a list of 
acceptable market names for seafood sold in interstate commerce to 
assist processors and distributors with proper labeling of seafood 
products.
---------------------------------------------------------------------------
    \1\ In this section, the term ``seafood fraud'' refers to the false 
identification of seafood by species, e.g., species substitution and 
intentional mislabeling of seafood. Other types of fraud, including the 
falsification of catch documentation, trade tracking and other 
documents, are not addressed here.
    \2\ 21 U.S.C. Sec. 301 et seq.
    \3\ 21 U.S.C. Sec. Sec. 342 and 343.
---------------------------------------------------------------------------
    Under the Lacey Act, NOAA also has authority to address 
fraudulently-labeled seafood, including aquaculture products, which 
have entered interstate or foreign commerce. Violators are subject to 
civil and criminal enforcement, and fish imported in violation of the 
Lacey Act is subject to forfeiture. OLE conducts periodic inspections 
of imported fish and fish products in collaboration with Federal and 
state law enforcement partners to ensure compliance with the Lacey Act 
and other statutes administered by NOAA.
    U.S. Immigration and Customs Enforcement (ICE) has authority to 
address seafood fraud at the time of import or export. ICE Homeland 
Security Investigations (HSI) special agents have authority to 
investigate cross-border violations including violations of Chapter 27 
of Title 18,\4\ and Title 19, of the U.S. Code. ICE and CBP also have 
authority under Title 19 to pursue seizures, penalties, and civil 
forfeiture. ICE has authority under the Lacey Act and frequently 
cooperates with OLE in Lacey Act cases. Notably, with regard to seafood 
fraud, a Lacey Act violation may serve as a predicate offense for 
violations involving misclassification, fraudulent importation 
documentation, and importation or exportation contrary to law.\5\
---------------------------------------------------------------------------
    \4\ 18 U.S.C. Sec. 541 et seq.
    \5\ 18 U.S.C. Sec. Sec. 541, 542, 545 and 554.
---------------------------------------------------------------------------
    In addition to these authorities, the NOAA Seafood Inspection 
Program (SIP) conducts voluntary fee-for-service inspections of seafood 
products and processing facilities under the Agricultural Marketing Act 
of 1946.\6\ In the course of these inspections, SIP may identify cases 
of suspected seafood fraud, typically involving species substitution or 
incorrect net weight. Where appropriate, SIP refers cases to the FDA, 
OLE, or State authorities, for investigation under their respective 
authorities.
---------------------------------------------------------------------------
    \6\ 7 U.S.C. Sec. 1621 et seq.
---------------------------------------------------------------------------
                                 ______
                                 
    Response To Written Questions Submitted by Hon. Gary Peters to 
                        Hon. Samuel D. Rauch III
    Question 1. The USGS Great Lakes Science Center has historically 
led the science program for Great Lakes fisheries. Therefore, its role 
is somewhat analogous to one of the six NOAA Fisheries Regional Science 
Centers (Alaska, Northeast, Northwest, Pacific Islands, Southeast and 
Caribbean, Southwest) that perform fisheries research to support marine 
fisheries management decisions. What is the average funding level, and 
the range of funding, that supports fisheries research at individual 
NOAA Fisheries Regional Science Centers (FY15, FY16, and proposed for 
FY17)?
    Answer. NOAA Fisheries operates six regional science centers 
throughout the country to conduct the required science to prevent and 
eliminate overfishing, rebuild overfished stocks, support sustainable 
aquaculture, recover and conserve protected species, and protect and 
restore critical habitat. Working with government, academic and other 
partners, NOAA scientists provide the information needed for effective 
fisheries management and protected species conservation including 
assessments of ecosystem conditions, fish stocks, protected species 
populations, and socioeconomic analysis.
    Please see below for the FY 2015 actual funding and FY 2016 
estimated funding based on the proposed spend plan by NOAA Fisheries 
Science Center.

------------------------------------------------------------------------
                                                       ($ in Millions)
                                                   ---------------------
                  Science Center                     FY 2015
                                                      Actual    FY 2016
                                                     Funding    Estimate
------------------------------------------------------------------------
Northeast                                               $65.7      $53.1
------------------------------------------------------------------------
Southeast                                               $63.7      $51.6
------------------------------------------------------------------------
Northwest                                               $60.6      $42.5
------------------------------------------------------------------------
Southwest                                               $44.6      $39.1
------------------------------------------------------------------------
Alaska                                                  $72.6      $61.2
------------------------------------------------------------------------
Pacific Islands                                         $29.4      $23.3
------------------------------------------------------------------------
Office of Science and Technology (Headquarters)*        $38.9      $91.3
------------------------------------------------------------------------
* A large portion of the funding allocated to the Headquarters Office of
  Science and Technology will be distributed throughout the execution
  year to the regions in accordance with science priorities. As seen in
  the FY 2015 actual funding, regional science center receive a large
  portion of these funds from the Office of Science and Technology, as
  well as other regional fishery management offices or headquarters
  offices.

    Science center funding for the FY 2017 President's Budget Request 
is expected to be similar to the FY 2016 level, with the addition of 
the following FY 2017 science request initiatives below. The specific 
regional breakout of these proposed initiatives have not been 
determined for FY 2017.

  <bullet> Increase of $5.9 million for Ecosystem-based Solutions for 
        Fisheries Management for the NMFS component of this integrated, 
        cross-disciplinary, and cross-line office (National Ocean 
        Service) scientific initiative that will fill information gaps 
        in habitat science and connections to fisheries management, and 
        provide economic information that can be used to better inform 
        decision making to benefit stewardship and resilience of 
        inshore ecosystems and the living resources and human 
        communities that depend on them.

  <bullet> Increase of $0.9 million for the Distributed Biological 
        Observatory to expand data archiving and visualization 
        capabilities for the Distributed Biological Observatory, a 
        joint project among Federal agencies and international partners 
        supporting science to improve detection of changes to Arctic 
        marine ecosystems.

  <bullet> Increase of $1.1 million for Observers & Training to provide 
        accurate and timely information and analyses on the biological, 
        economic, and social aspects of the Nation's fisheries 
        resources. The scientific data collected by observer programs 
        are critical inputs for fisheries stock assessments and to 
        population assessments of threatened and endangered species, 
        and for effective management of the Nation's fish stocks. The 
        requested funding will provide 1,000 additional sea days of 
        observer coverage in twelve regional fishery observer programs 
        to increase the number of fisheries with adequate observer 
        coverage.

    Question 2. NOAA is not directly involved in Great Lakes fisheries 
management, because the Great Lakes fisheries are excluded from 
management under the Magnuson-Stevens Act. However, a strong fisheries 
research program is still important since it informs fisheries 
management in the region. How does NOAA coordinate with other entities 
in the Great Lakes, such as the USGS Great Lakes Science Center, to 
support Great Lakes fisheries research?
    Answer. The Great Lakes Fishery Commission has partnered with other 
agencies, including NOAA, to advance the scientific understanding of 
the dynamic environments and the ecology of the Great Lakes in support 
of resource use and management decisions. Research into applicable 
technologies is advanced by academic partners supported, in part, by 
the Interjurisdictional Fisheries Act. The NOAA Great Lakes 
Environmental Research Laboratory (GLERL) supports environmental 
observing systems in partnerships with the Great Lakes Observing System 
(GLOS), a regional member of NOAA's Integrated Ocean Observing System 
(IOOS). GLERL provides a wide variety of data products that are 
important to fish stocks and to fishing activities. These include 
hydrology, climate, ice cover, algal blooms, hypoxia, and invasive 
species. GLERL's Great Lakes Coastal Forecasting System provides 
predictions on several parameters that affect fish stocks and fishing, 
such as water temperature, currents, and ice. GLOS and the Great Lakes 
Fishery Commission launched the Great Lakes Acoustic Telemetry 
Observing System (GLATOS) tool to answer fisheries management and 
ecology questions in the Great Lakes. The system can track more than 
1,700 fish of four species--lake trout, walleye, sea lamprey, and lake 
sturgeon--tagged between 2010 and 2013. The GLOS system also provides 
access to a wide variety of historical and real-time environmental 
monitoring data.

    Question 3. We must ensure that fisheries research and management 
adapt to future challenges, such as climate change and habitat loss. 
One way to achieve this is to find solutions through development of new 
and advanced research technologies. Are there any advanced 
technologies, either in use or in development for marine fisheries that 
you think could also be applied to fisheries research in the Great 
Lakes?
    Answer. Technologies used in the Great Lakes are generally similar 
to those used in marine fisheries. These include underwater acoustics 
(sonar) for seafloor mapping, habitat characterization, and estimating 
the population of fish in the water column. In the Great Lakes, fishery 
trawl surveys routinely use acoustic technologies, and are conducted 
collaboratively between NOAA, U.S. Geological Survey, and state 
agencies. NOAA acoustic experts have provided assistance with multi-
frequency acoustic methods to improve fish abundance estimates. The 
NOAA Great Lakes Environmental Research Laboratory and NOAA's 
Integrated Ocean Observing System support ocean observation systems 
(moored and unmanned platforms) to improve the understanding of the 
dynamic environments and ecosystems of the Great Lakes for resource use 
and management decisions. Fish tagging, airborne sensors, satellite 
remote sensing are also utilized. Acoustic seafloor mapping has also 
been used for documenting historical ship wrecks in the Thunder Bay 
National Marine Sanctuary, and acoustic telemetry technologies have 
been used for documenting the distribution patterns of fish.
    NOAA Fisheries is developing and adapting several technologies for 
data collection in marine systems that could also have application in 
the Great Lakes. One promising example is automated image analysis, in 
which digital video and stereo still images of fish in their native 
habitats are analyzed for species identification and measurement. This 
approach is particularly valuable for assessing fish species that 
aggregate on physical structures, such as reefs. Another developing 
technology is unmanned platforms, which can serve as the primary system 
for deploying acoustic and/or cameras, or serve as ``force 
multipliers'' by augmenting surveys conducted from conventional 
platforms such as ships. Towed systems are particularly useful for 
surveying bottom-dwelling species with no or limited mobility. For 
example, NOAA's Northeast Fisheries Science Center has implemented an 
optical survey for Atlantic scallops using a towed stereo camera system 
called the Habitat Mapping Camera System (HabCam V4). NOAA Fisheries is 
also conducting research on how towed systems affect fish behavior, 
which is a key step in using data from these systems for stock 
assessments. (Some fish are frightened away by these systems, while 
others are attracted to them.) Underwater Autonomous Vehicles (UAV) can 
augment ship-based surveys and operate in rough or very deep habitats 
that preclude the use of conventional gear such as trawls (these 
systems also affect fish behavior). Unmanned surface platforms (e.g., 
the Waveglider) have also been investigated for expanding survey 
coverage both spatially and temporally, since they can operate for 
extended periods without human intervention.

    Question 4. Can you elaborate on potential barriers to developing 
and deploying new fisheries research technologies?
    Answer. We are constantly reviewing new technologies to determine 
suitability for deployment and for transitioning promising technologies 
into broader use. We will adopt these technologies as resources and 
competing priorities allow.

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.

      
</pre></body></html>
